    October 24, 2005




Information Technology
Management

Report on Defense Departmental
Reporting System and Related
Financial Statement Compilation
Process Controls Placed in Operation
and Tests of Operating Effectiveness
for the Period October 1, 2004
through March 31, 2005
(D-2006-008)

                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit, Audit Followup and Technical Support at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact Audit Followup and
Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
Ideas and requests can also be mailed to:

                  ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704
                                        INSPECTOR GENERAL
                                   DEPARTMENTOFDEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704




                                                                            October 24,2005


MEMORANDUM FOR THE UNDER SECRETARY OF DEFENSE
                    (COMPTROLLERICHIEF FINANCIAL OFFICER)
                   DEPUTY CHIEF FINANCIAL OFFICER
                   DEPUTY COMPTROLLER (PROGRAMBUDGET)
                   DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                     SERVICE
                   DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY

SUBJECT: Report on the Defense Departmental Reporting System and Related Financial
         Statement Compilation Process Controls Placed in Operation and Tests of Operating
         Effectiveness for the Period October 1,2004 through March 3 1,2005
         (Report No. D-2006-008)

        We are providing this report for information and use. No written response to this report
is required. Therefore, we are publishing this report in final form.
       We appreciate the courtesies extended to the staff. Questions should be directed to Mr.
Michael Perkins at (703) 325-3557 (DSN 221-3557) or Mr. G. Marshall Grimes at
(703) 428-1056 (DSN 328-1056). The team members are listed inside the back cover.
                                        By direction of the Deputy Inspector General for Auditing:




                                    '   Assistant inspector General
                                        Defense Financial Auditing
                                               Service
Table of Contents

Foreword                                                                              i

Section I
   Independent Service Auditors’ Report                                               1

Section II
   Description of the Defense Departmental Reporting System and Related Financial
   Statement Compilation Process Operations and Controls Provided by the Defense
   Finance and Accounting Service and the Defense Information Systems Agency         15

Section III
   Control Objectives, Control Activities, and Tests of Operating Effectiveness      27

Section IV
   Supplemental Information Provided by the Defense Information Systems Agency      171

Acronyms and Abbreviations                                                          175

Report Distribution                                                                 177
                                          FOREWORD


This report is intended for the use of DFAS and DISA management, its user organizations, and
the independent auditors of its user organizations. Department of Defense personnel who
manage and use the Defense Departmental Reporting System (DDRS) will also find this report
of interest as it contains information about DDRS general and application controls.

The Department of Defense, Office of Inspector General (DoD OIG) is implementing a long
range strategy to conduct audits of DoD financial statements. The Chief Financial Officers Act
of 1990 (P.L. 101-576), as amended, mandates that agencies prepare and conduct audits of
financial statements, which is key to achieving the goals of the Chief Financial Officers Act.

The DDRS provides tools for DoD financial managers to produce audited financial statements,
unaudited interim financial statements, and budgetary reports. The mission of DDRS is to
standardize the departmental reporting process, produce financial statements and budgetary
reports based on Federal requirements and standard attributes, and replace legacy departmental
and command-level reporting processes.

This audit assessed controls over the DDRS processes at DFAS and DISA. This report provides
an opinion on the fairness of presentation, the adequacy of design, and the operating
effectiveness of key controls that are relevant to audits of user organization financial statements.
As a result, this audit precludes the need for multiple audits of DDRS controls previously
performed by user organizations to plan or conduct financial statement and performance audits.
This audit will also provide, in a separate audit report, recommendations to management for
correction of identified control deficiencies. Effective internal control is critical to achieving
reliable information for all management reporting and decision making.




                                                  i
Section I: Independent Service Auditors’ Report




                       1
                                      INSPECTOR GENERAL
                                    DEPARTMENTOFDEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704




                                                                        October 24,2005


MEMORANDUM FOR THE UNDER SECRETARY OF DEFENSE
                    (COMPTROLLERICHIEF FINANCIAL OFFICER)
                   DEPUTY CHIEF FINANCIAL OFFICER
                   DEPUTY COMPTROLLER (PROGRAMJBUDGET)
                   DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                    SERVICE
                   DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY


SUBJECT: Report on the Defense Departmental Reporting System and Related
         Financial Statement Compilation Process Controls Placed in Operation and Tests of
         Operating Effectiveness for the Period October 1,2004 through March 3 1,2005

We have examined the accompanying description of the Defense Departmental Reporting
System (DDRS) general computer and application controls and the related financial statement
compilation process (Section 11). DDRS and the financial statement compilation process are
sponsored and used by the Defense Finance and Accounting Service (DFAS). The DDRS
system is jointly maintained and techcally supported by DFAS and the Defense Information
Systems Agency (DISA). Our examination included procedures to obtain reasonable assurance
about whether: (1) the accompanying description presents fairly, in all material respects, the
aspects of the controls at DFAS and DISA that may be relevant to a DDRS user organization's
internal control as it relates to an audit of financial statements; (2) the controls included in the
description were suitably designed to achieve the control objectives specified in the description,
if those controls were complied with satisfactorily and user organizations applied those aspects
of internal control contemplated in the design of the controls at DFAS and DISA; and (3) such
controls had been placed in operation as of March 3 1,2005.
The control objectives were specified by the Department of Defense, Office of Inspector General
(DoD OIG) and accepted by DFAS and DISA. Our examination was performed in accordance
with standards established by the American Institute of Certified Public Accountants and the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States, and included those procedures we considered
necessary in the circumstances to obtain a reasonable basis for rendering our opinion.
The accompanying description includes only those general computer and application control
objectives and control activities related to the unclassified aspects of DDRS and its related
operations. Also, the accompanying description includes those general computer and application
control objectives and control activities related to the receipt and processing of financial data
from user locations, but does not include general computer and application controls related to the
systems that generate and submit user financial data to DDRS. In addition, the accompanying
description includes those general and application control objectives and related control activities
applicable to the "DDRS Audited Financial Statements Module" (DDRS-AFS), the "DDRS Data
Collection Module” (DDRS-DCM), and the related financial statement compilation process, but
does not include such objectives and activities related to the “DDRS Budgetary Module”
(DDRS-B). The accompanying description includes only those general control objectives and
related controls resident at DFAS centers in Arlington, Virginia; Cleveland, Ohio; Indianapolis,
Indiana; and the DISA Defense Enterprise Computing Center (DECC) at Ogden, Utah. Further,
the accompanying description includes only those application control objectives and related
control activities resident at the DFAS centers located at Arlington, Virginia; Cleveland and
Columbus, Ohio; Denver, Colorado; and Indianapolis, Indiana.

Our examination was conducted for the purpose of forming an opinion on the description of the
DDRS-AFS general and application controls at DFAS and DISA (Section II and the control
activities described in Section III). Information about business continuity plans and procedures
at DISA, as provided by DISA and included in Section IV, is presented to provide additional
information to user organizations and is not a part of the description of controls at DFAS and
DISA. The information in Section IV has not been subjected to the procedures applied in the
examination of the aforementioned description of the controls at DFAS and DISA related to
DDRS-AFS and the related financial statement compilation process. Accordingly, we express no
opinion on the description of the business continuity plans and procedures provided by DISA.

In performing our examination, we identified design deficiencies in five of 15 application control
objectives (33 percent) that had been placed in operation as of March 31, 2005. The five
identified design deficiencies were as follows:

   Trial Balance Input to DFAS for Processing to DDRS-AFS

   The accompanying description includes control activities related to DFAS processing of user
   organizations’ trial balances for input into DDRS-AFS. The description is based on the
   assumption that user organization trial balances received at DFAS may not be in full
   compliance with federal financial reporting requirements; thus requiring adjustment prior to
   upload to DDRS-AFS. DFAS controls were designed to derive certain proprietary accounts
   from budgetary accounts, usually from the “Report on Budget Execution and Budgetary
   Resources (SF-133),” and, at DFAS-Denver, some budgetary accounts were derived from
   proprietary accounts. As certain user organizations improve their accounting and reporting
   systems and processes, some or all of their submitted data may be accurately presented and
   may not require adjustment prior to upload to DDRS-AFS based on the prescribed derivation
   assumptions. Also, DFAS processing and revision of user accounting information for input
   to DDRS-AFS was not designed to provide appropriate segregation of duties at the DFAS
   centers in Cleveland, Ohio; Columbus, Ohio; and Denver, Colorado. There was no formal
   acceptance of user organization trial balances at these DFAS centers. Further, for these
   DFAS centers, the processes for preparing the trial balances for input were not approved by
   either the center or DFAS-Arlington.

   As a result, the design of controls did not provide reasonable assurance that the control
   objective, “Controls provide reasonable assurance that trial balance data manually migrated
   into DDRS-AFS is accurate, authorized, and complete, and that data from the Report on
   Budget Execution and Budgetary Resources (SF-133), or other feeder systems, is input
   accurately into DDRS-AFS, and any reclassifications are authorized, approved, and
   monitored by an audit trail,” was achieved (Local Unique Processes control objective # 1).

   Trading Partner Eliminations

   The accompanying description includes control activities related to the elimination in
   DDRS-AFS of trading partner transactions as part of the process of consolidating the
                                             4
Department’s financial statements. However, the trading partner elimination process was
based on the inability of certain user organizations in DoD to reconcile data from the buyer
and seller in most intragovernmental transactions at the transaction level. Therefore, DFAS
developed controls for the eliminations process in DDRS-AFS that relied on the seller-side of
these transactions, adjusting the buyer-side data to agree with the seller-side data at a
summary level. This process was established in DoD Financial Management Regulation
(FMR), Volume 6B, Chapter 13. However, the DDRS-AFS process of relying on seller-side
data was not designed to include controls for reconciling differences between seller-side data
and buyer-side data at the transaction level.

As a result, the design of controls did not provide reasonable assurance that the control
objective, “Controls are in place to ensure that trading partner data are supported by adequate
documentation or valid estimating methodology. Controls provide reasonable assurance that
DDRS has processes for determining the integrity of data flowing through the system, and
trading partners are input and updated completely and accurately. Reports can identify the
impact of trading partners on statement presentation,” was achieved (Audited Financial
Statements Module control objective # 4).

Trial Balance Input to DDRS-AFS and DFAS Center-Level User Access

The accompanying description includes control activities related to the input of trial balances
and adjustments into DDRS-AFS. However, the description did not include controls to
ensure that adjustment of beginning and ending balances were reviewed and approved. Users
could circumvent the journal voucher approval process by posting adjustments to trial
balances.

As a result, the design of controls did not provide reasonable assurance that the control
objective, “Controls provide reasonable assurance that data transmissions between DDRS
and user organizations are authorized, complete, accurate, and secure,” was achieved
(Audited Financial Statements Module control objective # 6).

The accompanying description includes control activities related to user access to
DDRS-AFS. However, controls were designed to provide for access to DDRS-AFS on a
center-level basis, instead of by responsible work area.

As a result, users may be provided access to more information than they actually need to
conduct their assigned functions. DoD Instruction 8500.2, “Information Assurance (IA)
Implementation,” at Attachment 4 to Enclosure 4, “Enclave and Computing Environment,
ECLP-1,” “Least Privilege,” states that access procedures enforce the principles of separation
of duties and “least privilege.”

As a result, the design of controls did not provide reasonable assurance that the control
objective, “Unbalanced trial balances are flagged, but not reported until in balance. Controls
provide reasonable assurance that application users are appropriately identified and
authenticated, and that access to the application and output is restricted to authorized users
for authorized purposes. Controls provide reasonable assurance that trial balances input is
accurate and recorded in the proper period,” was achieved (Audited Financial Statements
Module control objective # 6).

United States Standard General Ledger Account Maintenance

The accompanying description includes control activities related to United States Standard
General Ledger (USSGL) account maintenance control. However, DDRS-AFS controls did
                                         5
    not preclude USSGL reference and reporting table changes from being made in the
    production environment during periods of high activity. Changes or updates to the
    DDRS-AFS reference and reporting tables were made at the same time users were entering
    live data. Changes or updates to the USSGL reference and reporting tables during peak
    processing periods such as quarterly reporting cycles increased the risk that balances may be
    entered inaccurately. Additionally, the DDRS Program Management Office (PMO) did not
    have a documented review and approval process in place to verify the accuracy and
    completion of changes to the USSGL that were requested by DFAS-Arlington.

    As a result, the design of controls did not provide reasonable assurance that the control
    objective, “Controls provide reasonable assurance that only valid and accurate changes are
    made to DDRS reference tables, Department reporting tables, and other critical system
    components; these changes are input and processed timely. Controls provide reasonable
    assurance new accounting line items are promptly added to the reference tables and obsolete
    accounts are promptly removed, and only valid accounts are added to the reference table,”
    was achieved (Audited Financial Statements Module control objective # 7).

    Data Collection Module

    The accompanying description includes control activities related to determining the integrity
    of data flowing from the Data Collection Module (DCM) to DDRS-AFS. However, the
    design of controls allowed DDRS-AFS users in Columbus, Ohio and Indianapolis, Indiana to
    circumvent embedded controls by rekeying DCM data into DDRS-AFS instead of using the
    automated interface function. There was no requirement that these balances be marked
    “approved” prior to being rekeyed into DDRS-AFS. At DFAS-Indianapolis, balances were
    not approved before they were rekeyed into DDRS-AFS. This circumvention of controls
    increased the risk of erroneous data being entered into DDRS-AFS.

    As a result, the design of controls did not provide reasonable assurance that the control
    objective, “Controls provide reasonable assurance that DDRS has systems or processes for
    determining the quality and integrity of data flowing through the system, and balances are
    input and updated completely and accurately,” was achieved (Data Collection Module
    Interfacing control objective #1).

In our opinion, the accompanying description of general computer and application controls at
DFAS and DISA related to DDRS-AFS and the related financial statement compilation process
(Section II and the control activities in Section III) presents fairly, in all material respects, the
relevant aspects of the controls at DFAS and DISA that had been placed in operation as of
March 31, 2005. Also, in our opinion, except for the matters described in the preceding
paragraphs, the controls, as described, are suitably designed to provide reasonable assurance that
the specified control objectives would be achieved if the described controls were complied with
satisfactorily and user organizations applied the controls contemplated in the design of the
controls at DFAS and DISA.

In addition to the procedures that we considered necessary to render our opinion as expressed in
the previous paragraph, we applied tests to specified controls, listed in Section III, to obtain
evidence about their effectiveness in meeting the related control objectives described in Section
III, during the period from October 1, 2004 to March 31, 2005. The specific control objectives;
controls activities; and the nature, timing, extent, and results of the tests are listed in Section III.
This information has been provided to DDRS user organizations and to their auditors to be taken
into consideration, along with information about the user organizations’ internal control, when
making assessments of control risk for user organizations.

                                                   6
In performing our examination, we identified deficiencies in operating effectiveness in eight of
15 application control objectives (53 percent), and in 32 of 82 general computer control
objectives (39 percent) placed in operation for the period October 1, 2004 to March 31, 2005, as
follows:

   Journal Vouchers

   As discussed in the accompanying description of controls, a purpose of DDRS-AFS is to
   produce auditable financial statements in accordance with the Chief Financial Officers (CFO)
   Act of 1990, the Government Management Reform Act (GMRA) of 1994, and the Federal
   Financial Management Integrity Act (FFMIA) of 1996. The use of journal vouchers aids
   immeasurably in producing the financial statements. Journal vouchers adjust for errors,
   record accounting entries that have not already been recorded, and are used for month-end
   closing and year-end processing and closing purposes. To a significant extent DDRS-AFS
   journal vouchers were either not supported at all or lacked sufficient supporting
   documentation. The DoD OIG previously reported unsupported accounting entries as a
   material weakness for the Department of Defense (DoD OIG Report No. D-2005-017,
   Independent Auditor's Report on the Fiscal Year 2004 DoD Agency-Wide Financial
   Statements, November 12, 2004).

   DDRS-AFS had three categories of journal vouchers that were unsupported accounting
   entries; these were elimination balancing, adjustments to balance or reconcile in AFS (such
   as budgetary to proprietary accounts), and adjustments of trial balances to agree with
   budgetary status of funds reports. All three categories of unsupported journal vouchers had
   the effect of forcing agreement of amounts without actual, credible reconciliation of the two
   data sources at the transaction level (enabling subsequent corrective actions). These journal
   vouchers only provided the appearance of reconciliation between the data sources without
   actually achieving auditable reconciliation. User organizations’ systems and processes did
   not provide sufficient information to DDRS-AFS to enable an efficient reconciliation, and
   the time pressures related to the financial statement preparation process did not provide
   adequate time for the extensive manual reconciliation processes required to prepare and
   process appropriate correcting adjustments to the transactions. Also, some journal vouchers
   were not approved by the appropriate level of authority (established by Chapter 2, Volume
   6A, of the FMR) prior to entry into AFS. DFAS staff informed us that if they followed FMR
   policy on journal voucher approval authority, the financial statements would not be
   completed by the due dates. However, the entry of journal vouchers into DDRS-AFS
   without appropriate review and approval could result in the entry of unsupported journal
   vouchers.

   As a result, the control objective, “Controls provide reasonable assurance that Journal
   Vouchers are supported by adequate documentation and that Journal Vouchers are approved
   prior to entry into a DDRS table; that there are segregation of duties in the preparation of
   Journal Vouchers; and that Journal Vouchers are in balance prior to entry into DDRS-AFS,”
   may not have been achieved during the period from October 1, 2004 to March 31, 2005
   (Audited Financial Statements Module control objective # 3).

   Preparation of Financial Statements

   As discussed in the accompanying description of controls, a purpose of DDRS-AFS is to
   produce auditable financial statements in accordance with the CFO Act of 1990, the GMRA
   of 1994, and the FFMIA of 1996. However, DoD policies related to the preparation of
   financial statements and the template used for preparation of financial statements did not
                                                7
provide for reporting a significant amount of accounting information required by the Federal
Accounting Standards Advisory Board (FASAB) and Office of Management and Budget
(OMB) Bulletin 01-09. Also, the mapping of accounts for the preparation of financial
statements in several instances relied on DoD general ledger accounts, instead of USSGL
account codes. Further, the mapping of accounts used for the preparation of the Statement of
Custodial Activity did not conform to Treasury requirements. In addition, there were
multiple users with access to the beginning balance change role that allowed these users to
override beginning balances that were carried forward in DDRS-AFS.

As a result, the control objective, “Controls provide reasonable assurance that financial
statements and related footnotes are produced in conformance with the reporting
requirements of FASAB, OMB Bulletin 01-09, and Treasury Financial Management Service.
Controls provide reasonable assurance financial statements are complete, reporting all
material financial information required by FASAB, and that automated totals in the financial
statements are appropriately calculated,” may not have been achieved during the period
October 1, 2004 to March 31, 2005 (Audited Financial Statements Module control objective
# 1).

Audit Trails

As discussed in the accompanying description of controls, a purpose of DDRS-AFS is to
produce auditable financial statements. A key element in the auditability of financial
statements is the effectiveness of audit trails that allow external auditors to trace reported
amounts to supporting documentation. In DDRS-AFS, although system audit logs were
captured and available for review, such logs were not reviewed on a regular basis.

As a result, the control objective, “Controls provide reasonable assurance that DDRS-AFS
produces financial statements that are supported by audit trails that are adequate for the
financial management entity and external auditors to trace amounts reported in the financial
statement back to trial balances and data from feeder systems. Controls provide reasonable
assurance that audit trails indicate the user inputting the trial balance and the user approving
the trial balance. All audit trails indicate the user inputting the Journal Voucher and the user
approving the Journal Voucher. Audit trails are reviewed on a regular basis for
appropriateness,” may not have been achieved during the period from October 1, 2004
through March 31, 2005 (Audited Financial Statements Module control objective # 2).

Validation Controls

As discussed in the accompanying description of controls, a purpose of DDRS-AFS is to
produce auditable financial statements. The identification of erroneous data in trial balances
and journal vouchers, and the correction of such data, are key elements in the auditability of
financial statements. Although DDRS-AFS validation controls identified potentially
erroneous data during reconciling processes, such data was not always communicated to the
client.

As a result, the control objective, “Controls provide reasonable assurance that DDRS has
processes for determining the integrity of data flowing through the system, and trial balances
are input and updated completely and accurately. Controls provide reasonable assurance that
data validation and editing are performed to identify erroneous data, and that erroneous data
are captured, reported, investigated, and corrected,” may not have been achieved during the
period from October 31, 2004 through March 31, 2005 (Audited Financial Statements
Module control objective # 5).

                                              8
    DDRS and DISA DECC-Ogden System Security Authorization Agreements

    As discussed in the accompanying description, DoD Instruction 5200.40, “Department of
    Defense Information Technology Security Certification and Accreditation Process”
    (DITSCAP) establishes a standard, department-wide process to certify and accredit
    information systems. The DDRS-AFS application and the DISA system enclave that
    supports the application each have a separate System Service Authorization Agreement
    (SSAA). However, the SSAA for DISA DECC-Ogden was not kept up to date in accordance
    with DITSCAP standards and the DDRS SSAA was not complete.

    As a result, the following control objective, “The security plan is kept current,” may not have
    been achieved during the period from October 1, 2004 to March 31, 2005 (General Computer
    Controls control objective # 3).

    System Authorization Access Request Forms

    As discussed in the accompanying description, DoD Instruction 8500.2, “Information
    Assurance (IA) Implementation,” requires access control mechanisms to ensure that data is
    accessed and changed only by authorized individuals and that registration to receive a user
    ID includes authorization by a supervisor. The “System Authorization Access Request
    (SAAR)” form 1 was designed to control user access to DDRS. However the SAAR form
    was not always completed or omitted critical information. For example:

        •   SAAR forms were not always authorized by the Information Assurance Officer.
        •   SAAR forms were not always authorized by the Functional Data Owner (FDO).
        •   One DDRS user did not have a SAAR form on file.
        •   For some users, the type of access granted to DDRS was inconsistent with the type of
            access authorized on the SAAR form.
        •   Prior to 2004, the SAAR form did not contain enough detail to indicate specific
            DDRS-AFS and DDRS-DCM roles. Previously submitted SAAR forms had not been
            revised or updated to conform to existing access requirements and some SAAR forms
            were missing required information, such as the justification for access or the type of
            access requested.

    As a result, the following control objectives may not have been achieved during the period
    from October 1, 2004 to March 31, 2005:

        •   “Hiring, transfer, termination, and performance policies address security” (General
            Computer Controls control objective # 9);
        •   “Resource owners have identified authorized users and their access authorized”
            (General Computer Controls control objective # 19); “Adequate logical access
            controls have been implemented at the application and Operating System layer”
            (General Computer Controls control objective # 25);
        •   “Access is restricted to data files and software programs” (General Computer
            Controls control objective # 28);
        •   “Access settings have been implemented in accordance with the access authorizations
            established by the resource owners” (General Computer Controls control objective #
            29);


1 Reference to the SAAR form includes DD form 2875, DISA Form 41, and DISA and DFAS modified versions of
the SAAR form.
                                                    9
   •   “Group authenticators for application or network access may be used only in
       conjunction with an individual authenticator” (General Computer Controls control
       objective # 44);
   •   “Access to program libraries is restricted to appropriate personnel” (General
       Computer Controls control objective # 65);
   •   “Policies and techniques have been implemented for using and monitoring the use of
       system utilities” (General Computer Controls control objective # 72);
   •   “Controls provide reasonable assurance that data transmissions between DDRS-AFS
       and user organizations are authorized, complete, accurate, and secure” (Audited
       Financial Statements control objective # 6);
   •   “Controls provide reasonable assurance that only valid and accurate changes are
       made to the DDRS-AFS Reference Tables, Department Reporting Tables and other
       critical system components; these changes are input and processed timely. Controls
       provide reasonable assurance that new accounting line items are promptly added to
       the reference tables and obsolete accounts are promptly removed, and only valid
       accounts are added to the reference tables” (Audited Financial Statements control
       objective # 7);
   •   “Controls provide reasonable assurance that balances entered into the DDRS-DCM
       are supported by adequate documentation, and that balances entered into the DDRS-
       DCM are approved prior to entry into a DDRS table” (Data Collection Module
       control objective # 2); and
   •   “Controls provide reasonable assurance that data transmissions between DDRS-AFS
       and DDRS-DCM are authorized, complete, accurate and secure. Unbalanced trial
       balances are flagged and not reported until in balance” (Data Collection Module
       Interfacing control objective # 2).

Database Administrator Segregation of Duties

As discussed in the accompanying description, DoD Instruction 8500.2, “Information
Assurance (IA) Implementation,” requires that change controls for software development be
in place to prevent unauthorized programs or modifications to programs from being
implemented and application programmer privileges to change production code and data be
limited. The DDRS database administrators located at DFAS-Indianapolis had full access to
the DDRS test, development, and production environments.

As a result, the following control objective, “Access to program libraries is restricted to
appropriate personnel,” may not have been achieved during the period from October 1, 2004
to March 31, 2005 (General Computer Controls control objective # 65).

Training

As discussed in the accompanying description, DoD Instruction 8500.2, “Information
Assurance (IA) Implementation,” requires that DoD users and systems support personnel
participate in periodic security awareness training. However:

   •   The system administrator training materials used at DISA DECC-Ogden were
       outdated.
   •   Some DDRS users in DFAS-Cleveland had not attended required security awareness
       training.
As a result, the following control objectives may not have been achieved during the period
from October 1, 2004 to March 31, 2005:

                                           10
   •   “Employees have adequate training and expertise” (General Computer Controls
       control objective # 10); and
   •   “A program is implemented to confirm that on arrival and periodically thereafter, all
       personnel receive training and familiarization to perform their assigned Information
       Assurance responsibilities” (General Computer Controls control objective # 11).

Audit Trail Access

As discussed in the accompanying description, DoD Instruction 8500.2, “Information
Assurance (IA) Implementation,” requires that access to system audit trails be restricted to
only authorized users. DFAS-Indianapolis was unable to provide a system-generated listing
of personnel that were assigned access to the privileged role with access to the DDRS
application and database audit trails. Without this listing, the appropriateness of access to
application and database audit trails could not be determined.

As a result, the control objective, “The contents of audit trails are protected against
unauthorized access, modification or deletion,” may not have been achieved during the
period from October 1, 2004 to March 31, 2005 (General Computer Controls control
objective # 33).

Standard Operating Procedures

As discussed in the accompanying description, DoD Instruction 8500.2, “Information
Assurance (IA) Implementation,” requires that significant system administration functions
and procedures be documented. Standard operating procedures to guide DISA DECC-Ogden
system administrators in performing their job responsibilities were not documented.

As a result, the control objective, “Formal procedures guide system management personnel in
performing their duties,” may not have been achieved during the period from October 1,
2004 to March 31, 2005 (General Computer Controls control objective # 80).

Physical Access Controls

As discussed in the accompanying description, DoD Instruction 8500.2, “Information
Assurance (IA) Implementation,” requires DoD Agencies to have physical access controls in
place to restrict unauthorized access, and to have policies and procedures in place governing
visitor access. DFAS-Cleveland was a tenant in a Federal building that was also occupied by
other Federal entities. Although the main entrance to the building was monitored in
accordance with government procedures, the floors occupied by DDRS software
development and support staff were not restricted from access by other building tenants or
authorized visitors. In addition, procedures governing visitor access to the building were not
documented, some visit request letters were missing, and the DFAS-specific visitor sign-in
sheet was not maintained.

As a result, the following control objectives may not have been achieved during the period
from October 1, 2004 to March 31, 2005:

   •   “Adequate physical security controls have been implemented” (General Computer
       Controls control objective # 22); and
   •   “Visitors are controlled” (General Computer Controls control objective # 24).



                                            11
   Monitoring Audit Logs

   As discussed in the accompanying description, DoD Instruction 8500.2, “Information
   Assurance (IA) Implementation,” requires the regular review of audit trail records for
   indications of inappropriate or unusual activity. However, DISA DECC-Ogden did not
   proactively monitor or review operating system audit trails.

   As a result, the following control objectives may not have been achieved during the period
   from October 1, 2004 to March 31, 2005:

       •   “Tools are available for the review of audit records and for report generation from
           audit records” (General Computer Controls control objective # 34); and
       •   “Policies and techniques have been implemented for using and monitoring the use of
           system utilities” (General Computer Controls control objective # 72).

   Software Change Controls

   As discussed in the accompanying description, DoD Instruction 8500.2, “Information
   Assurance (IA) Implementation,” requires that authorizations for application or operating
   software changes be documented and maintained. However:

       •   Some software changes made by DFAS-Cleveland did not have required
           documentation and authorization signatures on file, including Statement of
           Agreement documents from the Functional Requirements Review (FRR), Test
           Readiness Review and Systems Integration Testing (TRR/SIT), Test Readiness
           Review and Functional Validation Testing (TRR/FVT), and Release Implementation
           Readiness Review.
       •   Software changes implemented by DFAS-Indianapolis on the production servers
           could not be traced back to authorized development activities conducted by
           DFAS-Cleveland.

   As a result, the following control objectives may not have been achieved during the period
   from October 1, 2004 to March 31, 2005:

       •   “A comprehensive vulnerability management process that includes the systematic
           identification and mitigation of software and hardware vulnerabilities is in place”
           (General Computer Controls control objective # 14);
       •   “Authorizations for software modifications are documented and maintained” (General
           Computer Controls control objective # 59);
       •   “Changes are controlled as programs progress through testing to final approval”
           (General Computer Controls control objective # 61);
       •   “Emergency changes are promptly tested and approved before being moved into
           production” (General Computer Controls control objective # 62); and
       •   “Distribution and implementation of new or revised software is controlled” (General
           Computer Controls control objective # 63).

In our opinion, except for the matters described in the preceding paragraphs, the controls that
were tested, as described in Section III, were operating with sufficient effectiveness to provide
reasonable, but not absolute, assurance that the control objectives specified in Section III were
achieved during the period from October 1, 2004 to March 31, 2005. However, the scope of our



                                               12
engagement did not include tests to determine whether control objectives not listed in Section I11
were achieved; accordingly, we express no opinion on the achievement of control objectives not
included in Section 111.
The relative effectiveness and significance of specific controls at DFAS and DISA and their
effect on assessments of control risk at user organizations are dependent on their interaction with
the internal control environment and other factors present at individual user organizations. We
have performed no procedures to evaluate the effectiveness of internal controls placed in
operation at individual user organizations.
The description of the controls at DFAS and DISA is as of March 3 1,2005 and information
about tests of their operating effectiveness covers the period from October 1,2004 to
March 3 1,2005. Any projection of such information to the future is subject to the risk that,
because of change, the description may no longer portray the system in existence. The potential
effectiveness of specific controls at DFAS and DISA is subject to inherent limitations and,
accordingly, errors or fraud may occur but not be detected. Furthermore, the projection of any
conclusions, based on our findings, to future periods is subject to the risk that (1) changes made
to the system or controls, (2) changes in processing requirements, or (3) changes required
because of the passage of time may alter the validity of such conclusions. This report is intended
solely for use by DDRS management, DDRS user organizations, and the independent auditors of
such user organization.
                                      By direction of the Deputy Inspector General for Auditing:



                                      &,~aulJ. Granetto, CPA
                                      Assistant Inspector General
                                      Defense Financial Auditing
                                             Service
Section II: Description of Defense Departmental Reporting System
and Related Financial Statement Compilation Process Operations
  and Controls Provided by the Defense Finance and Accounting
       Service and the Defense Information Systems Agency




                               15
II. Description of Defense Departmental Reporting System and
    Related Financial Statement Compilation Process Operations
    and Controls Provided by the Defense Finance and Accounting
    Service and the Defense Information Systems Agency

A. Overview of Operations
Department of Defense

The Department of Defense (DoD) is the cabinet-level agency responsible for establishing and
administering defense initiatives and strategy for the United States. DoD employs approximately
two million military and civilian individuals and has an annual operating budget of $371 billion.
The DoD is organized such that the Joint Chiefs of Staff, the Office of Inspector General, and
each of the Military Departments report to the Office of the Secretary of Defense.

Defense Finance and Accounting Service

The DFAS mission is to provide responsive, professional finance and accounting services for the
DoD. The Director of DFAS reports to the Under Secretary of Defense (Comptroller/Chief
Financial Officer). DFAS is responsible for the proper accounting of resources in DoD. DFAS
is organized such that the Director and Deputy Director oversee operations as depicted below:

                                                         Director/
                                                      Deputy Director


                         Military &                                                           CFO/
        Client                              Commercial Pay          Accounting                               Chief Information
                        Civilian Pay                                                        Corporate
      Executives                               Services              Services                                Officer
                         Services                                                           Resources


              Acquisition                                   Plans &              Internal               General
                                       Policy                                                                            Chief of Staff
             Management                                   Requirements           Review                 Counsel
             Organization

                                              .
            DDRS Program                   Technology
           Management Office                Services
                                           Organization



                                                                   DFAS Central Site
                                                                      User Base




                                                   CFO – Chief Financial Officer




In the Accounting Systems Directorate, Installation and Tactical Support Accounting Systems
Organization, the Program Management Office (PMO) helps to ensure continued operation of
the Defense Departmental Reporting System (DDRS) in accordance with DoD security and
operational requirements. The Technology Services Organization (TSO) is responsible for
elements of the technical administration of DDRS and provides multi-tier system support in
coordination with other organizations. The TSO carries out its responsibilities for many aspects
of system support in coordination with the Centralized Directorate for Information Management
                                                                  17
(CDOIM), as well as decentralized Defense Office of Information Management (DOIM)
organizations servicing other DFAS sites. CDOIM and DOIM groups are responsible for overall
management and continuance of the DDRS computer processing operations. See the
Information Systems and Control Environment discussions for detailed descriptions of PMO,
TSO, CDOIM, and DOIM organizational roles relating to DDRS administration and operation.

Defense Information Systems Agency

DISA is a combat support agency responsible for planning, engineering, acquiring, fielding, and
supporting global net-centric (systems with operations distributed across a network) solutions to
serve the needs of the President, Vice President, the Secretary of Defense, and other DoD
Components under all conditions of peace and war.

DISA performs the following functions in support of the DDRS underlying information
technology architecture:

•   Installation and maintenance of system software, including operating systems,
    communication networks, and file control software;
•   Installation and maintenance of the Oracle database management software;
•   Administration of system parameter settings in the Oracle software that provide logical
    access control;
•   Restriction of physical access to computer facilities, application programs, and data files
    housed in the facility;
•   Backup and contingency planning, including maintenance of off-site processing capabilities
    and rotational off-site storage of critical files; and
•   Logical segregation of major applications from other systems resident on the domain
    hardware and from unauthorized external users.

By providing the services and fulfilling the responsibilities outlined above, DFAS and DISA
represent service organizations that act in concert to provide finance and accounting services
supported by information systems and technology to DoD user organizations, including:

•   Army Posts, Camps and Stations, such as Fort Riley and Fort Belvoir;
•   Air Force, Security Assistance – DFAS-Denver;
•   Defense Commissary Agency – Worldwide;
•   Other Defense Agencies, such as the Defense Advanced Research Projects Agency; and
•   DFAS field sites, including Pearl Harbor, Hawaii; San Antonio, Texas; Indianapolis, Indiana;
    Orlando, Florida; Rome, New York; Lawton, Oklahoma; and Seaside, California.

DISA’s relationship with DFAS is, itself, a service organization and user organization
relationship. DISA provides platform hosting and systems and hardware support services to
DFAS, a user and administrator of the DDRS application resident on the DISA-operated
platform. However, for the purposes of the Statement on Auditing Standards (SAS) 70/88
examination, DISA and DFAS are viewed as a combined service organization that delivers
information systems technology-enabled finance and accounting support services.




                                                18
B. Relevant Aspects of the Control Environment, Risk Assessments,
   and Monitoring
Control Environment

Defense Finance and Accounting Service. DFAS Acquisition Management Organization
(DFAS-AMO) provides management control and coordination in DoD and has overall
responsibility for the DDRS system, including reviewing and maintaining the DDRS security
policy. The DDRS Program Management Office (PMO) provides program oversight, testing,
training, data development, and customer service. The DFAS Technology Services
Organization, Pensacola, Florida (DFAS-TSO-PE) provides a customer contact center that
enters, logs, and tracks customer trouble tickets. The DFAS-TSO, located in Cleveland, Ohio
(DFAS-TSO-CL) provides DDRS software engineering and technical support. The Technology
Services Organization Corporate Services in Indianapolis, Indiana (DFAS-TSO-CS), provides
production support and database administration.

Accounting office employees and contractors are required to review applicable administrative
orders, policies, and procedures with the Human Resource Office and must complete appropriate
forms to gain access to DFAS systems. The Information Security Manager: (1) provides basic
systems security awareness training, (2) secures civilian and contractor signatures on the ADP
Security Awareness disclosure, (3) identifies the Terminal Area Security Officer to the employee
and explains the Terminal Area Security Officer’s responsibilities; and (4) notifies appropriate
personnel to provide employee or contractor access or to immediately terminate access to DFAS
Automated Information System (AIS) resources when an employee or contractor processes in or
out. The accounting and DFAS-TSO-CL facilities do not require employees to have security
clearances before beginning employment.

DFAS employees have formal job descriptions. Contractors’ duties and deliverable descriptions,
as well as required skills and security levels, are identified in commercial contracts.

DDRS Development and Management activities follow Software Quality Assurance (SQA)
functions and controls adhering to the DoD and DFAS standards established for that purpose.
When implementing the DDRS SQA function, management considered two sets of controls.
First, at the management level, they monitor the definition and establishment of six SQA reviews
occurring at specific points in the life cycle of a given DDRS Release. These reviews constitute
milestones providing the opportunity to assess the executed work for a specific phase in the
development process. The reviews ensure the identification of major discrepancies and risks,
necessary conditions to complete the current phase are satisfied, and conditions necessary to
proceed to the next phase are in place. Second, at the development level, controls consist of a
set of DDRS policies that have been developed to define engineering practices, determine
development behavior, specify procedures consistent with standard engineering practices in
adherence to the Software Engineering Institute’s Capability Maturity Model framework, and
meet SQA objectives and management requirements.

DFAS has formal capital planning and programming processes. Annually, the DFAS Portfolio
Management Directorate requires the DDRS Program Management Office (PMO) to submit a
Portfolio Management Initiative Report. The Management Directorate conducts a review to
ensure the project continues to support DFAS’ strategic objectives. In addition, the Office of the
Secretary of Defense, Program Analysis and Evaluation, reviews and approves a five-year
program objective memorandum describing the program’s Planning, Programming, Budgeting,
and Execution.

                                                19
Defense Information Systems Agency. A signed Service Level Agreement (SLA) between
DISA and DFAS documents the support services provided by DISA to DDRS. Both agencies
review and update the SLA annually. The Defense Enterprise Computing Center (DECC)
located at Ogden, Utah maintains and executes the DDRS system on mid-tier platforms.
DISA DECC-Ogden is part of the Center for Computing Services in the Global Information Grid
Combat Support Directorate, a DISA Strategic Business Unit.

The DISA Security Manager completes the processing and vetting of all new employees and
contractors accessing the DISA facility in Ogden. DISA employees have formal job
descriptions. Contractors’ duties and deliverable descriptions are identified in commercial
contracts. Contracts also specify the skills and security levels required for contract staff. All
contractors and employees are required, at a minimum, to have a Secret clearance and a positive
National Agency Check.

All new employees must sign DISA Form 312, which serves as a nondisclosure agreement for
sensitive and classified information. Terminated employees are also required to re-sign the Form
312 to acknowledge that they understand the agency policies for sensitive and classified
information. The contracting officer is responsible for confirming that all contractors assigned to
DISA DECC-Ogden have a valid contract to operate at that location and the Security Manager
confirms the length of the contract and determines when system accounts should expire. All new
employees and contractors are required to complete DD Form 2875, “System Authorization
Access Request (SAAR),” to gain access to DISA systems and must complete security awareness
training.

Risk Assessments

DoD Instruction 5200.40, “Department of Defense Information Technology Security
Certification and Accreditation Process (DITSCAP),”establishes a standard Department-wide
process, set of activities, general tasks, and management structure to certify and accredit
information systems. This process maintains the information assurance and security posture of
the defense information infrastructure throughout the life cycle of each system. The certification
process is a comprehensive evaluation of the technical and non-technical security features of an
information system and other safeguards to establish the extent to which a particular design and
implementation meets specified security requirements and covers physical, personnel,
administrative, information, information systems, and communications security. The
accreditation process is a formal declaration by the designated approval authority that an
information system is approved to operate in a particular security mode using a prescribed set of
safeguards at an acceptable level of risk.

The DITSCAP process includes several activities that document and assess risks associated with
DDRS. The DDRS application and the DISA system enclave that supports the application each
have separate System Security Authorization Agreements (SSAA) as part of the DDRS
DITSCAP process. Each SSAA is a living document that represents an agreement between the
designated approval authority, certifying authority, user representative, and program manager.
The DDRS SSAA documents its mission description and system identification, environment
description, system architecture description, system class, system security requirements,
organizations and resources, and the DITSCAP plan. On a periodic basis, the system security
officer verifies and validates DDRS compliance with information in the SSAA. These
verification and validation procedures include, among other steps, vulnerability evaluations,
security testing and evaluation, penetration testing, and risk management reviews. DDRS was
certified and accredited by DFAS on December 3, 2002.


                                                20
The DDRS application and enclave SSAAs document threats to DDRS and its supporting
technical environment. The SSAAs also contain Residual Risk Assessments that document
vulnerabilities noted during DDRS tests and analyses. Management updates the SSAA
periodically. Personnel from the Defense Finance and Accounting Service - Arlington (DFAS-
Arlington), DFAS-TSO-CS, DFAS-TSO-CL, and the Defense Information Systems Agency
(DISA) Defense Enterprise Computing Center (DECC) Ogden, Utah (DISA DECC-Ogden)
participate in these risk assessments.

Monitoring

Management and supervisory personnel at DFAS and DISA monitor the performance quality and
internal control environment as a normal part of their activities. DFAS and DISA have
management, financial, and operational reports available to help monitor the performance of
accounting processing as well as the DDRS system itself. Management periodically reviews
these reports and takes action as necessary. The system logs and reports any procedural
problems or exceptions to normal scheduled processing and management ensures that all issues
are resolved in a timely manner. In addition, several other organizations in DoD perform
monitoring associated with DDRS-related internal controls. These organizations include:

   DFAS Internal Review Office

DFAS has an Internal Review Office that conducts internal audits, inspections, and
investigations of the DFAS related system components that support DDRS. The DFAS Internal
Review Office is independent of the DDRS management structure and does not manage,
maintain, or configure DDRS systems.

   DISA Office of the Inspector General and Field Security Office

DISA has an independent Office of the Inspector General that conducts internal audits,
inspections, and investigations of DISA components that support DDRS. The Field Security
Operations (FSO) unit periodically reviews DISA’s security practices. DDRS system
components maintained by DISA are subject to FSO reviews. The FSO is independent of the
DECC-Ogden management structure and does not maintain or configure DDRS systems.

   Department of Defense Office of Inspector General

Congress established the Department of Defense Office of Inspector General (DoD OIG) to
conduct and supervise audits and investigations of DoD operations. The DoD OIG reports
directly to the Secretary of Defense and is independent of DFAS and DISA. DDRS and the
accounting processes it supports are part of the DoD OIG audit universe and are subject to
financial, operational, and information technology audits.

C. Information and Communication
Information Systems

The DDRS provides tools for DoD accountants to produce audited financial statements,
unaudited interim financial statements, and budgetary reports. The DDRS-AFS module
produces the Statement of Budgetary Resources, Balance Sheet, Statement of Net Position,
Statement of Net Cost, Statement of Financing, and the Statement of Custodial Activities. It also
produces the interim and annual financial statement report footnotes, Management Reports,
Required Supplementary Information (RSI), and Reconciliation Reports. The DDRS Budgetary
module produces the Report on Budget Execution and Budgetary Resources (SF-133), Report on
                                               21
Reimbursements (Supplemental 725), Appropriation Status By Fiscal Year, Program And Sub-
accounts (DoD 1002), Accounting Report 1307 (AR 1307), Schedule of Transfers and Re-
appropriations, and the Report on Receivables. DDRS-AFS and DDRS Budgetary report for
both the Defense Working Capital and General Funds. The DDRS-DCM is a sub-module of
DDRS-AFS. DDRS-DCM captures financial data from non-financial feeder systems to support
the audited financial statements. DDRS-DCM collects data from the following functional
reporting areas:

•   Capital Leases
•   Capitalized Assets
•   Contingencies
•   Deferred Maintenance Employee Benefits
•   Environmental Liabilities – Non-Federal
•   Federal Employees' Compensation Act (FECA)
•   Imputed Costs
•   Judgment Funds
•   Operating Leases
•   Operating Materials & Supplies (OM&S)
•   Other Liabilities
•   Personal Property
•   Real Property, and
•   Supplementary Stewardship Information

Defense Management Review Decisions 910 and 912 led to major cost-savings initiatives aimed
at standardizing processes and consolidating finance and accounting operations and automated
information systems (AISs). In November 1990, Congress passed the Chief Financial Officers
(CFO) Act (Public Law 101-576, as amended) requiring DoD to improve financial management
and reporting. Under Secretary of Defense Memorandum of October 13, 1993, “Accelerated
Implementation of Migration Systems, Data, Standards, and Process Improvement,” directs
Defense Agencies to select migration systems to be used for consolidating systems, and to
achieve full implementation of migration systems across the same functions.

The Government Management Reform Act (GMRA) of 1994 requires federal agencies to submit
audited financial statements to the Office of Management and Budget and the U.S. Treasury
annually. The Federal Financial Management Improvement Act (FFMIA) of 1996 requires all
Federal agencies to implement and maintain financial management systems that comply
substantially with Federal financial management systems requirements, applicable Federal
accounting standards, and the United States Standard General Ledger at the transaction level.

DDRS Support Functions

DFAS-Arlington provides management control and coordination in DoD and has overall
responsibility for interpretation and application of DDRS. DISA DECC-Ogden maintains and
executes DDRS on mid-tier platforms. The Technology Services Organization in Cleveland,
Ohio, (DFAS-TSO-CL) which is part of DFAS, provides DDRS application technical support.
The Technology Services Organization Corporate Services in Indianapolis, Indiana,
(DFAS-TSO-CS) also a part of DFAS, provides DDRS database management and administrative
support.

DDRS Functionality
The DDRS-AFS module produces the quarterly and annual CFO financial statements and the
Federal Agencies Centralized Trial Balance System (FACTS I and II) reports for DoD. The
DDRS-DCM captures financial data from non-financial feeder systems to support the CFO
                                              22
financial statements. All DoD reporting entities are currently using the DDRS-DCM module.
The DoD will standardize the budgetary reporting process and replace the legacy departmental
budgetary reporting systems through the implementation of the DDRS Budgetary Module.

The component-level accounting information goes through several manual processes of
adjustment at DFAS Centers before input to the DDRS-AFS Module. The DFAS centers put
this accounting data through Microsoft Excel crosswalks to adjust it to common account codes
compliant with the USSGL. The data is also analyzed to identify data quality problems, such as
abnormal account balances, out-of-balance trial balances, and proprietary accounts not in balance
with budgetary accounts. Several analytical processes are used to adjust accounting data for
these problems. These manual processes may not be well established in policy and may vary
from center to center. At the conclusion of these processes, the data is manually input to import
sheets for transfer to DDRS-AFS. In the Centers where the Budgetary Module has been
implemented, these processes are automated. The Budgetary Module has been implemented in
the Kansas City Center (Marine Corps Working Capital Fund), the Cleveland Center (Navy
Working Capital Fund), and the Denver Center (Air Force General Fund).

In addition to financial reporting, DDRS-AFS and DDRS-Budgetary provide the following
functionality:

•   report certification;
•   journal voucher creation and approvals;
•   memorandum creation and approvals;
•   footnote creation and administration;
•   financial statements and reports at lower levels;
•   drill down on reports and footnotes;
•   report export to Microsoft Word, Microsoft Excel, and Portable Document Format (PDF);
•   reconciliation within and between reports;
•   file transfer protocol or upload;
•   data locking and certifying;
•   data export;
•   report map and crosswalk table maintenance;
•   trend analysis and management reports;
•   ad-hoc reporting capability;
•   application security administration; and
•   internal audit reporting.

DDRS has over 1,100 end users at over 100 locations. The user base consists of Accountants,
Auditors, Budget Analysts, and Financial Analysts throughout the DoD Military Departments
and Defense Agencies.
DDRS supports the financial reporting requirements of the DoD Comptroller and subordinate
organizations. DDRS receives trial balance data from a variety of DoD accounting systems. The
DDRS PMO distributes a DDRS chart of accounts with all USSGL transactions and attributes
quarterly. DFAS accountants populate the charts of accounts and upload them to DDRS-AFS.

For those DFAS sites that have implemented the DDRS-Budgetary module, accountants upload
data files from local accounting systems to DDRS-Budgetary. DDRS-Budgetary translates the
data to the USSGL and related attributes. DDRS-Budgetary consolidates this data and produces
program level trial balances that it delivers to DDRS-AFS. The Navy and Marine Corps
Working Capital Funds and the Air Force General Fund have implemented DDRS. DFAS plans
to implement DDRS-Budgetary for all budgetary reporting.


                                               23
System Architecture

DDRS is a web-based architecture comprised of an application server on the front-end and a
database server on the back-end, connected directly in the DISA DECC-Ogden enclave. These
servers are connected to users and interfacing systems using the DoD-maintained networks
comprised of Internet Protocol based services, such as the Non-Classified Internet Protocol
Router Network. The network connects DDRS to a wide variety of DFAS and non-DFAS user
sites (mainframes, mid-tiers, and personal computers) that supply or exchange data with DDRS
primarily through electronic file transfers. Examples of external interface sites include the
Standard Accounting, Budgeting and Reporting System (SABRES); and the U.S. Department of
Treasury Federal Agencies Centralized Trial Balance System (FACTS) I and FACTS II.

DDRS programming languages include PLSQL, HTML, Oracle Designer, Oracle Developer,
Oracle Reports and Java. The Oracle Application Server provides security protection
mechanisms at entry points. DISA DECC-Ogden provides the web server that services all
applications that support DDRS. This server accepts the users' secure web requests by supplying
a menu screen with options for each application to the DDRS Logon Screen, where individuals
enter their DDRS login user IDs and passwords.

Communication

The Service Level Agreement (SLA) documents the support relationship between DFAS and
DISA DECC-Ogden. Management reviews and updates this document annually. The SLA
outlines contacts and liaisons for use when DDRS issues arise. DISA DECC-Ogden also assigns
a customer relationship manager to work with DFAS-TSO-CL to resolve any DDRS processing
problems or concerns.

DFAS-TSO-CL and accounting office directors and managers meet weekly to discuss DDRS
processing issues. There is also a Configuration Control Board, comprised of DFAS-TSO-CL,
the DDRS PMO, and Accounting Office personnel, to review and approve functional and
systemic changes to DDRS. The DDRS PMO maintains a help desk function to identify, track,
and communicate DDRS user issues and problems to the DFAS-TSO-CL for resolution.

D. Control Objectives and Related Control Activities
The DDRS control objectives and related control activities are included in Section III of this
report, “Information Provided by the Service Auditor,” to eliminate the redundancy that would
result from listing them in this section and repeating them in Section III. Although the control
objectives and related controls are included in Section III, they are, nevertheless, an integral part
of the description of controls.

User Organization Control Considerations.

The control activities at DFAS and DISA related to DDRS-AFS and the financial statement
compilation process were designed with the assumption that certain controls would be placed in
operation at user organizations. This section describes some of the controls that should be in
operation at user organizations to complement the controls at DFAS and DISA.

User organizations are defined as those organizations that use DDRS for the preparation of their
quarterly and annual financial statements. User organizations provide DDRS with general ledger
trial balances and other financial data required for the preparation of financial statements.
Generally, the application of specific control activities at user organizations is necessary to
achieve certain control objectives included in Section III of this report. User auditors are to
                                                 24
consider whether these user organization controls have been placed in operation at the user
organizations. The list of user organization controls presented below does not represent a
comprehensive set of all the controls that should be employed. Other controls may be required
at user organizations depending on the specific financial and accounting circumstances of the
organization.

Controls to Mitigate the Effects of DoD Material Weaknesses

DDRS relies on user organizations to provide financial data, in the form of trial balances, as the
basic information used in the preparation of financial statements. User organizations must have
controls in place to provide reasonable assurance that financial information meets Federal
requirements for preparation of financial statements. To the extent that user organization
controls fail to achieve compliant trial balance information, the DDRS-produced financial
statements will also be noncompliant.

Other User Organization Controls

The control activities at DFAS and DISA related to DDRS were designed with the assumption
that certain controls would be in placed in operation at user organizations. The application of
such controls by user organizations is necessary to achieve certain control objectives identified in
this report. This section describes some of the controls that should be in operation at user
organizations to complement the controls at DFAS and DISA but is not a comprehensive list of
all controls that user organizations should employ.

1. The financial closing and reporting process is documented in official policies and procedures
   and distributed to all employees. Any changes made to the established procedures must be
   authorized by management and communicated throughout the organization.

2. Roles and responsibilities in the financial closing and reporting process are clearly defined,
   documented, and communicated to all personnel.

3. General policies are established and documented regarding permissible overrides of existing
   policies and procedures for the financial closing and reporting process.

4. As part of the financial reporting process, management and responsible personnel identify all
   generally accepted accounting principles and federal reporting requirements affecting the
   entity.

5. Reconciliations for all significant accounts are performed and prepared timely and
   independently reviewed.

6. All required analyses are completed timely and reviewed for appropriate assumptions,
   methodology, and evaluation of results. Unusual items and exceptions are investigated,
   resolved and recorded in the correct accounting period.

7. All trading partner events and transactions are recorded, authorized, and disclosed in the
   correct accounting period.

8. All events and transactions requiring financial statement disclosure are identified, analyzed
   and prepared in accordance with generally accepted accounting principles and federal
   reporting requirements.

9. Disclosure checklists and instructions are used in preparing and reviewing all draft financial
   statements and disclosures for completeness and consistency.
                                               25
10. All required financial statement disclosure reporting packages and analyses are prepared and
    independently reviewed prior to submission to DFAS for further processing in DDRS-AFS.

The list of user organization control considerations presented above does not represent a
comprehensive set of all the controls that should be employed by user organizations. Other
controls may be required at user organizations.




                                               26
Section III: Control Objectives, Control Activities, and Tests of
                    Operating Effectiveness




                               27
III. Control Objectives, Control Activities, and Tests of Operating
Effectiveness
The information contained in this section was provided by several different entities:

•   The control objectives were specified by the DoD OIG, and accepted by DFAS and DISA.
•   The control activities were provided by DFAS and DISA.
•   Section III was provided by DoD OIG.

The controls described and tested in this section are limited to those general and application
control objectives and related control activities applicable to DDRS-AFS, DDRS-DCM, and the
related financial statement compilation process. The controls related to DDRS-Budgetary were
specifically excluded from this review. In addition, the controls related to the feeder systems
that are the source of much of the information in DDRS-AFS are specifically excluded from this
review. We did not perform procedures to evaluate the effectiveness of the input, processing,
and output controls in DDRS-Budgetary or in these feeder systems, although we did perform
procedures to evaluate DDRS-AFS interface input and output controls. We did not perform any
procedures to evaluate the integrity and accuracy of the data contained in DDRS-AFS.




                                                29
General Computer Controls
CO
               Control Objective                     Control Activity                        Test Procedure                     Results of Testing
No.
      Enterprise-Wide Security Program Planning
 1    Risks are periodically assessed.    DISA DECC-Ogden                            DISA DECC-Ogden                     DISA DECC-Ogden
                                          Automated Security Readiness Review        Read the latest risk assessment     No relevant exceptions noted.
                                          (SRR) scripts are run on each server and   included in the SSAA dated
                                          reported to the Montgomery SRR             February 18, 2004, to confirm
                                          database on a weekly basis. Each           that risks were periodically
                                          system has a SRR and an Internet           assessed.
                                          Security Systems scan before it is
                                          connected to the network. The DISA         Observed the SRR process to
                                          Field Security Office, periodic SRRs,      confirm that it occurred and that
                                          and Internet Security System Scans.        corrective actions were tracked.
                                          DISA DECC-Ogden conducts reviews
                                          of the System Security Authorization       Inspected a single SRR
                                          Agreement (SSAA), which includes the       performed by
                                          operation facility environmental risk      DISA DECC-Ogden and
                                          assessment that is renewed and             inspected the Vulnerability
                                          reviewed on an annual basis.               Management System findings
                                                                                     report to confirm findings
                                                                                     identified by the SRR had been
                                                                                     addressed.

                                          DFAS-Arlington                             DFAS-Arlington                      DFAS-Arlington
                                          The DDRS application security risks are    Read the latest risk assessment     No relevant exceptions noted.
                                          randomly sampled and analyzed every        included in the SSAA to confirm
                                          three years. These risks are reported to   that risks were periodically
                                          DFAS Information Assurance                 assessed.
                                          Management and are considered for
                                          accreditation and re-accreditation every
                                          three years.

 2    A security plan is documented and   DISA DECC-Ogden                            DISA DECC-Ogden                     DISA DECC-Ogden
      approved.                           DISA DECC-Ogden documents the              Read the DISA DECC-Ogden            No relevant exceptions noted.
                                          security plan in the SSAA, which is        SSAA to confirm that it included
                                          renewed and approved on an annual          a current and approved security
                                          basis.                                     plan. Confirmed, through
                                                                         31
CO
               Control Objective                      Control Activity                       Test Procedure                     Results of Testing
No.
                                                                                     inquiry of the Information
                                                                                     Assurance Manager, the process
                                                                                     for updating the
                                                                                     DISA DECC-Ogden SSAA and
                                                                                     that the SSAA had been
                                                                                     updated.

                                           DFAS-Arlington                            DFAS-Arlington                     DFAS-Arlington
                                           A SSAA was created specifically for       Read the DDRS SSAA to              No relevant exceptions noted.
                                           DDRS to obtain an approval to operate.    confirm it had been documented,
                                           The SSAA was approved on December         updated, and approved.
                                           3, 2002.

 3    The security plan is kept current.   DISA DECC-Ogden                           DISA DECC-Ogden                    DISA DECC-Ogden
                                           DISA DECC-Ogden documents the             Read the DISA DECC-Ogden           The DISA DECC-Ogden SSAA
                                           security plan in the SSAA. The security   SSAA to confirm the security       was not compliant with DITSCAP
                                           plan is renewed, reviewed, and            plan in the SSAA had been          requirements. Specifically, the
                                           approved on an annual basis.              documented, updated, and           DISA DECC-Ogden SSAA had six
                                                                                     appropriately approved.            incomplete appendices.

                                                                                     Read the following documents
                                                                                     to confirm that each had been
                                                                                     updated:
                                                                                          • DISA DECC-Ogden
                                                                                              Systems Security
                                                                                              Policy,
                                                                                          •    Security Requirements,
                                                                                              and,
                                                                                          • Certification Test and
                                                                                              Evaluation Plan.

                                           DFAS-Arlington                            DFAS-Arlington                     DFAS-Arlington
                                           The DDRS SSAA is updated as needed        Read the DDRS SSAA to              The DDRS SSAA was not
                                           and completely updated every three        confirm it had been documented,    compliant with DITSCAP
                                           years for reaccreditation. The DDRS       updated and appropriately          requirements. Specifically, the
                                           SSAA is in the process of being           approved.                          DDRS SSAA had 20 incomplete
                                           updated.                                                                     sections, seven missing sections,
                                                                                                                        and one incomplete appendix.

                                                                         32
CO
               Control Objective                       Control Activity                       Test Procedure                     Results of Testing
No.
                                                                                      Confirmed through inquiry of
                                                                                      the Information Assurance
                                                                                      Manager on the process for
                                                                                      updating the DDRS SSAA and
                                                                                      that the DDRS SSAA had been
                                                                                      updated.

                                                                                      Read the following documents
                                                                                      to confirm that each had been
                                                                                      updated:
                                                                                           • DDRS Systems
                                                                                               Security Policy,
                                                                                           • Security Requirements,
                                                                                               and
                                                                                           • Certification Test and
                                                                                               Evaluation Plan.

 4    A security management structure has   DISA DECC-Ogden                           DISA DECC-Ogden                    DISA DECC-Ogden
      been established.                     An Information Assurance Manager and      Confirmed through inquiry that     The security management structure
                                            Alternate Information Assurance           a management structure had         contained position titles that were
                                            Manager have been assigned. There are     been established.                  not in accordance with DoD
                                            Information Assurance Officers for each                                      Instruction 8500.2 requirements.
                                            type of Operating System and Terminal     Read the DISA DECC-Ogden
                                            Area Security Officers are assigned to    organizational chart and job       However, we confirmed through
                                            each area.                                descriptions to confirm that all   interviews and inspection of the
                                                                                      positions were established in      organizational chart and job
                                                                                      writing.                           descriptions that a security
                                                                                                                         management structure was in
                                                                                      Read the DISA DECC-Ogden           place. As such, the intent of the
                                                                                      SSAA to confirm that each          objective was achieved.
                                                                                      security management position
                                                                                      was outlined in the SSAA.

                                            DFAS-Arlington                            DFAS-Arlington                     DFAS-Arlington
                                            DDRS has an Information Assurance         Confirmed through inquiry that     No relevant exceptions noted.
                                            Officer, Assistant Information            a management structure had
                                            Assurance Officers, and an Information    been established.
                                            Assurance Manager.

                                                                          33
CO
               Control Objective                         Control Activity                         Test Procedure                      Results of Testing
No.
                                                                                          Read the DDRS Program
                                                                                          Management Office (PMO)
                                                                                          organizational chart and job
                                                                                          descriptions to confirm that all
                                                                                          positions were established in
                                                                                          writing.

                                                                                          Inspected the Appointment
                                                                                          Letters for the Information
                                                                                          Assurance Officer, Assistant
                                                                                          Information Assurance Officer,
                                                                                          and the Information Assurance
                                                                                          Manager to confirm that each
                                                                                          had been appointed in writing
                                                                                          with the responsibilities of their
                                                                                          positions included in
                                                                                          appointment letters.

 5    Information security responsibilities   DISA DECC-Ogden                             DISA DECC-Ogden                      DISA DECC-Ogden
      are clearly assigned.                   The information security responsibilities   Confirmed through inquiry that       No relevant exceptions noted.
                                              are included in the security plan. Also     a management structure had
                                              the security handbook identifies roles      been established.
                                              and responsibilities.
                                                                                          Read the DISA DECC-Ogden
                                                                                          organizational chart and job
                                                                                          descriptions to confirm that all
                                                                                          positions were established in
                                                                                          writing.

                                                                                          Read the DISA DECC-Ogden
                                                                                          SSAA to confirm that each
                                                                                          security management position
                                                                                          was outlined in the SSAA.




                                                                              34
CO
               Control Objective                          Control Activity                         Test Procedure                       Results of Testing
No.
                                              DFAS-Arlington                               DFAS-Arlington                        DFAS-Arlington
                                              The DDRS Information Assurance               Confirmed through inquiry that        No relevant exceptions noted.
                                              Officer, Assistant Information               a management structure had
                                              Assurance Officers, and Information          been established.
                                              Assurance Manager are appointed in
                                              writing with the responsibilities attached   Read the DDRS PMO
                                              to the appointment letters.                  organizational chart and job
                                                                                           descriptions to confirm that all
                                                                                           positions were established in
                                                                                           writing.

                                                                                           Inspected the appointment letters
                                                                                           for the Information Assurance
                                                                                           Officer, Assistant Information
                                                                                           Assurance Officer, and
                                                                                           Information Assurance Manager
                                                                                           to confirm that each had been
                                                                                           appointed in writing with the
                                                                                           responsibilities of their positions
                                                                                           included in appointment letters.

 6    A set of rules that describe the        DISA DECC-Ogden                              DISA DECC-Ogden                       DISA DECC-Ogden
      Information Assurance operations of     This is covered through the periodic         Confirmed through inquiry that        Rules of Behavior forms were not
      the DoD information system and          compliance review of the UNIX                a management structure had            available for the DDRS System
      clearly delineate Information           Security Technical Implementation            been established.                     Administrators.
      Assurance responsibilities and          Guide (STIG), Network Infrastructure
      expected behavior of all personnel is   Security Technical Implementation            Read the DISA DECC-Ogden
      in place.                               Guide.                                       organizational chart and job
                                              https://iase.disa.mil/techguid/stig/index.   descriptions to confirm that all
                                              html                                         positions were established in
                                                                                           writing.
                                              DISA also ensures each new DISA
                                              employee has received General and            Read the DISA DECC-Ogden
                                              System Specific Rules of Behavior            SSAA to confirm that each
                                              brief(s) from their immediate                security management position
                                              supervisor, has signed the acceptance        was outlined in the SSAA.
                                              form, and is cognizant of their
                                              responsibilities in safeguarding system

                                                                               35
CO
      Control Objective              Control Activity                        Test Procedure                       Results of Testing
No.
                          security prior to being given system       Inquired with the Information
                          access.                                    Assurance Manager on the
                                                                     availability of the Rules of
                                                                     Behavior for the DDRS System
                                                                     Administrators.

                          DFAS-Arlington                             DFAS-Arlington                        DFAS-Arlington
                          The DDRS Appendix M - Personnel            Confirmed through inquiry that        Eight of 18 PMO users did not
                          Controls and Technical Security            a management structure had            have Rules of Behavior forms on
                          Controls, which is part of the DDRS        been established.                     file.
                          SSAA, provides detailed descriptions of
                          the DDRS user roles. The Personnel         Read the DDRS PMO
                          Controls and Technical Security            organizational chart and job
                          document also describes the roles and      descriptions to confirm that all
                          responsibilities of the DDRS Program       positions were established in
                          Manager, Information Assurance             writing.
                          Officer, Terminal Area Security Officer,
                          Database Administrators, and DDRS          Read the Appointment Letters
                          user. Additionally, each DDRS user is      for the Information Assurance
                          also required to read and sign the DDRS    Officer, Assistant Information
                          Rules of Behavior that describes the       Assurance Officer, and the
                          rules each DDRS user is to follow.         Information Assurance Manager
                                                                     to confirm that each had been
                                                                     appointed in writing with the
                                                                     responsibilities of their positions
                                                                     included in appointment letters.

                                                                     Read the DDRS SSAA to
                                                                     confirm that the security
                                                                     management position was
                                                                     outlined in the SSAA.

                                                                     Inspected all 18 Rules of
                                                                     Behavior forms to confirm that
                                                                     the forms were on file for the
                                                                     DDRS PMO staff.



                                                         36
CO
               Control Objective                       Control Activity                         Test Procedure                      Results of Testing
No.
 7    Owners and users are aware of         DISA DECC-Ogden                             DISA DECC-Ogden                      DISA DECC-Ogden
      security policies.                    DISA DECC-Ogden maintains the               Read the Security Awareness          No relevant exceptions noted.
                                            security awareness training program.        Training briefing slides provided
                                            This program requires each individual       by DISA DECC-Ogden.
                                            with network access to complete
                                            security awareness training on an annual    Inspected all six training sign-in
                                            basis.                                      sheets to confirm that
                                                                                        DISA DECC-Ogden employees
                                                                                        had attended annual security
                                                                                        awareness training.

                                            DFAS-Arlington                              DFAS-Arlington                       DFAS-Arlington
                                            DDRS has a DDRS Rules of Behavior           Inspected all 18 Rules of            Although security awareness
                                            document. DDRS users must sign that         Behavior forms to confirm that       training was performed, there was
                                            they have reviewed and agreed to the        forms were on file for the DDRS      no documented process in place
                                            rules in order to gain access to DDRS.      PMO staff.                           for tracking that security
                                            Additionally, security awareness                                                 awareness training occurred and
                                            training for DFAS-Arlington is handled      Confirmed, through inquiry of        that DFAS personnel completed
                                            through a community page via ePortal.       the Information Assurance            the training.
                                            A database is in development to allow       Manager, the process DFAS-
                                            for better tracking of security awareness   Arlington maintained for
                                            training completion.                        security awareness training.

 8    An incident response capability has   DISA DECC-Ogden                             DISA DECC-Ogden                      DISA DECC-Ogden
      been implemented.                     The DISA Regional Computer                  Confirmed through inspection         No relevant exceptions noted
                                            Emergency Response Team located at          that the incident plan included in
                                            Scott Air Force Base, IL is responsible     the DISA DECC-Ogden SSAA
                                            for monitoring the intrusion detection      had been implemented. No
                                            system. This system governs                 random sample of items was
                                            DISA DECC-Ogden. Additional                 selected for testing because there
                                            controls are in place to confirm that       were no incidents involving
                                            authorized and unauthorized network         DDRS during our testing period.
                                            access is monitored through
                                            TCP_Wrapper and Klaxon or Banshee.          Confirmed through inquiry of
                                            Host based Intrusion Detection System,      the Information Assurance
                                            Symantec Enterprise Security Manager,       Manager that a process was in
                                            and Intruder Alert is installed on all      place for reporting computer
                                            UNIX servers. If an incident occurs, an     security incidents.

                                                                            37
CO
               Control Objective                          Control Activity                         Test Procedure                      Results of Testing
No.
                                               e-mail is sent to the Information
                                               Assurance Officer and a report of the
                                               incident is drafted and sent to the
                                               appropriate personnel. Remedial action
                                               is then taken.


                                               DFAS-Arlington                              DFAS-Arlington                       DFAS-Arlington
                                               DFAS has an incident response team          Confirmed through inspection         No relevant exceptions noted.
                                               that incidents are reported to. DDRS        that the incident plan included in
                                               has an incident response plan that is       the DDRS SSAA had been
                                               posted on the DDRS web site. The            implemented. No random
                                               DDRS Rules of Behavior informs users        sample of items was selected for
                                               of the incident response plan. The          testing because there were no
                                               incident response plan is posted on the     incidents involving DDRS
                                               DDRS web site at DFAS-                      during our testing period.
                                               CERT@DFAS.MIL.
                                                                                           Inspected all 18 Rules of
                                                                                           Behavior forms to confirm that
                                                                                           forms were on file for the DDRS
                                                                                           PMO staff.

 9    Hiring, transfer, termination, and       DISA DECC-Ogden                             DISA DECC-Ogden                      DISA DECC-Ogden
      performance policies address security.   To ensure DISA DECC-Ogden is                Read the hiring, transfer,           Seven of nine SAAR forms
                                               operated and continues to be maintained     termination, and performance         inspected did not have the
                                               in a secure, controlled manner such that    policies of DISA DECC-Ogden          signatures of the Information
                                               its data and other connected systems are    to confirm they were                 Assurance Officer on the SAAR
                                               appropriately protected; the following      documented.                          form.
                                               personnel controls have been
                                               implemented:                                Inspected all nine SAAR forms        One System Administrator did not
                                                -National Agency Check personal            to confirm that a form was on        have a SAAR form on file.
                                               security investigations are performed for   file for all System                  Additionally, access had not been
                                               all functional users (civilian, military,   Administrators with access to        removed for that user in a timely
                                               and contractors), as a minimum.             the DDRS Operating System.           manner. This user’s access was
                                                -Specified system and application                                               subsequently deleted because he
                                               permissions are granted that only allow     Confirmed though inquiry that a      no longer required access to
                                               access to required, need-to-know            DISA DECC-Ogden employee             DDRS.
                                               information.                                was debriefed upon termination

                                                                               38
CO
      Control Objective              Control Activity                         Test Procedure                      Results of Testing
No.
                           -Specific DECC system training is          of employment and that a DISA
                          performed.                                  Form 70 was used to document
                           -System Authorization Access Request       the collection of
                          (SAAR) forms are completed for all          DISA DECC-Ogden property.
                          DECC system users.
                           -Registration of all users by DECC         Confirmed through observation
                          System Administrators, Information          that an e-mail had been sent to
                          Assurance Officer, or the specific data     the System Administrator to
                          owners is performed.                        request that system access be
                           -Unique User ID and passwords are          removed for a terminated
                          required for all users.                     employee.
                           -Initial and refresher Information
                          Security training is conducted.             Inspected annual security
                                                                      awareness training sign-in sheets
                          Individuals requiring access to sensitive   for nine DISA DECC-Ogden
                          information are processed for access        employees to confirm that each
                          authorization.                              had completed security
                                                                      awareness training.
                          Only individuals who have a valid need-
                          to-know are granted access.

                          Comprehensive account management
                          process is implemented to ensure only
                          authorized users can gain access.

                          DFAS-Arlington                              DFAS-Arlington                      DFAS-Arlington
                          DFAS has agency-wide policies and           Confirmed through inquiry that      Three of 18 SAAR forms did not
                          procedures in place for the hiring,         agency-wide policies and            document justification for access
                          transfer, and termination; and policies     procedures were available for       completed; another three of 18 did
                          that address security clearance             the hiring, transfer, and           not document type of system
                          requirements. Additionally, the DDRS        termination of DFAS personnel.      access.
                          SSAA documents personnel screening
                          requirements. Only personnel who have       Inspected all 18 SAAR forms to
                          undergone the prescribed background         confirm that each form
                          investigation, commensurate with the        contained the justification for
                          designated position sensitivity, are        access, security clearance level,
                          granted access to DFAS information.         and was properly approved.
                          The DFAS Human Resources Office

                                                          39
CO
              Control Objective                     Control Activity                        Test Procedure                       Results of Testing
No.
                                         oversees the activities required for
                                         processing security clearance when
                                         necessary system-level privileges will
                                         be issued to DDRS users based on
                                         assigned roles and responsibilities.

                                         Only individuals who have a valid need-
                                         to-know are granted access.
                                         A comprehensive account management
                                         process has been implemented to ensure
                                         only authorized users can gain access.

10    Employees have adequate training   DISA DECC-Ogden                            DISA DECC-Ogden                      DISA DECC-Ogden
      and expertise.                     Training is conducted on a recurring       Confirmed through inquiry that       The System Administrator training
                                         basis using a variety of methods such as   employees had training and           was outdated.
                                         e-mail, Commanders Call, one-on-one        expertise necessary to perform
                                         training sessions, as well as block        their job responsibilities.
                                         briefings. Personnel are scheduled for
                                         specific training on the Operating         Read System Administrator
                                         Systems and Administrative software        training materials to confirm that
                                         for the systems within                     they provided the System
                                         DISA DECC-Ogden on an as needed            Administrators with training and
                                         basis. All security-type training is       expertise necessary to perform
                                         reported monthly to the Field Security     their job responsibilities.
                                         Office.
                                                                                    Inspected a random sample of
                                                                                    training records to confirm that
                                                                                    the System Administrators had
                                                                                    completed the required Level 1
                                                                                    or Level 2 training.

                                         DFAS-Cleveland                             DFAS-Cleveland                       DFAS-Cleveland
                                         Every DFAS-Cleveland software              Confirmed through inquiry that       The technical training program had
                                         developer is trained in the use of         employees had training and           not been documented.
                                         software development tools. DFAS           expertise necessary to perform       Additionally, there was no
                                         Human Resources uses a training            their job responsibilities.          documentation available listing all
                                         tracking system to track the completion                                         technical training available to staff.
                                         of training. Supervisors and employees

                                                                        40
CO
              Control Objective                         Control Activity                         Test Procedure                      Results of Testing
No.
                                            coordinate annually to prepare               Confirmed through inquiry of
                                            Individual Training Plans.                   the training manager that a
                                                                                         training process was in place for
                                                                                         DFAS-Cleveland DDRS staff.

                                                                                         Inspected Individual
                                                                                         Development Plans to confirm
                                                                                         that a plan was on file for
                                                                                         DFAS-Cleveland DDRS staff.

                                            DFAS-Indianapolis                            DFAS-Indianapolis                    DFAS-Indianapolis
                                            There are training requirements for          Confirmed through inquiry that       No relevant exceptions noted.
                                            individuals at a system administrator        employees had the training and
                                            level. The technical training                expertise necessary to perform
                                            requirements for the system                  their job.
                                            administrators are broken out by
                                            different levels to include: Levels I, II,   Confirmed through inquiry of
                                            and III. The supervisor determines the       the training manager that a
                                            category or level that their system          process was in place for training
                                            administrators should have.                  DFAS-Indianapolis DDRS staff.

                                                                                         Inspected all six training records
                                                                                         to confirm that DDRS DBAs
                                                                                         had completed the required
                                                                                         Level I, Level II, or Level III
                                                                                         training.

11    A program is implemented to confirm   DISA DECC-Ogden                              DISA DECC-Ogden                      DISA DECC-Ogden
      that upon arrival and periodically    Each new employee and contactor is           Read the security awareness          No relevant exceptions noted.
      thereafter, all personnel receive     provided with a security briefing (they      briefing used to provide training
      training and familiarization to       must also sign that they have received       for new employees at
      perform their assigned Information    this briefing). This briefing is provided    DISA DECC-Ogden.
      Assurance responsibilities.           annually. New employees and
                                            contractors are also required to take the    Inspected 17 training records to
                                            mandatory CD-ROM-based security              confirm that employees had
                                            courses and associated tests to be           completed the necessary security
                                            certified as an ADP Level I or Level II      awareness training.
                                            before access is allowed to the systems.

                                                                              41
CO
      Control Objective              Control Activity                       Test Procedure                     Results of Testing
No.

                          DFAS-Arlington                            DFAS-Arlington                     DFAS-Arlington
                          Each new employee and contractor is       Confirmed through inquiry of       Although security awareness
                          provided with a security briefing. They   the Information Assurance          training was performed, there was
                          must also sign that they have received    Manager the process DFAS-          no documented process in place to
                          this briefing before they are granted     Arlington maintains for security   track whether security awareness
                          access to DDRS. This briefing is posted   awareness training.                training was completed.
                          on the ePortal so that each DFAS user
                          can repeat the briefing annually.

                          DFAS-Cleveland                            DFAS-Cleveland                     DFAS-Cleveland
                          Each new DFAS-Cleveland employee          Read the Security Awareness        Training materials were outdated
                          and contractor has been provided with a   Training briefing charts           and there was no completion
                          security briefing (they must also sign    provided by DFAS-Cleveland.        notification sent to the Information
                          that they have received this briefing).                                      Assurance Manager or reviewed
                          This briefing was provided online.        Inspected a random sample of 34    by the Information Assurance
                                                                    DFAS-Cleveland employees to        Manager for new employees.
                                                                    confirm the completion of the
                                                                    necessary security training and    Five of 34 Technology Services
                                                                    that the required signoff          Organization (TSO) personnel
                                                                    signatures had been obtained.      randomly sampled had not
                                                                                                       completed security awareness
                                                                                                       training.

                          DFAS-Indianapolis                         DFAS-Indianapolis                  DFAS-Indianapolis
                          Mandatory security awareness training     Read the Security Awareness        No relevant exceptions noted.
                          is conducted for all government           Training briefing charts
                          employees and contractors. A record is    provided by DFAS-Indianapolis.
                          kept of each attendee, as well as the
                          specific training and dates attended.     Inspected all eight training
                                                                    records to confirm that the
                                                                    necessary security training had
                                                                    been completed and that
                                                                    employees had signed off on the
                                                                    training.




                                                         42
CO
               Control Objective                        Control Activity                         Test Procedure                     Results of Testing
No.
12    Management periodically assesses the   DISA DECC-Ogden                             DISA DECC-Ogden                     DISA DECC-Ogden
      appropriateness of security policies   Automated SRR scripts are run on each       Read the February 2004 Risk         No relevant exceptions noted.
      and compliance with them.              server and reported to the Montgomery       Assessment that was performed
                                             SRR database weekly. Each system has        with the DITSCAP to confirm
                                             a SRR and an Information Security           that risks were periodically
                                             System scan before it is connected to the   assessed.
                                             network. The DISA DECC-Ogden
                                             Field Security Office runs periodic         Observed the SRR process to
                                             SRRs and Information Security System        confirm that it occurred and that
                                             scans. DISA DECC-Ogden conducts             corrective actions were tracked.
                                             reviews of the SSAA, which includes         Inspected a single SRR
                                             the operation facility environmental risk   performed by
                                             assessment that is renewed and              DISA DECC-Ogden and
                                             reviewed annually.                          inspected the Vulnerability
                                                                                         Management System report to
                                                                                         confirm findings identified by
                                                                                         the SRR process had been
                                                                                         addressed.

                                                                                         Read the DISA DECC-Ogden
                                                                                         SSAA to confirm it had been
                                                                                         documented, updated, and
                                                                                         appropriately approved.

                                             DFAS-Arlington                              DFAS-Arlington                      DFAS-Arlington
                                             Every three years, management reviews       Read the Risk Assessment dated      No relevant exceptions noted.
                                             and assesses the DDRS application           June 28, 2002 that was
                                             security policies and compliance with       performed during the DITSCAP
                                             them during the DITSCAP review              process to confirm that risks
                                             process.                                    were periodically assessed.

                                                                                         Read the DDRS SSAA to
                                                                                         confirm it had been documented,
                                                                                         updated, and appropriately
                                                                                         approved.




                                                                             43
CO
               Control Objective                        Control Activity                        Test Procedure                     Results of Testing
No.
13    Management ensures that corrective     DISA DECC-Ogden                            DISA DECC-Ogden                     DISA DECC-Ogden
      actions are effectively implemented.   Corrective actions are tracked with the    Observed the SRR process to         No relevant exceptions noted.
                                             Vulnerability Management System and        confirm that it occurred and that
                                             the Information Assurance Vulnerability    corrective actions were tracked.
                                             Alert process to track and maintain        Inspected a single SRR
                                             system vulnerability status.               performed by
                                             DISA DECC-Ogden also utilizes Secure       DISA DECC-Ogden and
                                             Technical Implementation Guides            inspected the Vulnerability
                                             (STIGs), Information Assurance             Management System reports to
                                             Support Environment, Field Security        confirm findings identified by
                                             Office, and weekly SRRs to ensure          the SRR process had been
                                             compliance with DISA policies.             addressed.

                                             DFAS-Arlington                             DFAS-Arlington                      DFAS-Arlington
                                             Management follows up when                 Confirmed through inquiry that      No relevant exceptions noted.
                                             corrective actions are identified. After   there was a process in place for
                                             each audit an action plan is developed     tracking findings and corrective
                                             for resolution of any issues. DFAS         actions for DFAS-Arlington.
                                             Information Technology follows up on
                                             and tracks the status of CFO audits.
                                             DFAS Internal Review follows up on
                                             internal audits and tracks issue
                                             resolution. The DFAS Acquisition
                                             Management Organization is developing
                                             a master tracking system covering all
                                             Acquisition Management Organization
                                             program issues.

14    A comprehensive vulnerability          DISA DECC-Ogden                            DISA DECC-Ogden                     DISA DECC-Ogden
      management process that includes the   Corrective actions are accomplished        Read the risk assessment dated      No relevant exceptions noted.
      systematic identification and          through the Vulnerability Management       February 20, 2004, that was
      mitigation of software and hardware    System, Information Assurance              performed with the DITSCAP
      vulnerabilities is in place.           Vulnerability Alert process to track and   process to confirm that risks
                                             maintain system vulnerability status.      were periodically assessed.
                                             Additionally, Automated SRR scripts
                                             are run on each server and reported to     Observed the SRR process to
                                             the Montgomery SRR database on a           confirm that corrective actions
                                             weekly basis. Each system has a            were implemented for identified

                                                                             44
CO
      Control Objective               Control Activity                         Test Procedure                      Results of Testing
No.
                          Security Readiness and an Information        SRR findings.
                          Security System scan before it is
                          connected to the network. The                Inspected a single SRR and
                          DISA DECC-Ogden Field Security               inspected the Vulnerability
                          Office runs periodic SRRs and                Management System reports to
                          Information Security System scans.           confirm findings identified by
                          This is covered through the periodic         the SRR process had been
                          compliance review of UNIX STIG.              addressed.
                          DISA DECC-Ogden conducts a review
                          of the SSAA, which includes the
                          operation facility environmental risk
                          assessment on an annual basis.

                          DFAS-Cleveland                               DFAS-Cleveland                      DFAS-Cleveland
                          A Software Quality Assurance Plan and        Read the DDRS Software              The following exceptions were
                          Software Process Improvement Plan are        Quality Assurance Plan and          noted during our testing of all six
                          in place for the systematic identification   Software Process Improvement        DDRS-AFS module releases. We
                          and mitigation of software                   Plan to confirm that they existed   noted the following missing
                          vulnerabilities.                             and were approved by                elements: FRR SQA Presence;
                                                                       management.                         Function Requirements Review
                                                                                                           Statement of Agreement; Test
                                                                       Inspected all six DDRS-AFS          Readiness Review and Systems
                                                                       releases to confirm that DFAS-      Integration Testing Checklist; Test
                                                                       Cleveland developers were           Readiness Review and Systems
                                                                       following their documented          Integration Testing Attendee List;
                                                                       policies and procedures.            Test Readiness Review and
                                                                                                           Systems Integration Testing Open
                                                                                                           Item List; Test Readiness Review
                                                                                                           and Systems Integration Testing
                                                                                                           Statement of Agreement; Test
                                                                                                           Readiness Review and Functional
                                                                                                           Validation Testing Checklist; Test
                                                                                                           Readiness Review and Functional
                                                                                                           Validation Testing attendee list;
                                                                                                           Test Readiness Review and
                                                                                                           Functional Validation Testing
                                                                                                           open item list; Test Readiness
                                                                                                           Review and Functional Validation

                                                           45
CO
              Control Objective                   Control Activity                      Test Procedure                   Results of Testing
No.
                                                                                                                  Testing, Statement of Agreement;
                                                                                                                  Functional Validation Testing
                                                                                                                  Certification Form; Release
                                                                                                                  Implementation Readiness Review
                                                                                                                  Statement of Agreement; Post
                                                                                                                  Implementation Readiness Review
                                                                                                                  Signature; Final Physical
                                                                                                                  Configuration Audit; and Final
                                                                                                                  Functional Configuration Audit.

15    Changes to the DoD information   DISA DECC-Ogden                          DISA DECC-Ogden                   DISA DECC-Ogden
      system are assessed for IA and   As part of the DITSCAP process, the      Read the risk assessment dated    No relevant exceptions noted.
      accreditation impact prior to    DISA DECC-Ogden Information              February 20, 2004, that was
      implementation.                  Assurance Manager conducts and           performed with the DITSCAP
                                       reviews the SSAA on an annual basis or   process to confirm that risks
                                       when there is a major change.            were periodically assessed.
                                       Additionally, Automated SRR scripts
                                       are run on each server and reported to   Confirmed through inquiry with
                                       the Montgomery SRR database on a         the Information Assurance
                                       weekly basis. Each system has a SRR      Manager that the SSAA was
                                       and an Information Security System       updated on an annual basis.
                                       scan before it is connected to the
                                       network. The DISA Field Security         Observed the SRR process to
                                       Office runs periodic SRRs and            confirm that corrective actions
                                       Information Security System scans.       were implemented for identified
                                                                                SRR findings.

                                                                                Inspected a single SRR and the
                                                                                Vulnerability Management
                                                                                System reports to confirm
                                                                                findings identified by the SRR
                                                                                process had been addressed.

                                       DFAS-Arlington                           DFAS-Arlington                    DFAS-Arlington
                                       The Information Assurance Officer        Confirmed through inquiry that    No relevant exceptions noted.
                                       reviews all system changes for           the Information Assurance
                                       Information Assurance impact prior to    Manager was involved in the
                                       approval by the DDRS Configuration       Configuration Change Board

                                                                     46
CO
               Control Objective                      Control Activity                       Test Procedure                     Results of Testing
No.
                                           Change Board. The DDRS application        and assessed the DDRS changes
                                           security risks are randomly sampled and   for their impact on information
                                           analyzed every three years. These risks   assurance.
                                           are reported to DFAS Information
                                           Assurance management, and are             Confirmed through inquiry with
                                           considered for accreditation and re-      the Information Assurance
                                           accreditation every three years.          Manager that the SSAA was
                                                                                     updated every three years.
                                                                                     Read the DDRS SSAA to
                                                                                     confirm it had been documented,
                                                                                     updated, and appropriately
                                                                                     approved.

16    A DoD reference document             DISA DECC-Ogden                           DISA DECC-Ogden                     DISA DECC-Ogden
      constitutes the primary source for   As part of the DITSCAP process, the       Read the risk assessment dated      No relevant exceptions noted.
      security configuration or            DISA DECC-Ogden Information               February 20, 2004, that was
      implementation guidance for the      Assurance Manager conducts and            performed with the DITSCAP to
      deployment of newly acquired IA-     reviews the SSAA on an annual basis or    confirm that risks were
      and IA-enabled Information           when there is a major change.             periodically assessed.
      Technology products.                 Additionally, Automated SRR scripts
                                           are run on each server and reported to    Confirmed through inquiry with
                                           the Montgomery SRR database on a          the Information Assurance
                                           weekly basis. Each system has a SRR       Manager that the SSAA was
                                           and an Information Security System        updated on an annual basis.
                                           scan before it is connected to the
                                           network. The DISA Field Security          Observed the SRR process to
                                           Office runs periodic SRRs and             confirm that corrective actions
                                           Information Security System scans.        were implemented for identified
                                           This is covered through the periodic      SRR findings.
                                           compliance review of Unix Security
                                           Technical Implementation Guide.           Inspected a single SRR and the
                                                                                     Vulnerability Management
                                                                                     System reports to confirm
                                                                                     findings identified by the SRR
                                                                                     process had been addressed.
                                                                                     Read the UNIX STIG and the
                                                                                     DISA DECC-Ogden SSAA to
                                                                                     confirm that they constituted the

                                                                         47
CO
               Control Objective                        Control Activity                        Test Procedure                    Results of Testing
No.
                                                                                        primary source configuration or
                                                                                        implementation guidance for the
                                                                                        deployment of newly acquired
                                                                                        IA and IA-enabled products.
      Access Controls
17    Resource classifications and related   DFAS-Arlington                             DFAS-Arlington                     DFAS-Arlington
      criteria have been established.        DoD Instruction 8500.2 states              Confirmed through inquiry of       No relevant exceptions noted.
                                             (paraphrased): It is public information    the Information Assurance
                                             if it has been formally reviewed and       Officer that DDRS data had
                                             approved for public release in             been classified as sensitive but
                                             accordance with DoD Directive 5230.9,      unclassified.
                                             "Clearance of DoD Information for
                                             Public Release," April 9, 1996. It is      Read the SSAA to confirm that
                                             classified information if it has been      data had been classified as
                                             specifically authorized under criteria     sensitive but unclassified.
                                             established by Executive order or an Act
                                             of Congress to be kept secret in the
                                             interest of national defense or foreign
                                             policy. Only an Originating
                                             Classification Authority has the
                                             authority to classify information and
                                             DFAS does not have that authority.
                                             Therefore, DFAS treats its information
                                             as being classified only when it is
                                             marked as such or when compiling
                                             information as indicated by an existing
                                             classification guide originating from
                                             outside of DFAS. None of the data
                                             contained within DDRS is classified or
                                             cleared for public release; therefore
                                             DDRS data is considered sensitive but
                                             unclassified.




                                                                            48
CO
               Control Objective                     Control Activity                        Test Procedure                     Results of Testing
No.
18    Owners have classified resources.   DFAS-Arlington                             DFAS-Arlington                      DFAS-Arlington
                                          DDRS does not contain or store             Confirmed through inquiry of        No relevant exceptions noted.
                                          classified data. Final reports produced    the Information Assurance
                                          by DDRS are often reviewed and             Officer that DDRS data had
                                          approved for public release, but this      been classified as Sensitive But
                                          process is performed outside DDRS.         Unclassified.
                                          Financial Information processed and
                                          stored by DDRS is processed and stored     Read the SSAA to confirm that
                                          as Sensitive data in accordance with the   data had been assigned a
                                          definition found in DoD 5200.1-R,          classification level of Sensitive
                                          "Information Security Program,"            But Unclassified.
                                          January 1997. Security audit reports
                                          displaying user names are marked “For
                                          Official Use Only” in accordance with
                                          DoD guidance on Privacy Act data.


19    Resource owners have identified     DISA DECC-Ogden                            DISA DECC-Ogden                     DISA DECC-Ogden
      authorized users and their access   There are three levels of privileged       Confirmed through inquiry of        Seven of nine SAAR forms
      authorized.                         accounts for the DDRS Operating            the DDRS System Administrator       inspected did not have the
                                          System. These levels are based on          the process for obtaining an        signature of the Information
                                          need-to-know access rules. All users       administrator account on the        Assurance Officer on the SAAR
                                          must fill out the SAAR form and have a     DDRS Operating System.              form.
                                          Government official sign the form,
                                          confirming need-to-know access.            Inspected all nine SAAR forms       One System Administrator did not
                                                                                     to confirm that a form was on       have a SAAR form on file.
                                                                                     file for all System                 Additionally, access had not been
                                                                                     Administrators with access to       removed for that user in a timely
                                                                                     the DDRS Operating System.          manner. This user’s access was
                                                                                                                         subsequently deleted because he
                                                                                                                         no longer required access to
                                                                                                                         DDRS.




                                                                         49
CO
      Control Objective             Control Activity                       Test Procedure                      Results of Testing
No.
                          DFAS-Arlington                           DFAS-Arlington                      DFAS-Arlington
                          The DDRS Functional Data Owners          Confirmed through inquiry of        Three of 18 SAAR forms did not
                          identify and establish the authorized    the Information Assurance           document justification for access;
                          DDRS users by signing the SAAR form.     Officer the process for obtaining   another three of 18 did not
                          The database administrators will not     a user account on DDRS.             document type of system access.
                          accept a new user request unless it is
                          from a Functional Data Owner.            Inspected all 18 SAAR forms to      One of 22 CMIS PMO users had
                                                                   confirm that a form was on file     access to roles that were not
                                                                   for the DDRS PMO staff with         required for his duties.
                                                                   access to DDRS.                     Seven of 22 CMIS PMO users
                                                                                                       were former DDRS PMO staff, but
                                                                   Inspected all 22 access forms to    their access to CMIS had not been
                                                                   confirm that a form was on file     terminated.
                                                                   for PMO staff with access to the
                                                                   CMIS.

                          DFAS-Cleveland                           DFAS-Cleveland                      DFAS-Cleveland
                          Cleveland Management has identified      Confirmed the process for           There were no forms used to track
                          and authorized Configuration             recording access to the CMIS,       PVCS access.
                          Management Information System            the PVCS, and the Oracle
                          (CMIS), Program Version Control          Versioning application through
                          System (PVCS) and Oracle Versioning      inquiry of the following DDRS
                          users and their access has been          personnel: DDRS Configuration
                          documented and approved. CMIS is         Manager; PVCS; Configuration
                          used by PMO staff to track system        Manager; and DDRS Budgetary
                          changes made to DDRS.                    Module Team Lead.

                                                                   Inspected CMIS access forms to
                                                                   confirm that a form was on file
                                                                   for the 33 DDRS development
                                                                   staff with access to the CMIS.

                                                                   Inspected all 31 6i
                                                                   Repository User Access Forms
                                                                   to confirm that a form was on
                                                                   file for the DDRS development
                                                                   staff with access to the Oracle
                                                                   Versioning System.

                                                       50
CO
              Control Objective                   Control Activity                         Test Procedure                     Results of Testing
No.

                                                                                   Requested access forms to
                                                                                   confirm that a form was on file
                                                                                   for DDRS development staff
                                                                                   with access to the PVCS.

                                       DFAS-Indianapolis                           DFAS-Indianapolis                  DFAS-Indianapolis
                                       DDRS Database Administrator (DBA)           Inquired of the DDRS Project       One of six SAAR forms for DBAs
                                       access to production servers is             Manager and the lead DBA of        did not have the justification for
                                       documented through a SAAR form.             the process for granting DBAs      access completed on the SAAR
                                       These forms are maintained by               access to DDRS.                    form.
                                       DISA DECC-Ogden.
                                                                                   Inspected all six SAAR forms to    None of the six SAAR forms
                                                                                   confirm that a form was on file    inspected for DBAs had the
                                                                                   for the DBAs with access to        signatures of the Functional Data
                                                                                   DDRS.                              Owner and Information Assurance
                                                                                                                      Officer.
                                                                                   Inquired of the end user account
                                                                                   administrator regarding DDRS       One of six DBAs approved his
                                                                                   end user account creation,         own SAAR form.
                                                                                   modification, deletion, and
                                                                                   password reset process.

20    Emergency and temporary access   DISA DECC-Ogden                             DISA DECC-Ogden                    DISA DECC-Ogden
      authorization is controlled.     DISA DECC-Ogden has not issued              Confirmed through inquiry of       No relevant exceptions noted.
                                       emergency and temporary access              the System Administrator the
                                       authorization to the DDRS Operating         process for obtaining an
                                       System over the past year. If a vendor      administrator account on the
                                       needs to make a change to the Operating     DDRS Operating System.
                                       System, the DDRS system
                                       administrators will complete the            Confirmed with the System
                                       required actions with the vendor present.   Administrator that the vendor
                                                                                   was present when changes were
                                                                                   made.




                                                                       51
CO
      Control Objective              Control Activity                         Test Procedure                     Results of Testing
No.
                          DFAS-Arlington                              DFAS-Arlington                      DFAS-Arlington
                          If an emergency or temporary account is     Confirmed through inquiry of        No relevant exceptions noted.
                          needed, the individual must complete        the Information Assurance
                          the user access request SAAR form.          Officer the process for obtaining
                                                                      an emergency or temporary
                          Emergency or temporary access is            DDRS administrator account
                          controlled using the same controls as
                          normal access, but with a higher
                          priority. If a non-user has an urgent
                          DDRS data request, they must ask an
                          authorized DDRS user to produce it for
                          them.


                          DFAS-Cleveland                              DFAS-Cleveland                      DFAS-Cleveland
                          DFAS-Cleveland does not grant               Confirmed through inquiry of        No relevant exceptions noted.
                          emergency or temporary access to the        DDRS Configuration Manager,
                          PVCS, Oracle Versioning application,        PVCS Configuration Manager,
                          and CMIS.                                   and DDRS Budgetary Module
                                                                      Team Lead the process for
                                                                      recording access to the CMIS,
                                                                      the PVCS, and the Oracle
                                                                      Versioning application.

                          DFAS-Indianapolis                           DFAS-Indianapolis                   DFAS-Indianapolis
                          Emergency access for a new account is       Inquired of the DDRS Project        No relevant exceptions noted.
                          rarely, if ever granted. There are some     Manager and the lead DBA of
                          emergency resets of existing account        the process for obtaining
                          passwords that are handled by the           emergency or temporary DBA
                          Technology Services Organization            access to DDRS.
                          Mid-tier Support Team. Temporary
                          access is authorized for limited
                          capability on demonstrations and
                          specific software for a limited amount of
                          time. This access is with government
                          personnel supervising or assisting for
                          the period of the demonstration only.


                                                          52
CO
               Control Objective                       Control Activity                         Test Procedure                      Results of Testing
No.
21    Owners determine disposition and      DFAS-Arlington                              DFAS-Arlington                       DFAS-Arlington
      sharing of data.                      Access to and sharing of data within        Confirmed through inquiry of         No relevant exceptions noted.
                                            DDRS is controlled by user roles and        the Information Assurance
                                            work areas. Work areas restrict user        Officer that DDRS data had
                                            access to specific data subsets based on    been classified as sensitive but
                                            their organizational responsibility.        unclassified and confirmed the
                                            Functional Data Owners at the DDRS          lack of automated system
                                            PMO are responsible for maintaining         interfaces.
                                            the user roles and work areas within
                                            DDRS in accordance with approved            Read the SSAA to confirm that
                                            SAAR forms.                                 data had been assigned a
                                                                                        classification level of sensitive
                                                                                        but unclassified and that there
                                                                                        were no automated system
                                                                                        interfaces.

22    Adequate physical security controls   DISA DECC-Ogden                             DISA DECC-Ogden                      DISA DECC-Ogden
      have been implemented.                Each individual must first gain access to   Observed the physical                No relevant exceptions noted.
                                            Hill Air Force Base, UT. Then the           safeguards in place for
                                            individual has to pass through a guard at   DISA DECC-Ogden.
                                            the front desk where proper
                                            identification must be displayed to allow   Observed that facility
                                            the individual access to the Data Center.   penetration testing processes
                                            To enter the Data Center, an individual     were in place that included
                                            must have a swipe badge with the            periodic, unannounced attempts
                                            appropriate level of access.                to penetrate key computing
                                                                                        facilities. Additionally, observed
                                                                                        that every physical access point
                                                                                        that displayed sensitive
                                                                                        information or unclassified
                                                                                        information that had not been
                                                                                        cleared for release was
                                                                                        controlled during business hours
                                                                                        and guarded or locked during
                                                                                        non-business hours.




                                                                            53
CO
      Control Objective              Control Activity                       Test Procedure                       Results of Testing
No.
                          DFAS-Arlington                            DFAS-Arlington                       DFAS-Arlington
                          Access to DFAS-Arlington is controlled    Observed the physical                No relevant exceptions noted.
                          using building identification badges      safeguards in place for
                          such as the Pentagon or CM3 badge.        DFAS-Arlington.
                          Security guards at the entrance enforce
                          the use of badges.                        Interviewed building security
                                                                    personnel to confirm that
                                                                    appropriate physical security
                                                                    controls had been implemented.

                                                                    Inspected the Access Procedures
                                                                    Crystal Mall policies in place for
                                                                    controlling access to
                                                                    DFAS-Arlington.

                          DFAS-Cleveland                            DFAS-Cleveland                       DFAS-Cleveland
                          DFAS-Cleveland is a tenant of a           Observed the physical                There were no documented
                          government-shared public building         safeguards in place for DFAS-        DFAS-specific visitor policies in
                          employing security guards and metal       Cleveland.                           place and there were inadequate
                          detectors at the entrance.                                                     physical security controls to
                                                                    Interviewed building security        restrict access to the DDRS
                                                                    personnel to confirm that            developer workspace.
                                                                    appropriate physical security
                                                                    controls had been implemented.

                          DFAS-Indianapolis                         DFAS-Indianapolis                    DFAS-Indianapolis
                          General Services Administration and       Observed the physical                No relevant exceptions noted.
                          Homeland Security have complete           safeguards in place for DFAS-
                          control over facility access by all       Indianapolis.
                          individuals. A metal detector is
                          employed to screen all individuals and    Interviewed building security
                          their baggage on entering the facility.   personnel to conform that
                                                                    required physical security
                                                                    controls had been implemented.




                                                          54
CO
               Control Objective                         Control Activity                         Test Procedure                     Results of Testing
No.
23    Physical safeguards have been          DISA DECC-Ogden                              DISA DECC-Ogden                     DISA DECC-Ogden
      established that are commensurate      Each individual must first gain access to    Confirmed that facility             No relevant exceptions noted.
      with the risks of physical damage or   Hill Air Force Base, UT. During              penetration testing processes
      access.                                normal duty hours, visitors are              were in place that included
                                             controlled by a person posted in the         periodic, unannounced attempts
                                             lobby. Entry is also controlled for          to penetrate key computing
                                             computer rooms. Building 891 is a one-       facilities. Further, every
                                             story structure. There are nine entry and    physical access point that
                                             exit points. All are locked or controlled.   displayed sensitive but
                                             The facility contains 142,792 square         unclassified information that had
                                             feet. The building uses commercial           not been cleared for release was
                                             power. In the event of a commercial          controlled during business hours
                                             power failure, the building can operate      and guarded or locked during
                                             by using the Uninterruptible Power           non-business hours.
                                             Source, supplemented by backup
                                             generators, which ensures continued          Observed that the DDRS Data
                                             operation. The facility has 1,200 tons       Center was protected by fire
                                             cooling capacity.                            suppression and these prevention
                                                                                          devices were installed and
                                                                                          working. Observed that there
                                                                                          was an Uninterruptible Power
                                                                                          Source and that the cooling
                                                                                          system was maintained.

                                                                                          Confirmed that
                                                                                          DISA DECC-Ogden contained a
                                                                                          master power override switch to
                                                                                          stop the power flow to
                                                                                          Information Technology
                                                                                          equipment and that the master
                                                                                          power override switch was
                                                                                          optimally located at the entrance
                                                                                          of the data center and clearly
                                                                                          labeled.




                                                                             55
CO
               Control Objective                Control Activity                           Test Procedure                       Results of Testing
No.
24    Visitors are controlled.     DISA DECC-Ogden                                 DISA DECC-Ogden                      DISA DECC-Ogden
                                   Each visitor to the DISA DECC-Ogden             Read the visitor policy and          No relevant exceptions noted.
                                   facility must first gain access to Hill Air     procedure for
                                   Force Base, UT. Then the visitor must           DISA DECC-Ogden to confirm
                                   pass by a guard at the front desk where         they were documented.
                                   the visitor must sign the visitor control       Observed the visitor check-in
                                   log. Next, an employee of the Data              and check-out process for
                                   Center must sign the visitor control log        DISA DECC-Ogden.
                                   as escort for the visitor. Additionally,
                                   the visitor must be issued and wear a           Confirmed through inquiry and
                                   temporary badge at all times while              observation that visitor access to
                                   inside the Data Center. Finally, when           DoD information was
                                   the visitor exits the facility, the visitor's   determined by both its
                                   badge must be returned to the front             classification and user need-to-
                                   desk.                                           know.

                                                                                   Inspected 45 visitor request
                                                                                   letters to verify they existed and
                                                                                   were maintained.

                                   DFAS-Arlington                                  DFAS-Arlington                       DFAS-Arlington
                                   Visitors to DFAS-Arlington must have a          Read the visitor policy and          No relevant exceptions noted.
                                   visitor's badge and must have an escort         procedure for DFAS-Arlington
                                   depending on the type of identification         to confirm they were
                                   provided to the security guards.                documented. Observed the
                                                                                   visitor check-in and check-out
                                                                                   process for DFAS-Arlington.
                                                                                   Confirmed through inquiry and
                                                                                   observation that visitor access to
                                                                                   DoD information was
                                                                                   determined by its classification
                                                                                   and user need-to-know.

                                   DFAS-Cleveland                                  DFAS-Cleveland                       DFAS-Cleveland
                                   Visitors to DFAS-Cleveland must have            Requested the visitor policy and     Five of 12 visitor request letters
                                   a DoD Identification Badge or must be           procedure for DFAS-Cleveland         were missing. Additionally, there
                                   escorted.                                       to confirm they were                 was not a DFAS specific visitor
                                                                                   documented. Observed the             log and individuals were only

                                                                      56
CO
               Control Objective                         Control Activity                          Test Procedure                       Results of Testing
No.
                                                                                          visitor check in and check out        required to sign a general facility
                                                                                          process for DFAS-Cleveland.           visitor’s log when the individual
                                                                                                                                did not have a photo ID.
                                                                                          Confirmed through inquiry and
                                                                                          observation that visitor access to
                                                                                          DoD information was
                                                                                          determined by both its
                                                                                          classification and user need-to-
                                                                                          know.

                                                                                          Requested all 12 visitor request
                                                                                          letters to verify that they existed
                                                                                          and were being retained.

                                              DFAS-Indianapolis                           DFAS-Indianapolis                     DFAS-Indianapolis
                                              A valid ID must be displayed and            Read the visitor policy and           No relevant exceptions noted.
                                              presented to the guard at each entry of     procedure for DFAS-
                                              the building. If a person has no valid      Indianapolis to confirm they
                                              identification, they are directed to the    were documented. Observed the
                                              security office for issuance of a visitor   visitor check in and check out
                                              badge. The visitor badge must be signed     process for DFAS-Indianapolis.
                                              for by someone in the office being
                                              visited and the visitor must be escorted    Confirmed through inquiry and
                                              by that individual.                         observation that visitor access to
                                                                                          DoD information is determined
                                                                                          by its classification of the data
                                                                                          and user need-to-know.

                                                                                          Inspected visitor sign-in sheets
                                                                                          to verify that they were being
                                                                                          maintained.
25    Adequate logical access controls have   DISA DECC-Ogden                             DISA DECC-Ogden                       DISA DECC-Ogden
      been implemented at the application     To gain logical access to the DDRS          Confirmed through inquiry of          Seven of nine SAAR forms
      and Operating System layer.             Operating System a user must have a         the DDRS System Administrator         inspected did not have the
                                              valid User ID and password.                 the process for obtaining an          signature of the Information
                                                                                          administrator account on the          Assurance Officer on the SAAR
                                                                                          DDRS Operating System.                form.


                                                                              57
CO
      Control Objective               Control Activity                       Test Procedure                      Results of Testing
No.
                                                                     Inspected all nine SAAR forms       One System Administrator did not
                                                                     to confirm that a form was on       have a SAAR form on file.
                                                                     file for all System                 Additionally, access had not been
                                                                     Administrators with access to       removed for that user in a timely
                                                                     the DDRS Operating System.          manner. This user’s access was
                                                                                                         subsequently deleted because he
                                                                                                         no longer required access to
                                                                                                         DDRS.

                          DFAS-Arlington                             DFAS-Arlington                      DFAS-Arlington
                          To gain access to the DFAS-Arlington       Confirmed through inquiry of        Three of 18 SAAR forms did not
                          Network, users must use a DoD              the Information Assurance           document justification for access;
                          Common Access Card and pin number.         Officer the process for obtaining   another three of 18 did not
                          Additionally, a user must have an          a user account on DDRS.             document type of system access
                          authorized User ID and password to         Inspected all 18 SAAR forms to      One of 22 CMIS PMO users had
                          gain access to the DDRS application.       confirm that a form was on file     access to roles that were not
                                                                     for the DDRS PMO staff with         required for his duties.
                                                                     access to DDRS.
                                                                                                         Seven of 22 CMIS PMO users
                                                                     Inspected all 22 access forms to    were former DDRS PMO staff, but
                                                                     confirm that a form was on file     their access to CMIS had not been
                                                                     for PMO staff with access to the    terminated.
                                                                     CMIS.

                          DFAS-Cleveland                             DFAS-Cleveland                      DFAS-Cleveland
                          User authentication is required for        Confirmed through inquiry of        There were no forms used to track
                          access to user workstations, and an        DDRS Configuration Manager,         PVCS access.
                          additional authentication is required to   PVCS Configuration Manager,
                          access the software development tools      and DDRS Budgetary Module
                          PVCS, CMIS, and Oracle versioning.         Team Lead the process for
                                                                     recording access to the CMIS,
                                                                     the PVCS, and the Oracle
                                                                     Versioning application.

                                                                     Inspected CMIS access forms to
                                                                     confirm that a form was on file
                                                                     for the 33 DDRS development
                                                                     staff with access to the CMIS.

                                                           58
CO
               Control Objective                          Control Activity                         Test Procedure                     Results of Testing
No.

                                                                                           Inspected all 31 6i Repository
                                                                                           User Access Forms for DFAS-
                                                                                           Cleveland DDRS staff members
                                                                                           to confirm that a form was on
                                                                                           file for the DDRS development
                                                                                           staff with access to the Oracle
                                                                                           Versioning System.

                                                                                           Requested access forms to
                                                                                           confirm that a form was on file
                                                                                           for DDRS development staff
                                                                                           with access to the PVCS.

                                              DFAS-Indianapolis                            DFAS-Indianapolis                  DFAS-Indianapolis
                                              Technology Services Organization             Inquired of the DDRS Project       One of six SAAR forms for DBAs
                                              access to all systems is controlled either   Manager and the lead DBA on        did not have the justification for
                                              through the Form 1018 (Mid-tier access       the process used for granting      access completed on the SAAR
                                              request) or, for DISA platforms or           DBAs access to DDRS.               form.
                                              applications, a SAAR form must be
                                              completed and signed by the Functional       Inspected all six SAAR forms to    None of the six SAAR forms
                                              Data Owner and supervisor and the            confirm that a form was on file    inspected for DBAs had the
                                              Terminal Area Security Officer for           for DBAs with access to DDRS.      signatures of the Functional Data
                                              access.                                                                         Owner and Information Assurance
                                                                                           Inquired of the end user account   Officer.
                                                                                           administrator regarding DDRS
                                                                                           end user account creation,         One of six DBAs approved his
                                                                                           modification, deletion, and        own SAAR form.
                                                                                           password reset process.

26    Passwords, tokens, or other devices     DISA DECC-Ogden                              DISA DECC-Ogden                    DISA DECC-Ogden
      are used to identify and authenticate   To gain logical access to the DDRS           Confirmed through inquiry of       Password complexity could not be
      users.                                  Operating System, a user must have a         the DDRS System Administrator      enforced on the Solaris platform,
                                              correct User ID and password.                that passwords were used to        due to Operating System
                                              Password parameters are as follows:          authenticate Operating System      limitations. Solaris was the
                                               -Password must be at least 8 characters     users.                             Operating System used for DDRS.
                                              in length, and
                                               -Password must contain two of the

                                                                               59
CO
               Control Objective                          Control Activity                         Test Procedure                   Results of Testing
No.
                                               following three: at least one upper case,   Reviewed password setting
                                               a number, or a special character (use @,    within Solaris for compliance
                                               #, $, or _).                                with Security Technical
                                                                                           Implementation Guide
                                                                                           requirements.

                                               DFAS-Arlington                              DFAS-Arlington                   DFAS-Arlington
                                               A user ID and Password is required to       Confirmed through inquiry of     DDRS did not log users out after a
                                               access DDRS.                                the DDRS Information             specified period of inactivity and
                                                                                           Assurance Officer that           users were not automatically
                                                                                           passwords were required to       prompted to change the initial
                                                                                           authenticate DDRS end users.     generic password that they were
                                                                                                                            issued.
                                                                                           Reviewed DDRS password
                                                                                           settings to confirm compliance
                                                                                           with DoD Instruction 8500.2
                                                                                           requirements.

                                               DFAS-Indianapolis                           DFAS-Indianapolis                DFAS-Indianapolis
                                               Workstation authentication is controlled    Confirmed through inquiry of     No relevant exceptions noted.
                                               using Common Access Card smartcard          the end user account
                                               Public Key Infrastructure tokens. All       administrator the process for
                                               developer tools require a login using a     password resets and new user
                                               user ID and password unique for the         password creation.
                                               individual.
                                                                                           Confirmed through inquiry of
                                                                                           the end user account
                                                                                           administrator that passwords
                                                                                           were changed from default
                                                                                           password settings.

27    Access paths are identified as part of   DISA DECC-Ogden                             DISA DECC-Ogden                  DISA DECC-Ogden
      a risk analysis and documented in an     The vast amount of information stored,      Confirmed through inquiry of     No relevant exceptions noted
      access path diagram.                     processed, and transferred by the           the Lead Firewall Technician
                                               Automated Information systems make          and Communications Chief that
                                               them a lucrative target of a diverse,       an access path diagram existed
                                               worldwide threat intent on compromise       and was current.
                                               of data, corruption of data, and

                                                                               60
CO
                Control Objective                         Control Activity                         Test Procedure                     Results of Testing
No.
                                               disruption of service, or actual physical   Read network diagrams to
                                               destruction. The threat is diverse in       confirm that they were accurate
                                               source, motivation, sophistication,         and current.
                                               technique, and time. It includes hackers
                                               fascinated by technical challenge,          Read the DISA DECC-Ogden
                                               foreign governments with military and       SSAA to confirm that logical
                                               economic interest, disgruntled              access paths were identified and
                                               employees, and unintentional software       approved by management.
                                               errors. While the threat is
                                               predominantly in the operational phase
                                               of the system life cycle, it is present
                                               throughout the system development and
                                               system sustainment phases. Automated
                                               Information systems frequently serve
                                               users through direct and networked dial-
                                               up connections. A logical network
                                               diagram has been developed which
                                               documents the access paths for DDRS.


                                               DFAS-Arlington                              DFAS-Arlington                      DFAS-Arlington
                                               Access paths are identified and             Confirmed through inquiry of        No relevant exceptions noted.
                                               diagrammed in the DDRS SSAA.                the Information Assurance
                                                                                           Manager that an access path
                                                                                           diagram existed and was current.

                                                                                           Read the DDRS SSAA to
                                                                                           confirm that logical access paths
                                                                                           were identified and approved by
                                                                                           management.

28    Access is restricted to data files and   DISA DECC-Ogden                             DISA DECC-Ogden                     DISA DECC-Ogden
      software programs.                       DISA DECC-Ogden creates user IDs            Confirmed through inquiry of        Seven of nine SAAR forms
                                               and passwords as well as access levels      the DDRS System Administrator       inspected did not have the
                                               as documented in the SAAR form.             the process for obtaining an        signature of the Information
                                                                                           administrator account on the        Assurance Officer on the SAAR
                                                                                           DDRS Operating System.              form.


                                                                               61
CO
      Control Objective              Control Activity                       Test Procedure                      Results of Testing
No.

                                                                    Inspected all nine SAAR forms       One System Administrator did not
                                                                    to confirm that a form was on       have a SAAR form on file.
                                                                    file for all System                 Additionally, access had not been
                                                                    Administrators with access to       removed for that user in a timely
                                                                    the DDRS Operating System.          manner. This user’s access was
                                                                                                        subsequently deleted because he
                                                                                                        no longer required access to
                                                                                                        DDRS.

                          DFAS-Arlington                            DFAS-Arlington                      DFAS-Arlington
                          Access to DDRS data and to any DDRS       Confirmed through inquiry of        Three of 18 SAAR forms did not
                          program is restricted by using user       the Information Assurance           document justification for access;
                          authentication. Access is restricted by   Officer the process for obtaining   another three of 18 did not
                          the Functional Data Owners.               a user account on DDRS.             document type of system access.
                          Individuals must have a requirement or
                          need-to-know to access a specific         Inspected all 18 SAAR forms to      One of 22 CMIS PMO users had
                          application. The access for each          confirm that a form was on file     access to roles that were not
                          application or database is granted by     for the DDRS PMO staff with         required for his duties.
                          Functional Data Owners.                   access to DDRS.

                                                                    Inspected all 22 access forms to    Seven of 22 CMIS PMO users
                                                                    confirm that a form was on file     were former DDRS PMO staff, but
                                                                    for PMO staff with access to the    their access to CMIS had not been
                                                                    CMIS.                               terminated.

                          DFAS-Cleveland                            DFAS-Cleveland                      DFAS-Cleveland
                          Configuration Control and Versioning      Confirmed the process for           There were no forms used to track
                          control systems are in place throughout   recording access to the CMIS,       PVCS access.
                          the development and implementation        the PVCS, and the Oracle
                          process to ensure access control. These   Versioning application through
                          systems are CMIS, PVCS, and Oracle        inquiry of the following DDRS
                          Designer.                                 personnel: DDRS Configuration
                                                                    Manager; PVCS Configuration
                                                                    Manager; and DDRS Budgetary
                                                                    Module Team Lead.



                                                         62
CO
      Control Objective              Control Activity                      Test Procedure                     Results of Testing
No.
                                                                   Inspected CMIS access forms to
                                                                   confirm that a form was on file
                                                                   for the 33 DDRS development
                                                                   staff with access to the CMIS.

                                                                   Inspected all 31 6i Repository
                                                                   User Access Forms on DFAS-
                                                                   Cleveland staff members to
                                                                   confirm that a form was on file
                                                                   for the DDRS development staff
                                                                   with access to the Oracle
                                                                   Versioning System.

                                                                   Requested access forms to
                                                                   confirm that a form was on file
                                                                   for DDRS development staff
                                                                   with access to the PVCS.


                          DFAS-Indianapolis                        DFAS-Indianapolis                  DFAS-Indianapolis
                          DBA Access is documented on the          Inquired of the DDRS Project       One of six SAAR forms for DBAs
                          DISA Form 41 which is maintained by      Manager and the lead DBA of        did not have the justification for
                          DISA Ogden and access is restricted to   the process for granting the       access completed on the SAAR
                          development tools such as PVCS,          DBA access to DDRS.                form.
                          Oracle Versioning, and CMIS.
                                                                   Inspected all six SAAR forms to    None of the six SAAR forms
                                                                   confirm that a form was on file    inspected for DBAs had the
                                                                   for the DBAs with access to        signatures of the Functional Data
                                                                   DDRS.                              Owner and Information Assurance
                                                                                                      Officer.
                                                                   Inquired of the end user account
                                                                   administrator regarding DDRS       One of six DBAs approved his
                                                                   end user account creation,         own SAAR form.
                                                                   modification, deletion, and
                                                                   password reset process for
                                                                   DDRS.



                                                        63
CO
               Control Objective                         Control Activity                         Test Procedure                      Results of Testing
No.
29    Access settings have been              DISA DECC-Ogden                              DISA DECC-Ogden                     DISA DECC-Ogden
      implemented in accordance with the     Ogden creates user IDs and passwords         Confirmed through inquiry of        Seven of nine SAAR forms did not
      access authorizations established by   as well as access levels as documented       the DDRS System Administrator       have the signature of the
      the resource owners.                   in the SAAR form.                            the process for obtaining an        Information Assurance Officer.
                                                                                          administrator account on the
                                                                                          DDRS Operating System.              One out of nine users did not have
                                                                                                                              a SAAR form on file because the
                                                                                          Inspected all nine SAAR forms       user no longer required access.
                                                                                          to confirm that a form was on       However, the access had not been
                                                                                          file for System Administrators      terminated. The user's access was
                                                                                          with access to the DDRS             terminated after our testing.
                                                                                          Operating System.

                                             DFAS-Arlington                               DFAS-Arlington                      DFAS-Arlington
                                             Each DDRS user has access restricted to      Confirmed through inquiry of        Three of 18 SAAR forms did not
                                             specific data sets and functional roles as   the Information Assurance           document justification for access,
                                             established by the Functional Data           Officer the process for obtaining   and another three did not
                                             Owners.                                      a user account on DDRS.             document type of system access.


                                                                                          Inspected all 18 SAAR forms to      One of 22 CMIS PMO users had
                                                                                          confirm that a form was on file     access to roles that were not
                                                                                          for the DDRS PMO staff with         required for his duties.
                                                                                          access to DDRS.
                                                                                                                              Seven of 22 CMIS PMO users
                                                                                          Inspected all 22 CMIS access        were former DDRS PMO staff, but
                                                                                          forms to confirm that an access     their access to CMIS had not been
                                                                                          form was on file for PMO staff      terminated.
                                                                                          having access to the CMIS.

                                             DFAS-Cleveland                               DFAS-Cleveland                      DFAS-Cleveland
                                             Configuration Control and Versioning         Confirmed the process for           There were no forms used to track
                                             control systems are in place throughout      recording access to the CMIS,       PVCS access.
                                             the development and implementation           the PVCS, and the Oracle
                                             process to ensure access control. These      Versioning application through
                                             systems are CMIS, PVCS, and Oracle           inquiry of the following DDRS
                                             Designer.                                    personnel: DDRS Configuration
                                                                                          Manager; PVCS Configuration

                                                                              64
CO
      Control Objective              Control Activity                       Test Procedure                     Results of Testing
No.
                                                                    Manager; and DDRS Budgetary
                                                                    Module Team Lead.

                                                                    Inspected CMIS access forms to
                                                                    confirm that a form was on file
                                                                    for the 33 DDRS development
                                                                    staff with access to the CMIS.

                                                                    Inspected all 31 6i Repository
                                                                    User Access Forms on
                                                                    DFAS-Cleveland DDRS staff
                                                                    members to confirm that a form
                                                                    was on file for the DDRS
                                                                    development staff with access to
                                                                    the Oracle Versioning System.

                                                                    Requested access forms to
                                                                    confirm that a form was on file
                                                                    for DDRS development staff
                                                                    with access to the PVCS.

                          DFAS-Indianapolis                         DFAS-Indianapolis                  DFAS-Indianapolis
                          DBA access is documented on the DISA      Inquired of the DDRS Project       One of six SAAR forms for DBAs
                          Form 41 which is maintained by            Manager and the lead DBA of        did not have the justification for
                          DISA DECC-Ogden and access is             the process for granting the       access completed on the SAAR
                          restricted to development tools such as   DBA access to DDRS.                form.
                          PVCS, Oracle Versioning, and CMIS.
                                                                    Inspected all six SAAR forms to    None of the six SAAR forms
                                                                    confirm that a form was on file    inspected for DBAs had the
                                                                    for the DDRS DBAs with access      signature of the Functional Data
                                                                    to DDRS.                           Owner and the Information
                                                                                                       Assurance Officer.
                                                                    Inquired of the end user account
                                                                    administrator regarding DDRS       One of six DBA approved his own
                                                                    end user account creation,         SAAR form.
                                                                    modification, deletion, and
                                                                    password reset process.


                                                        65
CO
               Control Objective                          Control Activity                         Test Procedure                    Results of Testing
No.
30    Telecommunications controls are         DISA DECC-Ogden                              DISA DECC-Ogden                    DISA DECC-Ogden
      properly implemented in accordance      Virtual Private Network (VPN) and            Confirmed through inquiry of       There were connection attempts
      with authorizations that have been      dial-in are the telecommunications           the Lead Firewall Technician       from unauthorized hosts to the
      granted.                                methods used in DDRS.                        and Communications Chief that      DDRS database server. These
                                              DISA DECC-Ogden uses software                VPN and dial-in accounts were      attempts did not appear to be
                                              called Radius and Tac-X to ensure there      maintained at DISA DECC-           successful.
                                              are secure telecommunication                 Ogden. Verified that the VPN
                                              capabilities. If VPN or dial-up access is    was noted on the network
                                              needed then, the end user must fill out      diagrams.
                                              the DoD Form 41 or SAAR form.
                                                                                           Performed network monitoring
                                                                                           testing to test for unauthorized
                                                                                           network connections.

                                              DFAS-Arlington                               DFAS-Arlington                     DFAS-Arlington
                                              VPN and dial-in are the                      Confirmed through inquiry of       No relevant exceptions noted.
                                              telecommunications methods used by           the Information Assurance
                                              DFAS for remote DDRS access. A               Officer that VPN and dial-in
                                              DFAS user requiring remote access            accounts were maintained at the
                                              must obtain a DFAS laptop computer           DFAS-wide level and were not
                                              equipped with VPN or DFAS Internet           specific to DDRS.
                                              Service Provider software. If VPN or
                                              DFAS Internet Service Provider access
                                              is needed, then the end user must fill out
                                              the DFAS Internet Service Provider
                                              request form in addition to their own
                                              DoD Form 2875 for DDRS access.


31    Procedures are in place to clear        DISA DECC-Ogden                              DISA DECC-Ogden                    DISA DECC-Ogden
      sensitive information and software      The guidelines provided by DoD are           Read the Disposition of            No relevant exceptions noted.
      from computers, disks, and other        followed for the destruction of platters     Unclassified DoD Computer
      equipment or media when they are        and the certification of destruction is      Hard Drives policy used by
      disposed of or transferred to another   completed by the Facilities Office           DISA DECC-Ogden.
      use.                                    personnel responsible for the disposition    Confirmed policy was being
                                              of the drives (either bad or upgraded and    used.
                                              purchased and leased.)


                                                                               66
CO
      Control Objective              Control Activity                         Test Procedure                    Results of Testing
No.
                                                                      Inspected a sample of
                                                                      Certification of Hard Drive
                                                                      Disposition forms used to track
                                                                      the completion of cleared hard
                                                                      drives at DISA DECC-Ogden.

                          DFAS-Arlington                              DFAS-Arlington                     DFAS-Arlington
                          The DFAS Desktop Management                 Read the Hardware Excising         No relevant exceptions noted.
                          Initiative team removes computers and       policy used by DFAS-Arlington.
                          disks that are to be disposed of or         Confirmed policy was being
                          converted to another use from the work      used.
                          areas. They then re-image the machines
                          before re-using or disposing of them.       Inspected the log of the wiped
                                                                      and destroyed devices.

                          DFAS-Cleveland                              DFAS-Cleveland                     DFAS-Cleveland
                          DoD approved utility called "Wipe           Read the Disposition of            No relevant exceptions noted.
                          Drive" is run on each PC. The utility can   Unclassified DoD Computer
                          be set to achieve the level of security     Hard Drives policy used by
                          required.                                   DFAS-Cleveland. Confirmed
                                                                      that the policy was being used.

                                                                      Inspected the log of the wiped
                                                                      and destroyed devices.

                          DFAS-Indianapolis                           DFAS-Indianapolis                  DFAS-Indianapolis
                          DFAS-Indianapolis follows DoD               Read the DoD Computer Hard         No relevant exceptions noted.
                          requirements for clearing data from         Drives Prior To Disposal policy
                          computers and other media.                  used by DFAS-Indianapolis.

                                                                      Confirmed that the policy was
                                                                      being used.

                                                                      Inspected a sample of
                                                                      Certification of Hard Drive
                                                                      Disposition forms, used to track
                                                                      the completion of cleared hard
                                                                      drives at DFAS-Indianapolis.

                                                          67
CO
               Control Objective                           Control Activity                          Test Procedure                    Results of Testing
No.
32    Audit trails are maintained at the       DISA DECC-Ogden                              DISA DECC-Ogden                     DISA DECC-Ogden
      application, Operating System and        Operating System audit files are             Confirmed through inquiry of an     No relevant exceptions noted.
      database layers.                         periodically moved to an audit server        IT Specialist that audit trails
                                               located at DISA DECC-Ogden. The              were created and reviewed for
                                               audit files are then burned to CD and        the DDRS Operating System.
                                               stored on site for one year. After one
                                               year, the CDs are destroyed.

                                               Operating System Audit files are
                                               maintained per UNIX STIG
                                               requirements. Audit files are stored on
                                               tape on site.

                                               DFAS-Cleveland                               DFAS-Cleveland                      DFAS-Cleveland
                                               DFAS-Cleveland develops and                  Inquired of the DDRS                No relevant exceptions noted.
                                               implements audit trails at the DDRS          developers to confirm the
                                               application level.                           existence of audit trails for
                                                                                            DDRS.


                                                                                            Inspected a random sample of
                                                                                            audit trails to confirm the audit
                                                                                            trails existed.

                                               DFAS-Indianapolis                            DFAS-Indianapolis                   DFAS-Indianapolis
                                               DFAS-Indianapolis maintains database         Inquired of the DBAs to confirm     No relevant exceptions noted.
                                               alert and listener logs and other database   audit trails existed for DDRS.
                                               related logs. The logs are reviewed by
                                               the DBAs on a daily basis. Operating         Inspected a random sample of
                                               System audit files are maintained per        audit trails to confirm the audit
                                               UNIX STIG requirements. Audit files          trails existed.
                                               are stored on tape on site.

33    The contents of audit trails are         DISA DECC-Ogden                              DISA DECC-Ogden                     DISA DECC-Ogden
      protected against unauthorized access,   Audit files are maintained per UNIX          Verified through observation the    No relevant exceptions noted.
      modification or deletion.                STIG requirements. Audit files are           read and write access to the
                                               stored on tape on site.                      audit logs for the DDRS
                                                                                            Operating System was restricted

                                                                               68
CO
               Control Objective                          Control Activity                          Test Procedure                     Results of Testing
No.
                                                                                            to root-privileged users.

                                              DFAS-Cleveland                                DFAS-Cleveland                     DFAS-Cleveland
                                              The application audit trails are              Through observation, verified      No relevant exceptions noted.
                                              inherently archived at the table level and    the read and write access to the
                                              backed up and archived with the               audit logs for the DDRS
                                              database. The audit trails are                application were restricted to
                                              maintained as read-only.                      DBA-privileged users.

                                              DFAS-Indianapolis                             DFAS-Indianapolis                  DFAS-Indianapolis
                                              Permissions on the audit files are            Through observation, verified      DFAS-Indianapolis was unable to
                                              restricted to the DBAs only. DISA             the read and write access to the   provide a system-generated listing
                                              System Administrators also can view           audit logs for the DDRS            of individuals with read or write
                                              these files, but only on an "as needed"       application and database were      access to the application and
                                              basis.                                        restricted to DBA-privileged       database audit trails.
                                                                                            users.

34    Tools are available for the review of   DISA DECC-Ogden                               DISA DECC-Ogden                    DISA DECC-Ogden
      audit records and for report            HP Audit Tools are used to view audit         Inspected the tools available to   DISA DECC-Ogden did not
      generation from audit records.          records.                                      DISA DECC-Ogden personnel          proactively monitor or review
                                                                                            and confirmed that they            Operating System audit trails.
                                                                                            supported the security function.

                                              DFAS-Arlington                                DFAS-Arlington                     DFAS-Arlington
                                              The DDRS software has online report           Inspected the tools available to   No relevant exceptions noted.
                                              generation capability for each audit trail.   DFAS-Arlington personnel and
                                                                                            confirmed that they supported
                                                                                            the security function.

                                              DFAS-Cleveland                                DFAS-Cleveland                     DFAS-Cleveland
                                              Oracle Enterprise Manager is used to          Inspected the tools available to   No relevant exceptions noted.
                                              generate audit trail reports at the           DFAS-Cleveland personnel and
                                              application level for DCM and AFS             confirmed that they supported
                                              Modules. For the DDRS-Budgetary               the development function.
                                              Module, Web Graphical Interface is
                                              used for the generation of audit repots.



                                                                               69
CO
               Control Objective                           Control Activity                         Test Procedure                   Results of Testing
No.
                                                DFAS-Indianapolis                           DFAS-Indianapolis                 DFAS-Indianapolis
                                                Scripts are written that can extract the    Inquired of DBAs that             No relevant exceptions noted.
                                                information from the audit logs to report   automated tools were available
                                                on activity.                                for viewing audit trails.

                                                                                            Inspected scripts used for
                                                                                            viewing audit trails at the
                                                                                            database level.

35    Actual or attempted unauthorized,         DISA DECC-Ogden                             DISA DECC-Ogden                   DISA DECC-Ogden
      unusual, or sensitive network access      Authorized and unauthorized network         Inquired of the System Security   No relevant exceptions noted.
      is monitored.                             access is monitored through TCP             Administrator to confirm that
                                                Wrapper and Klaxon or Banshee. Host         unauthorized, unusual, or
                                                based-Intrusion Detection System,           sensitive access was monitored
                                                Symantec Enterprise Security Manager,       .
                                                and Intruder Alert are installed on all     Performed network monitoring
                                                UNIX servers.                               using the Securify tool to test
                                                                                            whether DDRS interfaces were
                                                                                            monitored with the Intruder
                                                                                            Alert server.

36    Suspicious or irregular access activity   DISA DECC-Ogden                             DISA DECC-Ogden                   DISA DECC-Ogden
      is investigated and appropriate action    When suspicious activity is detected,       Inquired of the Security          No relevant exceptions noted.
      taken.                                    initial investigation is performed. If      Administrator to confirm that
                                                deemed an actual event, the Continental     suspicious or irregular access
                                                United States Regional Computer             activity was investigated and
                                                Emergency Response Team is notified         appropriate actions were taken.
                                                and action is taken as required.

37    The acquisition, development, and         DFAS-Arlington                              DFAS-Arlington                    DFAS-Arlington
      use of mobile code to be deployed in      Mobile code used by DDRS consists of        Inquired of the Information       No relevant exceptions noted.
      DoD systems meet current guidelines,      Java Applets running within the Sun         Assurance Officer to confirm
      standards and regulations.                Java Virtual Machine or under Oracle J-     that the acquisition,
                                                Initiator. DoD policy defines these         development, and use of mobile
                                                technologies as “Category 2 Mobile          code to be deployed in DoD
                                                Code” which must be either used within      systems met current guidelines,
                                                an enclave or be digitally signed. If an    standards, and regulations.
                                                applet is obtained from a trusted source

                                                                                70
CO
               Control Objective                         Control Activity                         Test Procedure                    Results of Testing
No.
                                              over an assured channel, or if it is
                                              signed with a DoD-approved Public Key
                                              Information certificate, then the DoD
                                              mobile policy says users may execute it.
                                              Providing an applet over an assured
                                              channel that provides source
                                              authentication, such as Secure Socket
                                              Layer or Transport Layer Security, is a
                                              Policy-compliant way to provide an
                                              applet in a trusted fashion. DDRS
                                              mobile code components are transmitted
                                              using a Secure Socket Layer channel,
                                              which is digitally signed and
                                              authenticated with a DoD issued Public
                                              Key Information certificate.

                                              DFAS-Cleveland                              DFAS-Cleveland                     DFAS-Cleveland
                                              By definition, mobile code is software      Inquired with appropriate          No relevant exceptions noted.
                                              obtained from remote systems outside        personnel to confirm that the
                                              the enclave boundary, transferred across    acquisition, development, and
                                              a network, and then downloaded and          use of mobile code to be
                                              executed on a local system without          deployed in DoD systems met
                                              explicit installation or execution by the   current guidelines, standards,
                                              recipient. Therefore, this item is not      and regulations.
                                              applicable to DDRS releases.

38    All servers, workstations and mobile    DISA DECC-Ogden                             DISA DECC-Ogden                    DISA DECC-Ogden
      computing devices implement virus       All workstations and servers use            Observed that servers,             The test results have been removed
      protection that includes a capability   antivirus software.                         workstations, and mobile           from the SAS 70 Report due to the
      for automatic updates.                                                              computing devices implemented      sensitivity of the information
                                                                                          virus protection that included a   contained in the test results.
                                                                                          capability for automatic updates
                                                                                          for all DDRS locations.

                                                                                          Inspected a screen print as
                                                                                          evidence that these settings had
                                                                                          been configured.


                                                                              71
CO
      Control Objective              Control Activity                      Test Procedure                    Results of Testing
No.

                          DFAS-Arlington                           DFAS-Arlington                     DFAS-Arlington
                          All workstations and servers at          Observed that servers,             No relevant exceptions noted.
                          DFAS-Arlington use antivirus software,   workstations, and mobile
                          which has an automatic update            computing devices implemented
                          capability.                              virus protection that included a
                                                                   capability for automatic updates
                                                                   for all DDRS locations.

                                                                   Inspected a screen print as
                                                                   evidence that these settings had
                                                                   been configured.

                          DFAS-Cleveland                           DFAS-Cleveland                     DFAS-Cleveland
                          All workstations and servers at          Observed that servers,             No relevant exceptions noted.
                          DFAS-Cleveland use antivirus software,   workstations, and mobile
                          which has an automatic update            computing devices implemented
                          capability.                              virus protection that included a
                                                                   capability for automatic updates
                                                                   for all DDRS locations.

                                                                   Inspected a screen print as
                                                                   evidence that these settings had
                                                                   been configured.

                          DFAS-Indianapolis                        DFAS-Indianapolis                  DFAS-Indianapolis
                          All workstations and servers at DFAS-    Observed that servers,             No relevant exceptions noted.
                          Indianapolis use antivirus software,     workstations, and mobile
                          which has an automatic update            computing devices implemented
                          capability.                              virus protection that included a
                                                                   capability for automatic updates
                                                                   for all DDRS locations.

                                                                   Inspected a screen print as
                                                                   evidence that these settings had
                                                                   been configured.



                                                        72
CO
               Control Objective                         Control Activity                        Test Procedure                       Results of Testing
No.
39    All VPN traffic is visible to network   DISA DECC-Ogden                            DISA DECC-Ogden                       DISA DECC-Ogden
      Intrusion Detection System (IDS).       All external Virtual Private Network       Inquired of the System                No relevant exceptions noted.
                                              traffic coming into DISA DECC-Ogden        Administrators to confirm that
                                              is visible to the IDS.                     all VPN traffic was visible to the
                                                                                         network IDS.

40    At a minimum, robust Commercial         DISA DECC-Ogden                            DISA DECC-Ogden                       DISA DECC-Ogden
      off-the-shelf Information Assurance     No public network is used. The DoD         Performed network monitoring          No relevant exceptions noted.
      enabled products are used to protect    Non-secure Internet Protocol Router        using the Securify tool to test for
      sensitive information when the          Network is used.                           unencrypted traffic transmitted
      information uses public networks or                                                over commercial or wireless
      the system handling the information                                                networks.
      is accessible by individuals who are
      not authorized to access the            DFAS-Arlington                             DFAS-Arlington                        DFAS-Arlington
      information on the system.              All DDRS application data is               Performed network monitoring          No relevant exceptions noted.
                                              communicated between the user and the      using the Securify tool to verify
                                              production server using encryption         that Hyper Text Transfer
                                              transfer protocol capability. DDRS         Protocol Secure traffic was used
                                              information does not use public            to communicate between the
                                              networks.                                  end-users and the server.

41    Unless there is an overriding           DISA DECC-Ogden                            DISA DECC-Ogden                       DISA DECC-Ogden
      technical or operational problem,       All workstations automatically lock out    Confirmed through observation         No relevant exceptions noted.
      workstation screen-lock-out function    after 15 minutes of inactivity. Also all   that the workstation screen
      is associated with each workstation.    work stations can be manually locked by    lock-out function was applied.
                                              the user at anytime.                       If they were not being used,
                                                                                         inquired of the System
                                                                                         Administrator to determine why
                                                                                         the screen lock-out function was
                                                                                         not being used.

                                              DFAS-Arlington                             DFAS-Arlington                        DFAS-Arlington
                                              At DFAS-Arlington, the workstation         Confirmed through observation         No relevant exceptions noted.
                                              screen-lock functionality is associated    that the workstation screen
                                              with each workstation. Users can           lock-out function was applied.
                                              invoke this screen lock-out function by
                                              removing their Common Access Card
                                              (CAC) card from the reader or by

                                                                             73
CO
               Control Objective                         Control Activity                         Test Procedure                       Results of Testing
No.
                                              entering Ctrl-Alt-Delete followed by the
                                              enter key.

                                              DFAS-Cleveland                              DFAS-Cleveland                        DFAS-Cleveland
                                              At DFAS-Cleveland, workstation screen       Confirmed through observation         No relevant exceptions noted.
                                              lock-out function is associated with each   that workstation screen-lock-out
                                              workstation. Users can invoke the           function was applied.
                                              screen lock-out function by removing
                                              their CAC card from the reader or by
                                              entering Ctrl-Alt-Delete followed by the
                                              enter key.

                                              DFAS-Indianapolis                           DFAS-Indianapolis                     DFAS-Indianapolis
                                              At DFAS-Indianapolis the workstation        Confirmed through observation         No relevant exceptions noted.
                                              screen lock-out function is available       that the workstation screen
                                              with each workstation. Users can            lock-out function was applied.
                                              invoke this function by removing their
                                              CAC card from the reader or by entering
                                              Ctrl-Alt-Delete followed by the enter
                                              key.

42    Instant messaging traffic to and from   DISA DECC-Ogden                             DISA DECC-Ogden                       DISA DECC-Ogden
      instant messaging clients that are      Instant messaging traffic is not allowed    Performed network monitoring          No relevant exceptions noted.
      independently configured by end         per DoD Policy.                             using the Securify tool to test for
      users and that interact with a public                                               instant messaging traffic to the
      service provider is prohibited within                                               DDRS servers.
      DoD information systems.
                                              DFAS-Arlington                              DFAS-Arlington                        DFAS-Arlington
                                              Instant messaging users at DFAS-            Performed network monitoring          No relevant exceptions noted.
                                              Arlington are restricted to DoD instant     using the Securify tool to test for
                                              messaging servers.                          instant messaging traffic to the
                                                                                          DDRS servers.

                                              DFAS-Cleveland.                             DFAS-Cleveland                        DFAS-Cleveland
                                              Instant messaging traffic is not allowed    Performed network monitoring          No relevant exceptions noted.
                                              per DoD Policy.                             using the Securify tool to test for
                                                                                          instant messaging traffic to the
                                                                                          DDRS servers.

                                                                              74
CO
                Control Objective                          Control Activity                         Test Procedure                       Results of Testing
No.

                                                DFAS-Indianapolis                           DFAS-Indianapolis                     DFAS-Indianapolis
                                                Instant messaging traffic is not allowed    Performed network monitoring          No relevant exceptions noted.
                                                per DoD Policy.                             using the Securify tool to test for
                                                                                            instant messaging traffic to the
                                                                                            DDRS servers.

43    For Automated Information System          DISA DECC-Ogden                             DISA DECC-Ogden                       DISA DECC-Ogden
      applications, a list of all (potential)   DISA DECC-Ogden requires a Service          Read the DISA DECC-Ogden              No relevant exceptions noted.
      hosting enclaves is developed and         Level Agreement (SLA) with every            SLA to confirm the DDRS
      maintained along with evidence of         customer and a copy of the system’s         hosting enclave had been
      deployment planning and                   SSAA. The SLA and the SSAA contain          identified and documented.
      coordination and the exchange of          the requirements for system and data
      connection rules and requirements.        criticality, maximum acceptable             Performed network monitoring
                                                downtime, and any additional continuity     testing using the Securify tool to
                                                of operations support that may be           determine whether the DDRS
                                                required. Standard DISA procedures          Internet Protocol address was
                                                provide for the daily backup of critical    within the DISA DECC-Ogden
                                                data and the offsite storage of such data   hosting enclave.
                                                as required allowing for the resumption
                                                of normal processing in the event of
                                                scheduled or unscheduled system
                                                interruptions or downtime. Each SLA
                                                provides the particulars for that
                                                organization’s system requirements, to
                                                include the backup and recovery process
                                                and procedures to be followed as well as
                                                the maximum downtime that is
                                                considered acceptable.




                                                                                75
CO
               Control Objective                          Control Activity                         Test Procedure                     Results of Testing
No.
44    Group authenticators for application     DISA DECC-Ogden                             DISA DECC-Ogden                    DISA DECC-Ogden
      or network access may be used only       Root is a shared account among the          Confirmed through inquiry of       Seven of nine SAAR forms
      in conjunction with an individual        DDRS system administrators.                 the DDRS System Administrator      inspected did not have the
      authenticator.                           Individual authenticators are required to   the process for obtaining an       signature of the Information
                                               access the DDRS Operating System.           administrator account on the       Assurance Officer on the SAAR
                                                                                           DDRS Operating System.             form.

                                                                                           Inspected all nine SAAR forms      One System Administrator did not
                                                                                           to confirm that a form was on      have a SAAR form on file.
                                                                                           file for all System                Additionally, access had not been
                                                                                           Administrators with access to      removed for that user in a timely
                                                                                           the DDRS Operating System.         manner. This user’s access was
                                                                                                                              subsequently deleted because he
                                                                                                                              no longer required access to
                                                                                                                              DDRS.

                                               DFAS-Indianapolis                           DFAS-Indianapolis                  DFAS-Indianapolis
                                               The DDRS DBA support team members           Inquired of the DDRS Project       One of six SAAR forms for DBAs
                                               in Indianapolis each have their own         Manager and the lead DBA of        did not have the justification for
                                               Unix account for each platform in           the process for granting the       access completed on the SAAR
                                               Ogden that supports the DDRS                DBA access to DDRS.                form.
                                               application. DBAs share the Oracle
                                               UNIX account but they cannot login to       Inspected all six SAAR forms to    None of the six SAAR forms
                                               that account directly. DBAs must login      confirm that a form was on file    inspected for DBAs had the
                                               to the platform with their unique           for DBAs with access to DDRS.      signatures of the Functional Data
                                               account and then Su (Switch User) to                                           Owner and Information Assurance
                                               the Oracle account.                         Inquired of the end user account   Officer.
                                                                                           administrator regarding DDRS
                                                                                           end user account creation,         One of six DBAs approved his
                                                                                           modification, deletion, and        own SAAR form.
                                                                                           password reset process for
                                                                                           DDRS.
                                                                                           .
45    To help prevent inadvertent              DISA DECC-Ogden                             DISA DECC-Ogden                    DISA DECC-Ogden
      disclosure of controlled information,    All DISA DECC-Ogden e-mails                 Inspected the e-mail addresses     No relevant exceptions noted.
      all contractors and foreign nationals    addresses are compliant with the control    of all DDRS-related personnel at
      are identified by e-mail addresses and   objective. DISA DECC-Ogden does not         DISA DECC-Ogden to confirm
      display names.                           control other e-mail addresses within       that contractors and foreign

                                                                               76
CO
      Control Objective               Control Activity                         Test Procedure                      Results of Testing
No.
                          DDRS or Tech POC e-mail address              nationals were identified in their
                          lists.                                       e-mail addresses and display
                                                                       names.
                          To prevent inadvertent disclosure of
                          controlled information, all contractors
                          are identified by the abbreviation "ctr"
                          and all foreign nationals are identified
                          by their two-character country code.

                          DFAS-Arlington                               DFAS-Arlington                       DFAS-Arlington
                          Contractors at DFAS-Arlington are            Inspected the e-mail addresses       No relevant exceptions noted.
                          identified as such in their e-mail display   of all DDRS-related individuals
                          name.                                        at DFAS-Arlington to confirm
                                                                       that contractors and foreign
                                                                       nationals were identified in their
                                                                       e-mail addresses and display
                                                                       names.



                          DFAS-Cleveland                               DFAS-Cleveland                       DFAS-Cleveland
                          Contractors at DFAS-Cleveland are            Inspected the e-mail addresses       No relevant exceptions noted.
                          identified as such in their e-mail display   of all DDRS-related individuals
                          name.                                        at DFAS-Cleveland to confirm
                                                                       that contractors and foreign
                                                                       nationals were identified in their
                                                                       e-mail addresses and display
                                                                       names.


                          DFAS-Indianapolis                            DFAS-Indianapolis                    DFAS-Indianapolis
                          Contractors at DFAS-Indianapolis are         Inspected the e-mail addresses       No relevant exceptions noted.
                          identified as such in their e-mail display   of all DDRS-related individuals
                          name.                                        at DFAS-Indianapolis to confirm
                                                                       that contractors and foreign
                                                                       nationals were identified in their
                                                                       e-mail addresses and display
                                                                       names.

                                                           77
CO
               Control Objective                           Control Activity                      Test Procedure                        Results of Testing
No.
46    Unclassified, sensitive data              DISA DECC-Ogden                          DISA DECC-Ogden                       DISA DECC-Ogden
      transmitted through a commercial or       DDRS does not use a commercial or        Performed network monitoring          No relevant issues noted.
      wireless network are encrypted using      wireless network to transmit data. All   using the Securify tool to verify
      National Institute of Standards and       data coming into DDRS from outside       that Hyper Text Transfer
      Technology certified cryptography.        DISA DECC-Ogden is through File          Protocol Secure traffic was used
                                                Transfer Protocol (FTP) or VPN           to communicate between the
                                                communications.                          end-users and server.

                                                                                         Performed network monitoring
                                                                                         using the Securify tool to test for
                                                                                         unencrypted traffic transmitted
                                                                                         over commercial or wireless
                                                                                         networks.

47    Discretionary access controls are a       DFAS-Arlington                           DFAS-Arlington                        DFAS-Arlington
      sufficient Information Assurance          There are no system interfaces with      Inquired of the Information           There were no automated system
      mechanism for connecting DoD              DDRS.                                    Assurance Officer to confirm          interfaces identified. No relevant
      information systems operating at the                                               there were no automated system        exceptions noted.
      same classification, but with different                                            interfaces for DDRS.
      need-to-know access rules.
                                                                                         Read the DDRS SSAA to
                                                                                         confirm that data had been
                                                                                         assigned a classification level
                                                                                         and that there were no
                                                                                         automated system interfaces.

48    Conformance testing that includes         DISA DECC-Ogden                          DISA DECC-Ogden                       DISA DECC-Ogden
      periodic, unannounced, in-depth           DISA DECC-Ogden performs a               Confirmed through inquiry that        No relevant exceptions noted.
      monitoring and provides for specific      monthly Information Security System      conformance testing was
      penetration testing to ensure             scan. The monthly Information Security   performed. That it included
      compliance with all vulnerability         System scan is not announced.            periodic, unannounced, in-depth
      mitigation procedures is planned,                                                  monitoring, and provided for
      scheduled, and conducted.                 Automated SRR scripts are run on each    specific penetration testing to
                                                server and reported to the Montgomery    confirm compliance with all
                                                SRR database on a weekly basis.          vulnerability mitigation
                                                                                         procedures was planned,
                                                                                         scheduled, and conducted.


                                                                               78
CO
               Control Objective                      Control Activity                      Test Procedure                  Results of Testing
No.
                                                                                    Inspected Information System
                                                                                    Security scans and inspected
                                                                                    evidence that conformance and
                                                                                    penetration testing was being
                                                                                    completed.

                                                                                    Inspected physical penetration
                                                                                    testing documentation for
                                                                                    DISA DECC-Ogden.

49    All users are warned that they are   DISA DECC-Ogden                          DISA DECC-Ogden                  DISA DECC-Ogden
      entering a Government information    All users are warned that they are       Observed that a sample of        No relevant exceptions noted.
      system.                              entering a Government information        workstations displayed a DoD
                                           system before gaining access to the      warning banner.
                                           network or system. All users must view
                                           a warning banner on each access to
                                           DDRS.

                                           DFAS-Arlington                           DFAS-Arlington                   DFAS-Arlington
                                           All users are warned that they are       Observed that a sample of        No relevant exceptions noted.
                                           entering a Government information        workstations displayed a DoD
                                           system before gaining access to the      warning banner.
                                           network or system. All users must view
                                           a warning banner on each access to
                                           DDRS.

                                           DFAS-Cleveland                           DFAS-Cleveland                   DFAS-Cleveland
                                           All users are warned that they are       Observed that a sample of        No relevant exceptions noted.
                                           entering a Government information        workstations displayed a DoD
                                           system before gaining access to the      warning banner.
                                           network or system. All users must view
                                           a warning banner on each access to
                                           DDRS.

                                           DFAS-Indianapolis                        DFAS-Indianapolis                DFAS-Indianapolis
                                           All users are warned that they are       Observed that a sample of        No relevant exceptions noted.
                                           entering a Government information        workstations displayed a DoD
                                           system before gaining access to the      warning banner.

                                                                          79
CO
               Control Objective                           Control Activity                      Test Procedure                     Results of Testing
No.
                                                network or system. All users must view
                                                a warning banner on each access to
                                                DDRS.

50    Information and DoD information           DISA DECC-Ogden                          DISA DECC-Ogden                     DISA DECC-Ogden
      systems that store, process, transmit,    The DECC-Ogden environment and           Confirmed through observation       No relevant exceptions noted.
      or display data in any form or format     network operates under the security      that workstation screen-lock
      that is not approved for public release   provisions of public law, Executive      functionality was applied. If
      comply with all requirements in           Orders, Department of Defense            screen lock-outs were not being
      policy and guidance documents.            directives and regulations, and DISA     used, we met with a System
                                                instructions, guides, and handbooks.     Administrator to confirm the
                                                                                         reason.

                                                                                         Inquired key personnel to
                                                                                         confirm that information in
                                                                                         transit through a network at the
                                                                                         same classification level was
                                                                                         encrypted.

                                                                                         Performed network monitoring
                                                                                         to confirm traffic transmitted
                                                                                         over commercial networks was
                                                                                         encrypted.

                                                                                         Observed that displays and
                                                                                         printers used for sensitive but
                                                                                         unclassified information were
                                                                                         positioned to deter unauthorized
                                                                                         individuals from reading the
                                                                                         information at all the locations.

                                                DFAS-Arlington                           DFAS-Arlington                      DFAS-Arlington
                                                DDRS prepares and displays financial     Confirmed through observation       No relevant exceptions noted.
                                                reports in compliance with the DoD       that workstation screen lock-out
                                                Financial Management Regulation          function was applied.
                                                (http://www.dod.mil/comptroller/fmr/).
                                                Reports containing user names are        Observed that displays used for
                                                labeled in accordance with DoD 5200.1-   DDRS activities were positioned

                                                                               80
CO
               Control Objective                          Control Activity                         Test Procedure                     Results of Testing
No.
                                               R, Appendix 3.                              to deter unauthorized individuals
                                                                                           from reading the information.

51    Information in transit through a         DISA DECC-Ogden                             DISA DECC-Ogden                     DISA DECC-Ogden
      network at the same classification       Information is encrypted with National      Performed network monitoring        No relevant exceptions noted.
      level, but which must be separated for   Institute of Standards and Technology       using the Securify tool to
      need-to-know reasons, is encrypted,      certified cryptography.                     confirm information was
      at a minimum, with National Institute                                                encrypted.
      of Standards and Technology certified
      cryptography.

52    Connections between DoD enclaves         DISA DECC-Ogden                             DISA DECC-Ogden                     DISA DECC-Ogden
      and the Internet or other public or      Systems that require public access are      Inspected the DISA DECC-            No relevant exceptions noted.
      commercial wide area networks            placed in an isolated subnet in a DMZ       Ogden system architecture to
      require a Demilitarized Zone (DMZ).      for the security of those systems without   confirm that connections
                                               impacting the remainder of the subnets      between DoD enclaves and the
                                               within the environment. The DDRS            Internet were configured with a
                                               DMZ is located at DISA DECC-Ogden.          DMZ.

53    Boundary defense mechanisms to           DISA DECC-Ogden                             DISA DECC-Ogden                     DISA DECC-Ogden
      include firewalls and network IDS are    DISA DECC-Ogden has four Class C            Inspected the DISA                  No relevant exceptions noted.
      deployed at the enclave boundary.        networks that are used for different        DECC-Ogden system
                                               purposes as well as one Class B             architecture to confirm that
                                               network. The premise routers are            boundary defense mechanisms
                                               configured to only let authenticated        to include firewalls and network
                                               networks with a justified requirement       Intrusion Detection Systems
                                               through to systems on the DISA              were deployed at the enclave
                                               DECC-Ogden networks. All production         boundary.
                                               systems are protected by two Juniper
                                               M20 premise routers. Additionally, an       Inspected a system network
                                               Intrusion Detection System has been         diagram and read the diagram
                                               implemented for DISA DECC-Ogden.            with the System Administrator
                                                                                           to confirm that defense
                                                                                           mechanisms were employed.

                                                                                           Observed the existence of
                                                                                           firewalls and Intrusion Detection
                                                                                           Systems.

                                                                               81
CO
                Control Objective                           Control Activity                         Test Procedure                     Results of Testing
No.
54    Devices that display or output             DISA DECC-Ogden                             DISA DECC-Ogden                     DISA DECC-Ogden
      classified or sensitive but unclassified   The DDRS system administrators are          Observed that displays used for     No relevant exceptions noted.
      information in human readable form         located in cubicles and their monitors      DDRS activities were positioned
      are positioned to deter unauthorized       are placed so that only personnel inside    to deter unauthorized individuals
      individuals from reading the               the cubicle could view the information      from reading the information.
      information.                               the monitor displayed.

                                                 DFAS-Arlington                              DFAS-Arlington                      DFAS-Arlington
                                                 DFAS-Arlington printers and displays        Observed that displays used for     No relevant exceptions noted.
                                                 are controlled within a secured building.   DDRS activities were positioned
                                                 The DDRS PMO staff is located in            to deter unauthorized individuals
                                                 cubicles and their monitors are placed so   from reading the information.
                                                 that only individuals inside the cubicle
                                                 can view the information the monitor
                                                 displays.

                                                 DFAS-Cleveland                              DFAS-Cleveland                      DFAS-Cleveland
                                                 The DDRS development staff is located       Observed that displays used for     No relevant exceptions noted.
                                                 in cubicles and their monitors are placed   DDRS activities were positioned
                                                 so that only individuals inside the         to deter unauthorized individuals
                                                 cubicle could view the information the      from reading the information.
                                                 monitor displays.

                                                 DFAS-Indianapolis                           DFAS-Indianapolis                   DFAS-Indianapolis
                                                 The DDRS DBA staff is located in            Observed that displays used for     No relevant exceptions noted.
                                                 cubicles and their monitors are placed so   DDRS activities were positioned
                                                 that only individuals inside the cubicle    to deter unauthorized individuals
                                                 view the information it displays.           from reading the information.

55    Individuals requiring access to            DISA DECC-Ogden                             DISA DECC-Ogden                     DISA DECC-Ogden
      sensitive information are processed        The SAAR form is sent to                    Confirmed through inquiry of        Seven of nine SAAR forms
      for access authorization in accordance     DISA DECC-Ogden, which verifies             the Security Assurance Manager      inspected did not have the
      with DoD personnel security policies.      required field contents and signatures      the process of recording security   signature of the Information
                                                 and creates user IDs and passwords and      clearances for DISA                 Assurance Officer on the SAAR
                                                 files the SAAR form. All DISA               DECC-Ogden staff.                   form.
                                                 civilians are required to have a
                                                 minimum of a Secret Clearance or            Confirmed that background           One System Administrator did not
                                                 interim Secret Clearance prior to           investigations had been             have a SAAR form on file.

                                                                                 82
CO
      Control Objective               Control Activity                         Test Procedure                      Results of Testing
No.
                          physical or system access being granted.     performed and were recurring on     Additionally, access had not been
                          New contractors are submitted for            an appropriate schedule for         removed for that user in a timely
                          investigation and Interim Information        individuals with access to the      manner. This user’s access was
                          Technology access granted by DISA            DDRS Operating System.              subsequently deleted because he
                          Personnel Security or an Interim                                                 no longer required access to
                          clearance from Defense Investigative         Confirmed through inquiry of        DDRS.
                          Security Clearance Office is obtained        the DDRS System Administrator
                          prior to physical or system access being     the process for obtaining an
                          granted.                                     administrator account on the
                                                                       DDRS Operating System.

                                                                       Inspected all nine SAAR forms
                                                                       to confirm that a form was on
                                                                       file for all System
                                                                       Administrators with access to
                                                                       the DDRS Operating System.

                          DFAS-Arlington                               DFAS-Arlington                      DFAS-Arlington
                          All individuals requiring access to          Confirmed through inquiry of        Three of 18 SAAR forms did not
                          DDRS must have their Security                the Personnel Security Program      document justification for access
                          Manager's approval on the SAAR form          Manager of the process of           completed; another three of 18 did
                          before access is granted. The                recording security clearances for   not document type of system
                          Information Assurance Officer or             DFAS personnel.                     access.
                          Assistant Information Assurance Officer
                          verifies the field contents and signatures   Inspected all 18 SAAR forms to      One of 22 CMIS PMO users had
                          before creating or requesting the            confirm that a form was on file     access to roles that were not
                          creation of each user ID and password.       for the DDRS PMO staff with         required for his duties.
                                                                       access to DDRS.
                                                                                                           Seven of 22 CMIS PMO users
                                                                       Inspected all 22 access forms to    were former DDRS PMO staff, but
                                                                       confirm that a form was on file     their access to CMIS had not been
                                                                       for PMO staff with access to the    terminated.
                                                                       CMIS.

                          DFAS-Cleveland                               DFAS-Cleveland                      DFAS-Cleveland
                          All individuals requiring access to          Confirmed through inquiry of        There were no forms used to track
                          DDRS must have their Security                the DDRS Configuration              PVCS access.
                          Manager's approval on the SAAR form          Manager, PVCS Configuration

                                                          83
CO
      Control Objective               Control Activity                         Test Procedure                    Results of Testing
No.
                          before access is granted. The                Manager, and DDRS Budgetary
                          Information Assurance Officer or             Module Team Lead the process
                          Assistant Information Assurance Officer      for recording access to the
                          verifies the field contents and signatures   CMIS, the PVCS, and the Oracle
                          before creating or requesting the            Versioning application.
                          creation of each user ID and password.
                                                                       Inspected CMIS access forms to
                                                                       confirm that a form was on file
                                                                       for the 33 DDRS development
                                                                       staff with access to the CMIS.

                                                                       Inspected all 31 6i Repository
                                                                       User Access Forms for DFAS-
                                                                       Cleveland DDRS staff members
                                                                       to confirm that a form was on
                                                                       file for the DDRS development
                                                                       staff with access to the Oracle
                                                                       Versioning System.

                                                                       Requested access forms to
                                                                       confirm that a form was on file
                                                                       for DDRS development staff
                                                                       with access to the PVCS.

                          DFAS-Indianapolis                            DFAS-Indianapolis                 DFAS-Indianapolis
                          The DDRS DBA staff is required to            Verified that background          One of six SAAR forms for DBAs
                          complete a SAAR form to obtain a user        investigations had been           did not have the justification for
                          ID. This form includes a section that        performed and were reoccurring    access completed on the SAAR
                          must be completed by the security office     on an appropriate schedule for    form.
                          verifying the employee clearance level.      individuals with access to the
                          Until security clearance is verified and     DDRS database.                    None of the six SAAR forms
                          the SAAR form is signed, the user                                              inspected for DBAs had the
                          cannot log in to any system. The             Inspected all six SAAR forms to   signatures of the Functional Data
                          processing of the SAAR form and its          confirm that a form was on file   Owner and Information Assurance
                          status are tracked by the individual team    for the DBAs with access to       Officer.
                          leads until completion.                      DDRS.
                                                                                                         One of six DBAs approved his
                                                                                                         own SAAR form.

                                                          84
CO
               Control Objective                        Control Activity                         Test Procedure                     Results of Testing
No.
56    DoD information systems comply         DISA DECC-Ogden                             DISA DECC-Ogden                     DISA DECC-Ogden
      with DoD ports, protocols, and         DDRS ports, protocols, and services are     Confirmed through the               The test results have been removed
      services guidance.                     in accordance with the DISA STIGs.          performance of network              from the SAS 70 Report due to the
                                                                                         monitoring using the Securify       sensitivity of the information
                                                                                         tool that DDRS complied with        contained in the test results.
                                                                                         DoD ports, protocols, and
                                                                                         services guidance.

57    Binary or machine executable public    DISA DECC-Ogden                             DISA DECC-Ogden                     DISA DECC-Ogden
      domain software products and other     Open source programs are allowed after      Read inventory listing to           The test results have been removed
      software products with limited or no   going through a test and review process     confirm that binary or machine      from the SAS 70 Report due to the
      warranty are not used in DoD           defined by the DISA Field Service           executable public domain            sensitivity of the information
      information systems.                   Office.                                     software products and other         contained in the test results.
                                                                                         software products with limited
                                                                                         or no warranty were not installed
                                                                                         on DDRS.
      Application Software Development and Change Control
58    A system development life cycle        DFAS-Cleveland                              DFAS-Cleveland                      DFAS-Cleveland
      methodology has been implemented       The DDRS Software Quality Assurance         Read the Software Quality           No relevant exceptions noted.
      and documented.                        Plan identifies a life cycle methodology,   Assurance Plan to confirm that it
                                             which incorporates Software Quality         existed and was current.
                                             Assurance Plan milestones,
                                             configuration management, and other
                                             management events including the
                                             domain of DDRS Policy applicability.

                                             DFAS-Indianapolis                           DFAS-Indianapolis                   DFAS-Indianapolis
                                             A DoD specific system development life      Read the International              No relevant exceptions noted.
                                             cycle is operational and utilized for the   Organizational for
                                             development of the application              Standardization Mid-Tier
                                             software.                                   Guidelines and Procedures to
                                                                                         confirm that it existed and was
                                                                                         current.

                                                                                         Read the DFAS Corporate
                                                                                         Information Infrastructure
                                                                                         Common Elements Release

                                                                             85
CO
              Control Objective                     Control Activity                        Test Procedure                    Results of Testing
No.
                                                                                    Management DDRS step-by-
                                                                                    step MOD Creation Procedure to
                                                                                    confirm that it existed and was
                                                                                    current.

59    Authorizations for software        DFAS-Cleveland                             DFAS-Cleveland                     DFAS-Cleveland
      modifications are documented and   A DDRS Configuration Management            Inspected all six DDRS-AFS         The following exceptions were
      maintained.                        Plan is observant of authorized            releases, which occurred during    noted:
                                         modifications, additions, and deletions,   the seven month period under
                                         which are documented and maintained        review from October 2004 to             • Two of six changes
                                         in the interest of process and product     April 2005, and obtained the            lacked a Functional
                                         integrity.                                 artifact documentation to               Requirements Review
                                                                                    confirm the Functional                  Statement of Agreement;
                                                                                    Requirements Review, Change             • One of six changes did
                                                                                    Control Board, Critical Design          not have a Test Readiness
                                                                                    Review, Test Readiness Review           Review and Systems
                                                                                    and Systems Integration Testing         Integration Testing Statement
                                                                                    , Test Readiness Review,                of Agreement;
                                                                                    Functional Validation Testing,          • One of six changes did
                                                                                    Test Readiness Review and               not have a Test Readiness
                                                                                    Concurrent Validation Testing,          Review and Functional
                                                                                    Release Implementation                  Validation Testing Statement
                                                                                    Readiness Review, and Post              of Agreement;
                                                                                    Implementation Review                   • Two of six changes did
                                                                                    contained appropriate signatures        not have a Release
                                                                                    for authorizing the modification        Implementation Readiness
                                                                                    to DDRS.                                Review Statement of
                                                                                                                            Agreement; and,
                                                                                    Inquired of DFAS-Cleveland              • One of six changes did
                                                                                    personnel to corroborate the            not have a Post
                                                                                    results of the testing.                 Implementation Review
                                                                                                                            signature.


                                         DFAS-Indianapolis                          DFAS-Indianapolis                  DFAS-Indianapolis
                                         A configuration management group and       Inquired of DFAS-Indianapolis      We were unable to trace software
                                         a release management group are             personnel about the process for    modifications from DFAS-
                                         responsible for maintaining the changes    documenting and maintaining        Cleveland to the changes

                                                                         86
CO
               Control Objective                      Control Activity                       Test Procedure                      Results of Testing
No.
                                           requested via a formal system change      authorizations for software         implemented by DFAS-
                                           request and each release is a             modifications.                      Indianapolis on the production
                                           documented process.                                                           servers because the DFAS-
                                                                                                                         Indianapolis DBAs were unable to
                                                                                                                         determine how to match the
                                                                                                                         modifications to the system change
                                                                                                                         request maintained by DFAS-
                                                                                                                         Cleveland.

60    Use of public domain and personal    DISA DECC-Ogden                           DISA DECC-Ogden                     DISA DECC-Ogden
      software is restricted.              Open source programs are allowed after    Read inventory listing to           The test results have been removed
                                           going through a test and review process   confirm that binary or machine      the SAS 70 Report due to the
                                           defined by the DISA Field Service         executable public domain            sensitivity of the information
                                           Office.                                   software products and other         contained in the test results.
                                                                                     software products with limited
                                                                                     or no warranty were not installed
                                                                                     on DDRS.

61    Changes are controlled as programs   DFAS-Cleveland                            DFAS-Cleveland                      DFAS-Cleveland
      progress through testing to final    A DDRS Configuration Management           Inspected all six changes to        The following exceptions were
      approval.                            Plan is observant of authorized           confirm that the artifact           noted during our testing of all six
                                           modifications, additions, and deletions   documentation Functional            DDRS-AFS module releases. We
                                           which are documented and maintained       Requirements Review, Change         noted the following missing
                                           in the interest of process and product    Control Board, Critical Design      elements: Function Requirements
                                           integrity.                                Review, Test Readiness Review       Review Statement of Agreement;
                                                                                     and Systems Integration Testing,    Test Readiness Review and
                                                                                     Test Readiness Review,              Systems Integration Testing
                                                                                     Functional Validation Testing,      Checklist; Test Readiness Review
                                                                                     Test Readiness Review and           and Systems Integration Testing
                                                                                     Concurrent Validation Testing,      Attendee List; Test Readiness
                                                                                     Release Implementation              Review and Systems Integration
                                                                                     Readiness Review, and Post          Testing Open Item List; Test
                                                                                     Implementation Review was           Readiness Review and Systems
                                                                                     available, complete and             Integration Testing Statement of
                                                                                     authorized for modifications to     Agreement; Test Readiness
                                                                                     DDRS.                               Review and Functional Validation
                                                                                                                         Testing Checklist; Test Readiness
                                                                                                                         Review and Functional Validation

                                                                           87
CO
               Control Objective                       Control Activity                       Test Procedure                    Results of Testing
No.
                                                                                      Inquired of DFAS-Cleveland         Testing attendee list;
                                                                                      personnel to corroborate the       Test Readiness Review and
                                                                                      results of the testing.            Functional Validation Testing
                                                                                      Read the SPI policies and          open item list; Test Readiness
                                                                                      confirmed they described the       Review and Functional Validation
                                                                                      process that changes must go       Testing, Statement of Agreement;
                                                                                      through to be implemented.         Functional Validation Testing
                                                                                                                         Certification Form; Release
                                                                                                                         Implementation Readiness Review
                                                                                                                         Statement of Agreement; Post
                                                                                                                         Implementation Readiness Review
                                                                                                                         Signature; Final Physical
                                                                                                                         Configuration Audit; and Final
                                                                                                                         Functional Configuration Audit.

                                            DFAS-Indianapolis                         DFAS-Indianapolis                  DFAS-Indianapolis
                                            DDRS employs the CMIS and Oracle's        Inquired of DFAS-Indianapolis      We were unable to trace software
                                            Designer Repository to control            personnel about the process for    modifications from DFAS-
                                            programs and their progress throughout    controlling changes for software   Cleveland to the changes
                                            testing and final approval. The Release   modifications.                     implemented by DFAS-
                                            Management Group also controls                                               Indianapolis on the DDRS
                                            changes to the production environment                                        production servers because the
                                            and maintains an audit trail on                                              DFAS-Indianapolis DBAs were
                                            application changes.                                                         unable to determine how to match
                                                                                                                         the modifications to the system
                                                                                                                         change requests maintained by
                                                                                                                         DFAS-Cleveland.

62    Emergency changes are promptly        DFAS-Cleveland                            DFAS-Cleveland                     DFAS-Cleveland
      randomly sampled and approved         Emergency changes are handled by          Inspected a random sample of       No relevant exception noted.
      before being moved into production.   creating an Emergency Release Waiver.     changes to confirm that an
                                            Changes are required to be randomly       Emergency Release Waiver was
                                            sampled before being moved into           created, completed and
                                            production.                               authorized by appropriate
                                                                                      personnel when necessary.
                                                                                      Inquired of DFAS-Cleveland
                                                                                      personnel to corroborate the
                                                                                      results of the testing.

                                                                           88
CO
               Control Objective                          Control Activity                        Test Procedure                   Results of Testing
No.

                                               DFAS-Indianapolis                          DFAS-Indianapolis                 DFAS-Indianapolis
                                               Emergency changes are handled in the       Inquired of DFAS-Indianapolis     We were unable to trace software
                                               same manner as the normal release          personnel on the process of       modifications from DFAS-
                                               processes. A configuration management      documenting and maintaining       Cleveland to the changes
                                               group and a release management group       authorizations for emergency      implemented by
                                               are responsible for maintaining the        software modifications.           DFAS-Indianapolis on the DDRS
                                               changes requested via a formal system                                        production servers because the
                                               change request and each release is a                                         DFAS-Indianapolis DBAs were
                                               documented process.                                                          unable to determine how to match
                                                                                                                            the modifications to the system
                                                                                                                            change requests maintained by
                                                                                                                            DFAS-Cleveland.

63    Distribution and implementation of       DFAS-Indianapolis                          DFAS-Indianapolis                 DFAS-Indianapolis
      new or revised software is controlled.   The Technology Services Organization       Inquired of DFAS-Indianapolis     We were unable to trace software
                                               and Corporate Services control the         personnel about the process for   modifications from DFAS-
                                               submission of software or application      distributing and releasing        Cleveland to the changes
                                               changes into the production                software modifications.           implemented by DFAS-
                                               environment. The DDRS developers                                             Indianapolis on the DDRS
                                               submit changes via File Transfer                                             production servers because the
                                               Protocol to an inbox on a Technology                                         DFAS-Indianapolis DBAs were
                                               Services Organization platform. The                                          unable to determine how to match
                                               announcement is made via e-mail to                                           the modifications to the system
                                               Technology Services Organization                                             change requests maintained by
                                               release management. Release                                                  DFAS-Cleveland.
                                               Management picks up the submittal and
                                               relays the changes to the DBA staff
                                               using File Transfer Protocol. These
                                               changes are then used on the appropriate
                                               DISA server or platform.

64    Programs are labeled and inventoried.    DFAS-Cleveland                             DFAS-Cleveland                    DFAS-Cleveland
                                               The DFAS Corporate Information             Inspected a random sample of      The DFAS Corporate Information
                                               Infrastructure Naming Standard             930 configuration items to        Infrastructure naming standards
                                               document is utilized for labeling and      determine compliance with         were not followed for DDRS
                                               inventorying programs.                     naming standards and to confirm   items.
                                                                                          they were inventoried.

                                                                               89
CO
               Control Objective                        Control Activity                      Test Procedure                     Results of Testing
No.
65    Access to program libraries is         DFAS-Cleveland                           DFAS-Cleveland                     DFAS-Cleveland
      restricted to appropriate personnel.   DFAS-Cleveland grants role based         Confirmed the process for          There were no forms used to track
                                             access to each member of the DDRS        recording access to the CMIS,      access to the PVCS.
                                             development team on joining the team,    the PVCS, and the Oracle
                                             and periodically when Corporate          Versioning application through
                                             Services requires it.                    inquiry of the following DDRS
                                                                                      personnel: DDRS Configuration
                                                                                      Manager; PVCS; Configuration
                                                                                      Manager; and DDRS Budgetary
                                                                                      Module Team Lead.

                                                                                      Inspected CMIS access forms to
                                                                                      confirm that a form was on file
                                                                                      for the 33 DDRS development
                                                                                      staff with access to the CMIS.
                                                                                      Inspected all 6i Repository User
                                                                                      Access Forms for a sample of 31
                                                                                      DFAS-Cleveland DDRS staff
                                                                                      members to confirm that a form
                                                                                      was on file for the DDRS
                                                                                      development staff with access to
                                                                                      the Oracle Versioning System.

                                                                                      Requested access forms to
                                                                                      confirm that a form was on file
                                                                                      for DDRS development staff
                                                                                      with access to the PVCS.

                                             DFAS-Indianapolis                        DFAS-Indianapolis                  DFAS-Indianapolis
                                             Access to development tools such as      Inquired of the DDRS Project       One of six SAAR forms for DBAs
                                             CMIS, PVCS and Oracle Versioning is      Manager and the lead DBA of        did not have the justification for
                                             controlled through standard procedures   the process for granting the       access completed on the SAAR
                                             and documented request forms.            DBA access to DDRS.                form.

                                                                                      Inspected all six SAAR forms to    None of the six SAAR forms
                                                                                      confirm that a form was on file    inspected for DBAs had the
                                                                                      for the DDRS DBAs with access      signatures of the Functional Data
                                                                                      to DDRS.                           Owner and Information Assurance

                                                                           90
CO
               Control Objective                            Control Activity                          Test Procedure                       Results of Testing
No.
                                                                                                                                Officer.

                                                                                                                                One of six DBAs approved his
                                                                                                                                own SAAR form.

                                                                                                                                DFAS-Indianapolis DBAs had full
                                                                                                                                access to the DDRS test,
                                                                                                                                development, and production
                                                                                                                                environments.

66    Acquisition or outsourcing of IT          DFAS-Indianapolis                             DFAS-Indianapolis                 DFAS-Indianapolis
      services explicitly addresses             The Statement of Work governs the             Inspected the Statement of Work   No relevant exceptions noted.
      Government, service provider, and         explicit roles and responsibilities for any   contract agreement to confirm
      end user IA roles and responsibilities.   service provider that bids on services for    that it expressly addressed
                                                the DDRS system.                              Government, service provider,
                                                                                              and end-user IA roles and
                                                                                              responsibilities.

                                                DFAS-Arlington                                DFAS-Arlington                    DFAS-Arlington
                                                The DDRS PMO outsources the Central           Inspected the SOW contract        No relevant exceptions noted.
                                                Design Agency, Database                       agreement to confirm that it
                                                Administrator, and application hosting        expressly addressed
                                                Information Technology services to            Government, service provider,
                                                DFAS-Cleveland, DFAS-Indianapolis,            and end-user IA roles and
                                                and DISA DECC-Ogden, respectively.            responsibilities.
                                                Each agreement delineates roles and
                                                responsibilities.                             Inquired of DFAS-Arlington
                                                                                              personnel to corroborate the
                                                                                              results of the testing.




                                                                                 91
CO
               Control Objective                        Control Activity                        Test Procedure                     Results of Testing
No.
67    The acquisition of all Information     DFAS-Arlington                             DFAS-Arlington                     DFAS-Arlington
      Assurance- and Information             All Government off-the-shelf               Confirmed through inquiry that     No relevant exceptions noted.
      Assurance-enabled Government Off-      Information Technology products used       DDRS was not a Government
      the-Shelf Information Technology       in DDRS have been evaluated by the         Off-the-Shelf product.
      products is limited to products that   common criteria or are under evaluation.
      have been evaluated by the National
      Security Agency or in accordance
      with National Security Agency
      approved processes.

68    Movement of programs and data          DFAS-Cleveland                             DFAS-Cleveland                     DFAS-Cleveland
      among libraries is controlled.         The development team conducts Test         Inspected a sample of six          The following exceptions were
                                             Readiness Reviews-System Integration       changes to confirm that the        noted during our testing of all six
                                             Testing, Test Readiness Reviews-           artifact testing documentation     DDRS-AFS module releases. We
                                             Functional Validation Testing, and         Test Readiness Review and          noted the following missing
                                             Release Implementation Readiness           System Integration Testing, Test   elements: Function Requirements
                                             Review, and produces or defines ARCs       Readiness Review and               Review Statement of Agreement;
                                             compression format at the time of          Functional Validation Testing,     Test Readiness Review and
                                             implementation readiness. Changes are      Test Readiness Review and          Systems Integration Testing
                                             released to the Release Management         Change Validation Testing, and     Checklist; Test Readiness Review
                                             Group at DFAS-Indianapolis for             Release Implementation             and Systems Integration Testing
                                             implementation.                            Readiness Review was               Attendee List; Test Readiness
                                                                                        available, complete, and           Review and Systems Integration
                                                                                        authorized for modifications to    Testing Open Item List; Test
                                                                                        DDRS.                              Readiness Review and Systems
                                                                                                                           Integration Testing Statement of
                                                                                        Inquired of DFAS-Cleveland         Agreement; Test Readiness
                                                                                        personnel to corroborate the       Review and Functional Validation
                                                                                        results of the testing.            Testing Checklist; Test Readiness
                                                                                                                           Review and Functional Validation
                                                                                                                           Testing attendee list;
                                                                                                                           Test Readiness Review and
                                                                                                                           Functional Validation Testing
                                                                                                                           open item list; Test Readiness
                                                                                                                           Review and Functional Validation
                                                                                                                           Testing, Statement of Agreement;
                                                                                                                           Functional Validation Testing
                                                                                                                           Certification Form; Release

                                                                            92
CO
               Control Objective                          Control Activity                         Test Procedure                      Results of Testing
No.
                                                                                                                               Implementation Readiness Review
                                                                                                                               Statement of Agreement; Post
                                                                                                                               Implementation Readiness Review
                                                                                                                               Signature; Final Physical
                                                                                                                               Configuration Audit; and Final
                                                                                                                               Functional Configuration Audit.

                                               DFAS-Indianapolis                           DFAS-Indianapolis                   DFAS-Indianapolis
                                               DDRS employs CMIS to control the            Inquired of personnel at DFAS-      We were unable to trace software
                                               movement of information programs and        Indianapolis about the process      modifications from DFAS-
                                               data among libraries. The process           for controlling movement of         Cleveland to the changes
                                               includes sign off by responsible            programs and data among             implemented by DFAS-
                                               individuals authorizing the actions.        libraries.                          Indianapolis on the DDRS
                                                                                                                               production servers because DFAS-
                                                                                                                               Indianapolis DBAs were unable to
                                                                                                                               determine how to match the
                                                                                                                               modifications to the System
                                                                                                                               Change Requests maintained by
                                                                                                                               DFAS-Cleveland.

69    Software quality requirements and        DFAS-Cleveland                              DFAS-Cleveland                      DFAS-Cleveland
      validation methods that are focused      A Software Quality Assurance Program        Inspected all six changes to        The following exceptions were
      on the minimization of flawed or         has been instituted for all DDRS            verify that a software quality      noted during our testing of all six
      malformed software that can              projects. This program is executed          assurance member was present        DDRS-AFS module releases. We
      negatively impact integrity or           during the lifecycle of all DDRS            at each meeting through review      noted the following missing
      availability such as buffer over runs    releases in accordance with DFAS            of attendee listings.               elements: FRR SQA Presence;
      such as are specified for all software   Policy SM-13. A key element of the                                              Function Requirements Review
      development initiatives.                 software quality assurance function is to   Inspected all six changes to        Statement of Agreement; Test
                                               help to develop and observe the             confirm that the artifact testing   Readiness Review and Systems
                                               adherence to DDRS policies.                 documentation (Test Readiness       Integration Testing Checklist; Test
                                                                                           Review and Systems Integration      Readiness Review and Systems
                                                                                           Testing, Test Readiness Review      Integration Testing Attendee List;
                                                                                           and Functional Validation           Test Readiness Review and
                                                                                           Testing, and Test Readiness         Systems Integration Testing Open
                                                                                           Review and Change Validation        Item List; Test Readiness Review
                                                                                           Testing) was available, complete    and Systems Integration Testing
                                                                                           and authorized for modifications    Statement of Agreement; Test
                                                                                           to DDRS.                            Readiness Review and Functional

                                                                               93
CO
               Control Objective                         Control Activity                       Test Procedure                    Results of Testing
No.
                                                                                                                           Validation Testing Checklist; Test
                                                                                        Inquired of key DFAS-              Readiness Review and Functional
                                                                                        Cleveland personnel to             Validation Testing attendee list;
                                                                                        corroborate the results of the     Test Readiness Review and
                                                                                        testing above.                     Functional Validation Testing
                                                                                                                           open item list; Test Readiness
                                                                                                                           Review and Functional Validation
                                                                                                                           Testing, Statement of Agreement;
                                                                                                                           Functional Validation Testing
                                                                                                                           Certification Form; Release
                                                                                                                           Implementation Readiness Review
                                                                                                                           Statement of Agreement; Post
                                                                                                                           Implementation Readiness Review
                                                                                                                           Signature; Final Physical
                                                                                                                           Configuration Audit; and Final
                                                                                                                           Functional Configuration Audit.
      System Software Controls
70    Access authorizations are               DISA DECC-Ogden                           DISA DECC-Ogden                    DISA DECC-Ogden
      appropriately limited.                  Access to system software is restricted   Read the policies and procedures   Seven of nine SAAR forms
                                              to personnel with corresponding job       for restricting access to the      inspected did not have the
                                              responsibilities by access control        systems software to confirm that   signature of the Information
                                              software. Update access should            they were current.                 Assurance Officer on the SAAR
                                              generally be limited to primary and                                          form.
                                              backup systems programmers.               Inspected all nine SAAR forms
                                                                                        to confirm that a form was on      One System Administrator did not
                                                                                        file for all System                have a SAAR form on file.
                                                                                        Administrators with access to      Additionally, access had not been
                                                                                        the DDRS Operating System.         removed for that user in a timely
                                                                                                                           manner. This user’s access was
                                                                                                                           subsequently deleted because he
                                                                                                                           no longer required access to
                                                                                                                           DDRS.
71    All access paths have been identified   DISA DECC-Ogden                           DISA DECC-Ogden                    DISA DECC-Ogden
      and controls implemented to prevent     Auditing is enabled on all DDRS servers   Confirmed through inquiry of an    DISA DECC-Ogden did not
      or detect access for all paths.         at the Operating System level. The        IT Specialist that audit trails    proactively monitor or review
                                              UNIX STIG is enforced on all DDRS         were created and reviewed for      audit trails.
                                              servers.                                  the DDRS Operating System.

                                                                              94
CO
               Control Objective                           Control Activity                         Test Procedure                     Results of Testing
No.

                                                The Operating System is configured to       Confirmed through inquiry of
                                                prevent circumvention of the security       the Lead Firewall Technician
                                                software and application controls.          and Communications Chief and
                                                Access to system software is restricted     observation that all access paths
                                                to personnel with corresponding job         were monitored.
                                                responsibilities by access control
                                                software. Update access should
                                                generally be limited to primary and
                                                backup systems programmers.

72    Policies and techniques have been         DISA DECC-Ogden                             DISA DECC-Ogden                     DISA DECC-Ogden
      implemented for using and                 Audit logs are used to monitor the use of   Confirmed through inquiry of an     DISA DECC-Ogden did not
      monitoring the use of system utilities.   system utilities.                           IT Specialist that audit trails     proactively monitor or review
                                                                                            were created and reviewed for       audit trails.
                                                                                            the DDRS Operating System.

                                                                                            Read a sample of the audit logs     Seven of nine SAAR forms
                                                                                            from the DDRS servers to            inspected did not have the
                                                                                            confirm that Ogden personnel        signature of the Information
                                                                                            reviewed the logs on a regular      Assurance Officer on the SAAR
                                                                                            basis and that any issues noted     form.
                                                                                            were documented and
                                                                                            researched.                         One System Administrator did not
                                                                                                                                have a SAAR form on file.
                                                                                            Inspected all nine SAAR forms       Additionally, access had not been
                                                                                            to confirm that a form was on       removed for that user in a timely
                                                                                            file for all System                 manner. This user’s access was
                                                                                            Administrators with access to       subsequently deleted because he
                                                                                            the DDRS Operating System.          no longer required access to
                                                                                                                                DDRS.
                                                                                            Confirmed through inquiry of
                                                                                            the System Administrators that
                                                                                            the super user log was created
                                                                                            and reviewed.




                                                                                95
CO
               Control Objective                       Control Activity                         Test Procedure                    Results of Testing
No.
73    System software changes are           DISA DECC-Ogden                             DISA DECC-Ogden                    DISA DECC-Ogden
      authorized, randomly sampled, and     All software changes and upgrades are       Requested and inspected the        No relevant exceptions noted.
      approved before implementation.       approved, by either the DISA Change         change management policies and
                                            Control Board or the DISA                   procedures for system software
                                            DECC-Ogden Change Control Board,            to confirm that they existed and
                                            and are developed in a closed               were current.
                                            environment. All existing software or
                                            migrated software and firmware were
                                            thoroughly randomly sampled prior to
                                            installation on DISA DECC-Ogden’s
                                            production platforms. Any new
                                            software undergoes the same testing
                                            procedures. If software vulnerabilities
                                            are identified, the commercial vendors,
                                            Government Central Design Agencies,
                                            or appropriate Systems Support Offices
                                            test, correct, and field appropriate
                                            patches or upgrades to correct the
                                            problem.

74    Installation of system software is    DISA DECC-Ogden                             DISA DECC-Ogden                    DISA DECC-Ogden
      documented and reviewed.              Installation procedures for the Operating   Inspected and read the             No relevant exceptions noted.
                                            System are maintained within the            DISA DECC-Ogden Business
                                            DISA DECC-Ogden Business                    Continuity Plan to confirm that
                                            Continuity Plan.                            the installation of system
                                                                                        software was documented and
                                                                                        reviewed.

75    Good engineering practices with       DISA DECC-Ogden                             DISA DECC-Ogden                    DISA DECC-Ogden
      regards to the integrity mechanisms   Policy mandates the use of Secure           Confirmed through inquiry of       The test results have been removed
      of commercial-off-the-shelf,          Socket Shell, Secure File Transfer          the System Administrator that      from the SAS 70 Report due to the
      Government-off-the-shelf, and         Protocol, or Secure Communications          there were no automated system     sensitivity of the information
      custom developed solutions are        Processor for file transfers.               interfaces between DDRS and        contained in the test results.
      implemented for incoming and                                                      other automated information
      outgoing files.                                                                   systems.

                                                                                        Performed network monitoring
                                                                                        and testing using the Securify

                                                                            96
CO
               Control Objective                       Control Activity                       Test Procedure                   Results of Testing
No.
                                                                                      tool to confirm that no
                                                                                      unencrypted traffic was
                                                                                      transmitted over the
                                                                                      DISA DECC-Ogden networks.

                                                                                      Inspected and read the DDRS
                                                                                      SSAA to confirm that no
                                                                                      automated interfaces exist.

      Segregation of Duties
76    Incompatible duties have been         DISA DECC-Ogden                           DISA DECC-Ogden                   DISA DECC-Ogden
      identified and policies implemented   System Administration, System             Confirmed through inquiry of      No relevant exceptions noted.
      to segregate these duties.            Security, Information Assurance           DISA DECC-Ogden personnel
                                            Officer, and Information Assurance        and inspection of job
                                            Manager duties are all separated at       descriptions that DISA had
                                            DISA DECC-Ogden.                          effectively segregated
                                                                                      incompatible duties.
                                            System Administrators manage server
                                            software and hardware. System Security    Inspected the DISA DECC-
                                            Administrators manage weekly System       Ogden organization chart to
                                            Readiness Review scripts and manage       confirm that it existed, was
                                            all Information Assurance Vulnerability   current, and was approved by
                                            Alert requirements. DBAs manage           management.
                                            databases and application support.
                                            Information Assurance Officers and
                                            Information Assurance Mangers manage
                                            documentation for all findings, store
                                            auditing files, and do vulnerability
                                            scans.

                                            DFAS-Arlington                            DFAS-Arlington                    DFAS-Arlington
                                            DDRS has a Program Manager, an            Confirmed through inquiry of      No relevant exceptions noted.
                                            Information Assurance Officer,            the Information Assurance
                                            Assistant Information Assurance           Officer and inspection of job
                                            Officers, and an Information Assurance    descriptions that DFAS-
                                            Manager. Additionally, the DDRS           Arlington had effectively
                                            software prohibits an individual from     segregated incompatible duties.

                                                                           97
CO
      Control Objective              Control Activity                        Test Procedure                       Results of Testing
No.
                          approving any transaction that they have
                          initiated such as a Journal Voucher or a   Read the DDRS PMO
                          trial balance correction. In DDRS          organizational chart and job
                          Budgetary, assignment of powerful roles    descriptions to confirm that all
                          like these are restricted to the           positions were established in
                          “Headquarters System Security              writing.
                          Administrator” role.
                                                                     Inspected the Appointment
                                                                     Letters for the Information
                                                                     Assurance Officer, Assistant
                                                                     Information Assurance Officer
                                                                     and the Information Assurance
                                                                     Manager to confirm that these
                                                                     individuals had been appointed
                                                                     in writing with the
                                                                     responsibilities of their positions
                                                                     included in the appointment
                                                                     letters.

                          DFAS-Cleveland                             DFAS-Cleveland                        DFAS-Cleveland
                          To define the guidelines and roles for     Confirmed through inquiry of          No relevant exceptions noted.
                          the development and implementation of      DFAS-Cleveland personnel and
                          DDRS products, to this date, twenty two    inspection of job descriptions
                          DDRS policies have been developed to       that DFAS-Cleveland had
                          ensure due process and repeatability in    effectively segregated
                          the interest of quality in the DDRS        incompatible duties.
                          software process and its products.
                          There is also a Software Quality           Read the DFAS-Cleveland
                          Assurance function in place to ensure      organizational chart and job
                          developers are following policies and      descriptions to confirm that all
                          procedures.                                positions were established in
                                                                     writing.

                          DFAS-Indianapolis                          DFAS-Indianapolis                     DFAS-Indianapolis
                          The DDRS application is controlled by      Confirmed through inquiry of          No relevant exceptions noted.
                          Oracle roles assigned to users.            DFAS-Indianapolis personnel
                          Managers oversee user access as            and inspection of job
                          documented on the SAAR form.               descriptions that DFAS-

                                                         98
CO
              Control Objective                       Control Activity                         Test Procedure                    Results of Testing
No.
                                                                                       Indianapolis had effectively
                                                                                       segregated incompatible duties.
                                                                                       Read the DFAS-Indianapolis
                                                                                       organizational chart and job
                                                                                       descriptions to confirm that all
                                                                                       positions were established in
                                                                                       writing.

77    System management job descriptions   DISA DECC-Ogden                             DISA DECC-Ogden                    DISA DECC-Ogden
      have been documented.                All job descriptions are documented and     Confirmed through inquiry of       No relevant exceptions noted.
                                           stored at DISA DECC-Ogden.                  DISA DECC-Ogden personnel
                                                                                       and inspection of job
                                                                                       descriptions that DISA had
                                                                                       effectively segregated
                                                                                       incompatible duties.

                                                                                       Inspected the DISA DECC-
                                                                                       Ogden organization chart to
                                                                                       confirm that it existed, was
                                                                                       current, and was approved by
                                                                                       management.

                                           DFAS-Arlington                              DFAS-Arlington                     DFAS-Arlington
                                           Job descriptions are reviewed on an         Confirmed through inquiry of       No relevant exceptions noted.
                                           annual basis in conjunction with            the Information Assurance
                                           establishing DFAS employee                  Officer and inspection of job
                                           performance standards. After the award      descriptions that DFAS-
                                           of a contract, the contractor is required   Arlington had segregated
                                           to submit a Project Management Plan to      incompatible duties.
                                           state the approach to satisfying contract
                                           deliverables. This plan includes the job    Read the DDRS PMO
                                           titles and descriptions of the staffing     organizational chart and job
                                           plan.                                       descriptions to confirm that all
                                                                                       positions were established in
                                                                                       writing.

                                                                                       Inspected the Appointment
                                                                                       Letters for the Information

                                                                           99
CO
              Control Objective                 Control Activity                        Test Procedure                      Results of Testing
No.
                                                                                Assurance Officer, Assistant
                                                                                Information Assurance Officer
                                                                                and the Information Assurance
                                                                                Manager to confirm that these
                                                                                individuals had been appointed
                                                                                in writing with their
                                                                                responsibilities included in their
                                                                                appointment letters.

                                    DFAS-Indianapolis                           DFAS-Indianapolis                    DFAS-Indianapolis
                                    Job descriptions are documented for         Confirmed through inquiry of         No relevant exceptions noted.
                                    TSO personnel in the Mid-tier               DFAS-Indianapolis personnel
                                    guidelines and procedures. Job              and inspection of job
                                    responsibilities for the end users of the   descriptions that DFAS-
                                    application are documented by the           Indianapolis had segregated
                                    development staff in accordance with        incompatible duties.
                                    specifics outlined by the requirements
                                    documentation.                              Read the DFAS-Indianapolis
                                                                                organizational chart and job
                                                                                descriptions to confirm that all
                                                                                positions were established in
                                                                                writing.

78    System management employees   DISA DECC-Ogden                             DISA DECC-Ogden                      DISA DECC-Ogden
      understand their duties and   All DISA DECC-Ogden employees               Inspected a random sample of         No relevant exceptions noted.
      responsibilities.             understand their duties and                 three employees and confirmed
                                    responsibilities in accordance with         through inquiry that they
                                    DISA policies and procedures. Written       understood their duties and
                                    position descriptions exist for all         responsibilities and inspected
                                    security personnel and all personnel are    documentation to confirm that
                                    aware of their respective roles and         employees had signed position
                                    responsibilities.                           descriptions.

                                    DFAS-Arlington                              DFAS-Arlington                       DFAS-Arlington
                                    Supervisors and employees discuss and       Inspected all 13 employees and       No relevant exceptions noted.
                                    sign performance standards for each         confirmed through inquiry that
                                    employee. After the award of a              they understood their duties and
                                    contract, the contractor is required to     responsibilities and inspected

                                                                    100
CO
              Control Objective                        Control Activity                        Test Procedure                     Results of Testing
No.
                                            submit a Project Management Plan to        documentation to confirm that
                                            state the approach to satisfy contract     employees had signed position
                                            deliverables. This plan verifies the       descriptions.
                                            contractor's understanding of their
                                            duties.

                                            DFAS-Cleveland                             DFAS-Cleveland                      DFAS-Cleveland
                                            Employees interviewed understand their     Inspected a random sample of 26     No relevant exceptions noted.
                                            primary job responsibility and are aware   employees and confirmed
                                            of documentation identifying their         through inquiry that they
                                            position description. Each position        understood their duties and
                                            description identifies major duties,       responsibilities and inspected
                                            supervisory controls, and guidelines.      documentation to confirm that
                                                                                       employees had signed position
                                                                                       descriptions.

                                            DFAS-Indianapolis                          DFAS-Indianapolis                   DFAS-Indianapolis
                                            The specific duties and responsibilities   Inspected a random sample of        No relevant exceptions noted.
                                            are part of the job descriptions each      eight employees and confirmed
                                            employee attests to when accepting the     through inquiry that they
                                            job. These duties and responsibilities     understood their duties and
                                            are reviewed and managed by the            responsibilities and inspected
                                            Management Staff of the Configuration      documentation to confirm that
                                            Management Information System              employees had signed position
                                                                                       descriptions.


79    Management reviews effectiveness of   DISA DECC-Ogden                            DISA DECC-Ogden                     DISA DECC-Ogden
      control techniques.                   As part of the DITSCAP process, the        Read the latest risk assessment     No relevant exceptions noted.
                                            DISA DECC-Ogden Information                dated February 20, 2004
                                            Assurance Manger conducts and              included in the DISA
                                            reviews the SSAA on an annual basis or     DECC-Ogden SSAA to confirm
                                            when there is a major change.              that risks were periodically
                                            Additionally, Automated SRR scripts        assessed.
                                            are run on each server and reported to
                                            the Montgomery SRR database on a           Observed the SRR process to
                                            weekly basis. Each system has SRR and      confirm that it occurred and that
                                            an Information System Security scan        corrective actions were tracked.

                                                                           101
CO
              Control Objective                       Control Activity                         Test Procedure                   Results of Testing
No.
                                           before it is connected to the network.
                                           The DISA DECC-Ogden Field Security          Inspected a single SRR
                                           Office runs periodic SRRs and               performed by
                                           Information System Security scans.          DISA DECC-Ogden and
                                                                                       inspected the Vulnerability
                                                                                       Management System findings
                                                                                       report to confirm findings
                                                                                       identified by the SRR process
                                                                                       had been addressed.

                                           DFAS-Arlington                              DFAS-Arlington                    DFAS-Arlington
                                           The DDRS application security risks are     Read the latest risk assessment   No relevant exceptions noted.
                                           sampled and analyzed every three years.     dated July 28, 2002 included in
                                           These risks are reported to DFAS            the DISA Ogden SSAA to
                                           Information Assurance management,           confirm that risks were
                                           and are considered for accreditation and    periodically assessed.
                                           re-accreditation every three years.

80    Formal procedures guide system       DISA DECC-Ogden                             DISA DECC-Ogden                   DISA DECC-Ogden
      management personnel in performing   No formal procedures.                       Read SOPs used by DISA            SOPs and DISA DECC-Ogden
      their duties.                                                                    DECC-Ogden personnel to           SSAA were outdated and
                                                                                       confirm their DDRS-related job    incomplete.
                                                                                       duties were documented.

                                           DFAS-Arlington                              DFAS-Arlington                    DFAS-Arlington
                                           Government employees follow their           Read Standard Operating           Standard Operating Procedures
                                           performance standards and Standard          Procedures used by DFAS-          were not available for review.
                                           Operating Procedures (SOP) where            Arlington personnel to confirm
                                           appropriate. After the award of a           their DDRS-related job duties
                                           contract, the contractor is required to     were documented.
                                           submit a Project Management Plan to
                                           state the approach to satisfying contract
                                           deliverables. Contract staff is guided by
                                           this plan.

                                           DFAS-Cleveland                              DFAS-Cleveland                    DFAS-Cleveland
                                           Each DDRS change management policy          Read Standard Operating           No relevant exceptions noted.
                                           has a Roles and Responsibility section.     Procedures used by DFAS-

                                                                          102
CO
               Control Objective                           Control Activity                           Test Procedure                      Results of Testing
No.
                                               To achieve this objective, it has been         Cleveland personnel to confirm
                                               declared mandatory for the DDRS                their DDRS-related job duties
                                               Development Team to observe and                were documented.
                                               adhere to Policies and Procedures in
                                               helping to dictate behavior and actions
                                               during the development process.

                                               DFAS-Indianapolis                              DFAS-Indianapolis                   DFAS-Indianapolis
                                               The DBAs are governed by the policies          Read Standard Operating             No relevant exceptions noted.
                                               and procedures outlined in the Mid-Tier        Procedures used by DFAS-
                                               Policy and Procedures.                         Indianapolis personnel to
                                                                                              confirm their DDRS-related job
                                                                                              duties were documented.

81    Access procedures enforce the            DISA DECC-Ogden                                DISA DECC-Ogden                     DISA DECC-Ogden
      principles of separation of duties and   Access to the DDRS Operating System            Confirmed through inquiry of        Seven of nine SAAR forms
      “least privilege.”                       is based on need-to-know access rules.         the DDRS System Administrator       inspected did not have the
                                               All users must fill out the SAAR form          the process for obtaining an        signature of the Information
                                               and have a government official sign the        administrator account on the        Assurance Officer on the SAAR
                                               form confirming need-to-know access.           DDRS Operating System.              form.

                                                                                              Inspected all nine SAAR forms       One System Administrator did not
                                                                                              to confirm that a form was on       have a SAAR form on file.
                                                                                              file for all System                 Additionally, access had not been
                                                                                              Administrators with access to       removed for that user in a timely
                                                                                              the DDRS Operating System.          manner. This user’s access was
                                                                                                                                  subsequently deleted because he
                                                                                                                                  no longer required access to
                                                                                                                                  DDRS.

                                               DFAS-Arlington                                 DFAS-Arlington                      DFAS-Arlington
                                               DDRS users have assigned user roles            Confirmed through inquiry of        Three of 18 SAAR forms did not
                                               and organizational work areas that             the Information Assurance           document justification for access,
                                               restrict their activities within datasets to   Officer the process for obtaining   and another three did not
                                               what they need for their job duties.           a user account on DDRS.             document type of system access.

                                                                                              Inspected all 18 SAAR forms to      One of 22 CMIS PMO users had
                                                                                              confirm that a form was on file     access to roles that were not

                                                                                 103
CO
      Control Objective              Control Activity                     Test Procedure                     Results of Testing
No.
                                                                  for the DDRS PMO staff with        required for his duties.
                                                                  access to DDRS.
                                                                                                     Seven of 22 CMIS PMO users
                                                                  Inspected all 22 CMIS access       were former DDRS PMO staff, but
                                                                  forms to confirm that a form was   their access to CMIS had not been
                                                                  on file for PMO staff with         terminated.
                                                                  access to the CMIS.


                          DFAS-Cleveland                          DFAS-Cleveland                     DFAS-Cleveland
                          Cleveland Management has identified     Confirmed through inquiry of       There were no forms used to track
                          and authorized CMIS, Project Version    DDRS Configuration Manager,        PVCS access.
                          Control System (PVCS) and Oracle        Project Version Control System
                          Versioning users and their access has   (PVCS) Configuration Manager
                          been documented and approved.           and DDRS Budgetary Module
                                                                  Team Lead the process for
                                                                  recording access to the CMIS,
                                                                  the PVCS, and the Oracle
                                                                  Versioning application.

                                                                  Inspected CMIS access forms to
                                                                  confirm that a form was on file
                                                                  for the 33 DDRS development
                                                                  staff with access to the CMIS.

                                                                  Inspected 6i Repository User
                                                                  Access Forms for a random
                                                                  sample of 31 DFAS-Cleveland
                                                                  DDRS staff members to confirm
                                                                  that a form was on file for the
                                                                  DDRS development staff with
                                                                  access to the Oracle Versioning
                                                                  System.

                                                                  Requested access forms to
                                                                  confirm that a form was on file
                                                                  for DDRS development staff
                                                                  with access to the PVCS.

                                                        104
CO
              Control Objective                       Control Activity                         Test Procedure                     Results of Testing
No.

                                           DFAS-Indianapolis                           DFAS-Indianapolis                  DFAS-Indianapolis
                                           The SAAR form documents the need for        Inquired of the DDRS Project       One of six SAAR forms for DBAs
                                           the individual to access the system. The    Manager and the lead DBA of        did not have the justification for
                                           developers define the roles required for    the process for granting the       access completed on the SAAR
                                           the individual job responsibilities and     DBA access to DDRS.                form.
                                           the Oracle role is the catalyst for those
                                           permissions defined within the              Inspected all six SAAR forms to    None of the six SAAR forms
                                           application. These roles are                confirm that a form was on file    inspected for DBAs had the
                                           subsequently granted to the individual      for the DBAs with access to        signatures of the Functional Data
                                           user when access to the application is      DDRS.                              Owner and Information Assurance
                                           granted.                                                                       Officer.
                                                                                       Inquired of the end user account
                                                                                       administrator regarding DDRS       One of six DBAs approved his
                                                                                       end user account creation,         own SAAR form.
                                                                                       modification, deletion, and
                                                                                       password reset process.

82    Active supervision and review are    DISA DECC-Ogden                             DISA DECC-Ogden                    DISA DECC-Ogden
      provided for all system management   Personnel actions are reviewed by           Read the DISA DECC-Ogden           No relevant exceptions noted.
      personnel.                           management structure of PMO Team            organizational chart to confirm
                                           Leads, Branch Chief, Division Chief,        that a management structure was
                                           Deputy Director, and Director.              documented.

                                                                                       Read position descriptions of
                                                                                       DDRS support personnel to
                                                                                       confirm supervisory
                                                                                       responsibilities were
                                                                                       documented.

                                           DFAS-Arlington                              DFAS-Arlington                     DFAS-Arlington
                                           The immediate and second level              Read the DFAS-Arlington            No relevant exceptions noted.
                                           supervisors review and sign the             organizational chart to confirm
                                           performance standards and performance       that a management structure was
                                           appraisals for all employees.               documented.
                                           Contractors provide status reports that
                                           are reviewed by the Program Manager.        Read position descriptions of
                                           In addition, within the PMO,                DDRS support personnel to

                                                                          105
CO
      Control Objective               Control Activity                         Test Procedure                   Results of Testing
No.
                          government employees and contract            confirm supervisory
                          staff work as a team in close                responsibilities were
                          coordination with the program manager.       documented.

                          DFAS-Cleveland                               DFAS-Cleveland                    DFAS-Cleveland
                          Every DFAS-Cleveland employee has a          Read the DFAS-Cleveland           No relevant exceptions noted.
                          local supervisor that they report to. This   organizational chart to confirm
                          supervisor performs annual performance       that a management structure was
                          reviews.                                     documented.

                                                                       Read position descriptions of
                                                                       DDRS support personnel to
                                                                       confirm supervisory
                                                                       responsibilities were
                                                                       documented.

                          DFAS-Indianapolis                            DFAS-Indianapolis                 DFAS-Indianapolis
                          Annual reviews are conducted for             Read the DFAS-Indianapolis        No relevant exceptions noted.
                          government employees by the                  organizational chart to confirm
                          employee’s supervisor. The Federal           that a management structure was
                          Government conducts reviews of               documented.
                          contractors.
                                                                       Read position descriptions of
                                                                       DDRS support personnel to
                                                                       confirm supervisory
                                                                       responsibilities were
                                                                       documented.




                                                          106
DDRS-Audited Financial Statements Module
CO
               Control Objective                         Control Activity                      Test Procedure                       Results of Testing
No.
1     Financial Statements
      Controls provide reasonable             1. DoD Reporting policy ensures that     Read DFAS policies pertaining        DFAS-Arlington
      assurance that financial statements     the financial statements include all     to the preparation of financial      Policies related to the preparation
      and related footnotes are produced in   reportable items and related footnotes   statements and footnotes to          of financial statements and
      conformance with the reporting          include all required disclosures in      determine whether they               footnote disclosures did not
      requirements of Financial Accounting    accordance with FASAB, OMB 01-09,        conformed to OMB, Treasury           provide for the reporting and
      Standards Advisory Board (FASAB),       and Treasury requirements.               and FASAB reporting                  disclosure of accounting
      Office of Management and Budget                                                  requirements.                        information required by the
      (OMB) Bulletin No. 01-09, Form and                                                                                    Federal Accounting Standards
      Content of Agency Financial                                                      Compared the DoD financial           Advisory Board (FASAB) and
      Statements (OMB Bulletin No. 01-                                                 statement footnotes appearing in     Office of Management and Budget
      09,) and the Department of the                                                   FY 2004 Performance and              (OMB) Bulletin 01-09 as follows:
      Treasury, Financial Management                                                   Accountability Report to the         1) The Statement of Net Cost was
      Service (Treasury.)                                                              Government Accountability            not presented by program.
                                                                                       Office’s “Checklist for Federal      2) The value of Property in hands
      Controls provide reasonable                                                      Accounting, Reporting and            of contractors was not reported.
      assurance that financial statements                                              Disclosure” to determine             3) Property Plant & Equipment
      report all material financial                                                    whether footnotes included all       requirements change for Statement
      information required by FASAB,                                                   required disclosures in              of Federal Financial Accounting
      Treasury and OMB, and that                                                       accordance with FASAB, and           Standard 23 had not yet been
      automated totals in the financial                                                OMB Bulletin No. 01-09.              implemented.
      statements are appropriately                                                                                          4) Trading Partner elimination
      calculated.                                                                      Analyzed DoD Fiscal Year 2005        amounts were not corroborated by
                                                                                       Quarter 1 (FY 05 Q1) financial       the buyer entity.
                                                                                       statements to determine whether      5) The methodology used to value
                                                                                       issues identified in the DoD FY      Deferred Maintenance was not
                                                                                       04 financial statements were still   disclosed in the footnotes.
                                                                                       valid at FY 05 Q1.                   6) The value of Heritage Assets,
                                                                                                                            seized property, certain categories
                                                                                       Inspected the contents of the        of operating materials and
                                                                                       Confirmation Letter issued by        supplies, non-exchange custodial
                                                                                       the customer to signify the          revenue, and restrictions pertaining
                                                                                       review and acceptance of the         to unobligated balances were not
                                                                                       financial statements prepared by     disclosed.
                                                                                       DFAS.

                                                                            107
CO
      Control Objective              Control Activity                       Test Procedure                       Results of Testing
No.

                                                                    Confirmed, through
                                                                    corroborative inquiry, that
                                                                    footnotes included all required
                                                                    disclosures in accordance with
                                                                    FASAB, and OMB Bulletin No.
                                                                    01-09.

                          2. Templates are used to produce          Compared the DDRS-AFS                DFAS-Arlington
                          financial statements in conformance       financial statement templates,       A formal system was not in place
                          with United States Standard General       Chart of Accounts, and account       to identify differences between the
                          Ledger (USSGL) -Supplement No. S2         attributes to the USSGL for          DDRS-AFS report maps with
                          of the Treasury Financial Manual.         consistency.                         USSGL crosswalks, and the
                          for the following statements:                                                  reasons for those differences.
                          1) Balance Sheet.                         Confirmed, through
                          2) Statement of Net Cost.                 corroborative inquiry, that          Furthermore, the mapping of
                          3) Statement of Changes in Net            templates were used to produce       accounts used for the preparation
                          Position.                                 financial statements and related     of the Statement of Custodial
                          4) Statement of Budgetary Resources.      footnotes in conformance with        Activity did not conform to
                          5) Statement of Financing.                the USSGL.                           Treasury requirements, and
                          6) Statement of Custodial Activity,                                            accounts with the custodial
                          when applicable.                                                               attribute were improperly mapped
                                                                                                         to the Statement of Changes in Net
                                                                                                         Position.

                          3. Automated totals are used within       Recalculated the FY 04 DoD,          DFAS-Arlington
                          financial statement templates to ensure   consolidated financial               No relevant exceptions noted.
                          that financial statement sub-totals and   statements subtotals and totals to
                          totals are mathematically correct.        determine whether line item          DFAS-Cleveland
                                                                    amounts accurately summed to         No relevant exceptions noted.
                                                                    their respective subtotals and
                                                                    totals, and that consolidating
                                                                    statements summed to DoD-
                                                                    wide consolidated statements.

                                                                    Confirmed, through
                                                                    corroborative inquiry, that
                                                                    automated totals within the

                                                         108
CO
      Control Objective               Control Activity                         Test Procedure                       Results of Testing
No.
                                                                       templates appropriately
                                                                       summarized the financial
                                                                       statement line items and that
                                                                       sub-totals and totals are
                                                                       mathematically correct.

                          4. DDRS-AFS system design and other          Reviewed footnote editing            DFAS-Arlington
                          related procedures ensure that footnote      process in DDRS-AFS to               DFAS-Cleveland
                          schedule totals agree to the applicable      determine whether the final
                          line items in the statements, and the        version of the narrative was         Users could inadvertently
                          associated narrative is properly reflected   carried forward to the financial     overwrite the footnotes of another
                          in the footnote disclosures.                 statements.                          entity processed by the same
                                                                                                            DFAS center, or overwrite each
                                                                       Inspected the DDRS-AFS               other’s footnote edits within the
                                                                       generated “Footnote to               same entity. However, mitigating
                                                                       Statement” reconciliation reports    controls were in place because the
                                                                       for differences between financial    footnote narratives were reviewed
                                                                       statement line items and             by the customer to ensure that the
                                                                       footnote totals.                     content of the footnote was
                                                                                                            complete as evidenced in the
                                                                       Confirmed, through                   completed Standard Guidance
                                                                       corroborative inquiry, that the      Checklist and customer’s issuance
                                                                       footnote narrative prepared in       of the Confirmation Letter. Thus,
                                                                       DDRS-AFS is carried forward to       the control activity and the
                                                                       the footnotes in the final version   associated mitigating controls
                                                                       of the financial statements.         supported the control objective.




                                                          109
CO
      Control Objective              Control Activity                        Test Procedure                      Results of Testing
No.
                          5. Reporting and accounting guidance is    Inspected relevant policies,         DFAS-Arlington
                          prepared by DFAS-Arlington and             current FASAB reporting              No relevant exceptions noted.
                          disseminated to DFAS Centers to ensure     requirements, and relevant
                          that staff receives adequate training on   FASAB accounting treatments
                          the use of DDRS-AFS, and maintain          to determine whether they were
                          their knowledge of FASAB and DoD           included in the Quarterly
                          reporting requirements.                    Guidance.

                                                                     Obtained e-mail distribution lists
                                                                     to determine whether DFAS-
                                                                     Arlington distributed the
                                                                     Quarterly Guidance to DFAS
                                                                     centers.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that the
                                                                     staff were adequately trained to
                                                                     maintain their knowledge of
                                                                     DDRS-AFS processes and
                                                                     FASAB reporting requirements.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that
                                                                     DDRS-AFS communicated
                                                                     FASAB and reporting
                                                                     requirements.




                                                        110
CO
      Control Objective               Control Activity                        Test Procedure                      Results of Testing
No.
                          6. Procedures are implemented to ensure     Confirmed, through observation,     DFAS-Arlington
                          that DDRS-AFS financial statements are      that the DFAS centers:              DFAS-Cleveland
                          internally consistent and that the proper   - Prepared the reconciliation       DFAS-Indianapolis
                          budgetary and proprietary accounting        reports as required by DFAS-        DFAS-Columbus
                          relationships are established.              Arlington to ensure that            DFAS-Denver
                                                                      financial statements are
                                                                      consistent and that the proper      The reconciliation process
                                                                      budgetary and proprietary           frequently resulted in adjustments
                                                                      relationships are established,      to force agreement between data
                                                                      - Explained unresolved              sources rather than to facilitate an
                                                                      reconciling items, and              analysis of the differences at the
                                                                      - Submitted explanations to         transaction level. Secondly, a
                                                                      DFAS-Arlington as required by       policy to provide feedback to the
                                                                      the Quarterly Guidance.             client so that erroneous data
                                                                                                          causing the reconciliation
                                                                      Confirmed, through                  differences could be corrected was
                                                                      corroborative inquiry, that         not in place.
                                                                      DDRS-AFS financial statements
                                                                      were consistent with that of the
                                                                      USSGL as published by the U.S.
                                                                      Treasury.

                          7. Prior to each reporting period or on a   Confirmed, through                  DFAS-Arlington
                          periodic basis, the DDRS-AFS Chart of       corroborative inquiry with          No relevant exceptions noted.
                          Accounts and report maps are updated        DFAS-Arlington management,
                          to reflect changes in the USSGL Chart       that periodic reviews of the
                          of Accounts and financial statement         DDRS Chart of Accounts and
                          crosswalks.                                 report maps are performed.

                                                                      Confirmed, through
                                                                      corroborative inquiry, that prior
                                                                      to each reporting period or on a
                                                                      periodic basis, the USSGL was
                                                                      reviewed for changes applicable
                                                                      to the DDRS-AFS module Chart
                                                                      of Accounts.



                                                          111
CO
      Control Objective              Control Activity                         Test Procedure                      Results of Testing
No.
                          8. Controls ensure that the balances        Inspected the trial balance         DFAS-Arlington
                          represented in the financial statements     import sheet to determine if data   DFAS-Cleveland
                          are based on the current reporting          checks were enabled to allow        DFAS-Indianapolis
                          period.                                     DDRS-AFS to confirm that the        DFAS-Columbus
                                                                      period for which trial balance      DFAS-Denver
                                                                      information was being imported
                                                                      was the current reporting period.   Information contained on the
                                                                                                          Microsoft Excel trial balance
                                                                      Confirmed, through                  import sheets did not indicate the
                                                                      corroborative inquiry, that the     quarterly reporting period that the
                                                                      balances represented in the         uploaded information pertained to.
                                                                      financial statements were based     However, as a mitigating control,
                                                                      on the proper reporting period.     the local unique process to prepare
                                                                                                          balances for import into DDRS-
                                                                                                          AFS contained controls to ensure
                                                                                                          that the balances are being
                                                                                                          imported for the current reporting
                                                                                                          period. Additionally, variation
                                                                                                          analysis would detect an incorrect
                                                                                                          upload that was not related to the
                                                                                                          current period. Thus, the control
                                                                                                          activity and the associated
                                                                                                          mitigating control supported the
                                                                                                          control objective.

                          9. DFAS procedures are implemented to       Inspected database controls to      DFAS-Arlington
                          ensure that the DDRS-AFS module’s           determine whether a database        DFAS-Cleveland
                          database is recalculated automatically or   recalculation was manually
                          manually initiated prior to issuing the     initiated in DDRS-AFS prior to      Although the database
                          financial statements for the current        issuing financial statements in     recalculation was manually
                          reporting period.                           the DDRS-AFS module.                initiated in DDRS-AFS, there were
                                                                                                          no systematic controls to
                                                                      Confirmed, through                  automatically perform the
                                                                      corroborative inquiry, that a       reconciliation prior to producing
                                                                      database recalculation was          financial statements. However, a
                                                                      manually performed prior to         mitigating control was in place
                                                                      issuing the financial statements    because each center periodically
                                                                      for the current reporting period.   performed an entity level

                                                         112
CO
      Control Objective              Control Activity                         Test Procedure                      Results of Testing
No.
                                                                                                          recalculation and the PMO
                                                                                                          periodically performed an agency
                                                                                                          wide level recalculation.

                          10. DDRS-AFS is programmed to               Analyzed DDRS-AFS reports           DFAS-Arlington
                          ensure that trading partner eliminations    and screen shots to determine       DFAS-Cleveland
                          are performed at the appropriate level      whether amounts appearing on        DFAS-Indianapolis
                          (e.g. fund, component or agency wide)       trading partner import sheets       DFAS-Columbus
                          and that balances in the accounts that      were carried to the elimination     DFAS-Denver
                          record trading partner activity are         column of the consolidating
                          properly eliminated.                        Balance Sheet and Statement of      No relevant exceptions noted.
                                                                      Net Cost.

                                                                      Confirmed, through
                                                                      corroborative inquiry, that
                                                                      trading partner eliminations
                                                                      were performed at the
                                                                      appropriate level and that
                                                                      balances in the accounts that
                                                                      record trading partner activity
                                                                      are properly eliminated.

                          11. DDRS-AFS applications controls          Inspected reconciliation reports    Although DFAS Centers
                          are designed to ensure that the ending      that DFAS-Arlington required of     periodically reviewed user access
                          balances for the prior fiscal year become   DFAS centers for FY 04 and FY       roles for appropriateness, some of
                          the beginning balances for the current      05 Q1 to determine whether the      the DFAS Centers had a
                          fiscal year for all real accounts, and      reconciliation between Prior        questionable number of users
                          reporting in subsequent periods does not    Year ending balances and            assigned the HQSA role.
                          affect these balances unless proper         Current Year beginning balances     Specifically:
                          authorization is granted.                   was performed and showed no         - DFAS-Arlington had 13 users
                                                                      differences between ending and      assigned the HQSA role.
                                                                      beginning balances.                 - DFAS-Denver had 10 users
                                                                                                          assigned the HQSA role.
                                                                      Observed that balances for each     - DFAS-Columbus had 17 users
                                                                      quarter were cumulative and did     assigned the HQSA.
                                                                      not affect the beginning balance.
                                                                                                          However, as a mitigating control,
                                                                                                          the Centers periodically review the

                                                         113
CO
      Control Objective   Control Activity                 Test Procedure                       Results of Testing
No.
                                                   Selected financial statement         user access roles to determine if
                                                   account line item balances and       access is appropriate.
                                                   determined that the ending
                                                   balance at FY 04 became the          Out of 162 total SAAR forms
                                                   beginning balance for the next       tested for all DDRS-AFS users,
                                                   year.                                eight related to users of the
                                                                                        DDRS_CFO_BEGINNING_BAL
                                                   Selected a random sample of          role which provides users with this
                                                   DFAS-AFS users to determine if       role the ability to adjust beginning
                                                   System Authorization Access          balances in DDRS-AFS. Of these
                                                   Request (SAAR) forms matched         eight users:
                                                   the access provided.                 - Six users had a SAAR form on
                                                                                        file dated prior to 2004, which did
                                                   Inspected a list of DDRS-AFS         not provide enough detail to
                                                   users assigned the beginning         indicate the user role or DFAS
                                                   balance modification role, and       center to which access should be
                                                   the Headquarters Security            granted.
                                                   Administrator (HQSA) role, to        - One user had a post 2004 SAAR
                                                   determine whether this access        form on file, but the specific role
                                                   was appropriate for their job        did not exist on the SAAR form.
                                                   responsibilities. HQSA is a          - One user had a post 2004 SAAR
                                                   powerful role that, while            form on file, but the specific role
                                                   necessary on a limited basis,        was not indicated on the form.
                                                   does not encompass the
                                                   principles of separation of duties   Out of 162 total SAAR forms
                                                   and least privilege.                 tested for all DDRS-AFS users, 12
                                                                                        related to users of the
                                                   Inspected e-mail traffic to          DDRS_CFO_HQSA role which
                                                   confirm that DFAS Centers            provides users with this role the
                                                   periodically review user access      ability to assign and remove roles
                                                   for appropriateness.                 in DDRS-AFS. Of these 12 users:
                                                                                        - Nine users had a SAAR form on
                                                   Confirmed, through                   file dated prior to 2004, which did
                                                   corroborative inquiry, that the      not provide enough detail to
                                                   ending balances at FY 04             indicate the user role or DFAS
                                                   became the beginning balances        center to which access should be
                                                   for the next year, and that          granted;
                                                   balances could not be altered

                                             114
CO
      Control Objective   Control Activity                 Test Procedure           Results of Testing
No.
                                                   without authorization.   - Two users had a post 2004
                                                                            SAAR form on file, but the
                                                                            DDRS-AFS role granted on the
                                                                            form did not match access
                                                                            provided in DDRS-AFS; and,
                                                                            - One user did not have a SAAR
                                                                            form available.

                                                                            However, DFAS Centers
                                                                            periodically reviewed user access
                                                                            roles but did not determine
                                                                            whether these 12 HQSA users
                                                                            were appropriate.

                                                                            DFAS-Arlington
                                                                            Out of 24 users with the beginning
                                                                            balance modification role, 23 of
                                                                            them did not require this role to
                                                                            perform their job responsibilities.
                                                                            The SAAR form used for DDRS-
                                                                            AFS prior to 2004 did not include
                                                                            specific role categories for which a
                                                                            user had been authorized.

                                                                            DFAS-Denver
                                                                            A systems developer was assigned
                                                                            access to the production
                                                                            environment as a HQSA, which
                                                                            creates segregation of duties risks.
                                                                            The HQSA role can add, change,
                                                                            and delete information.




                                             115
CO
      Control Objective              Control Activity                       Test Procedure                     Results of Testing
No.
                          12. The design of DDRS-AFS in             Recalculated financial statement   DFAS-Cleveland
                          conjunction with manual procedures        line items using the data in the   DFAS-Indianapolis
                          ensures that the FACTS 1 file submitted   FACTS 1 file submitted to          DFAS-Columbus
                          to Treasury is consistent with the        Treasury for FY 04 to determine    DFAS-Denver
                          amounts reported in the financial         whether the file agreed to the
                          statements.                               financial statements.              Management did not sign-off on
                                                                                                       the FACTS 1 file or on the
                                                                    Confirmed, through                 Treasury confirmation of a
                                                                    corroborative inquiry, that the    successful upload as evidence that
                                                                    FY 04 FACTS 1 file submitted       a review was performed before or
                                                                    to Treasury was consistent with    after submission to Treasury.
                                                                    the FY04 financial statements.     Additionally, DDRS-AFS
                                                                                                       produced an incorrect Treasury
                                                                                                       symbol for DoD Working Capital
                                                                                                       Funds and personnel had to
                                                                                                       manually change the text file
                                                                                                       before transmission. At DFAS-
                                                                                                       Denver, however, as a mitigating
                                                                                                       control, personnel ensured that the
                                                                                                       text file balanced before
                                                                                                       transmission to Treasury, and they
                                                                                                       maintained the Treasury
                                                                                                       confirmation of a successful
                                                                                                       upload in their records.




                                                        116
CO
      Control Objective             Control Activity                      Test Procedure                    Results of Testing
No.
                          13. The DDRS-AFS generated               Inspected the series of           DFAS-Arlington
                          Statement of Budgetary Resources is      reconciliation reports that       DFAS-Cleveland
                          reconciled to the Report on Budget       DFAS-Arlington requires of        DFAS-Indianapolis
                          Execution and Budgetary Resources        DFAS centers for FY 04 and FY     DFAS-Columbus
                          (SF-133) to ensure that DDRS-AFS is in   05 Q1 to determine whether the    DFAS-Denver
                          agreement with the budgetary system      reconciliation between
                          which prepares the SF-133 on a monthly   Statement of Budgetary            Although the SF-133 and
                          basis.                                   Resources and Report on Budget    Statement of Budgetary Resources
                                                                   Execution and Budgetary           reconciliation was performed,
                                                                   Resources (SF-133.) was           management did not sign off on
                                                                   performed and differences were    the reconciliation reports
                                                                   explained.                        evidencing a review before they
                                                                                                     were submitted to DFAS-
                                                                   Confirmed, through                Arlington.
                                                                   corroborative inquiry, that the
                                                                   Statement of Budgetary
                                                                   Resources is reconciled to the
                                                                   Report on Budget Execution and
                                                                   Budgetary Resources (SF-133)
                                                                   to ensure that DDRS-AFS is in
                                                                   agreement with the budgetary
                                                                   system, which prepares the
                                                                   SF-133 on a monthly basis.




                                                       117
CO
                Control Objective                           Control Activity                        Test Procedure                      Results of Testing
No.
2     Audit Trails
      Controls provide reasonable                1. DDRS-AFS has the capability to          Used hyperlinks embedded in         DFAS-Cleveland
      assurance that DDRS-AFS produces           allow users to view the components of      the DDRS-AFS final trial            No relevant exceptions noted
      financial statements that are              financial statement line items at the      balance supporting the financial
      supported by audit trails that are         various levels of consolidation – from     statements to view and trace the
      adequate for the financial                 the reporting “entity” level to the        components of line items,
      management entity and external             “program” level where information is       including Journal Voucher
      auditors to trace amounts reported in      originally input.                          adjustments, from the entity
      the financial statement back to trial                                                 level of consolidation back to
      balances and data from feeder                                                         the program level where trial
      systems. Controls provide                                                             balance was originally entered
      reasonable assurance that audit trails                                                either manually or uploaded
      indicate the user inputting the trial                                                 using “import sheets” created in
      balance and the user approving the                                                    Microsoft Excel.
      trial balance. All audit trails indicate
      the user inputting the Journal                                                        Confirmed, through
      Voucher and the user approving the                                                    corroborative inquiry, that
      Journal Voucher. Audit trails are                                                     components of financial
      reviewed on a regular basis for                                                       statement line item amounts may
      appropriateness.                                                                      be viewed at the entity, sub-
                                                                                            entity, program group, and
                                                                                            program level.
                                                 2. Balances entered into DDRS-AFS          Obtained a random sample of         DFAS-Cleveland
                                                 either (1) manually, or (2) imported via   trial balance upload system audit   Although trial balance deletions
                                                 Microsoft Excel import sheets, or (3)      trails to determine whether they    were recorded in the audit log with
                                                 imported from the Data Collection          contained username, date, and       a date, time, and user ID, there was
                                                 Module (DCM) are supported by system       time of uploads into DDRS-          no entry in the log indicating the
                                                 audit trails.                              AFS.                                original deleted trial balance
                                                                                                                                amounts.
                                                                                            Confirmed, through
                                                                                            corroborative inquiry, that
                                                                                            balances entered into DDRS-
                                                                                            AFS (1) manually, or (2)
                                                                                            imported via Microsoft Excel
                                                                                            import sheets, or (3) imported
                                                                                            from the DCM, are supported by
                                                                                            systems audit trails.

                                                                               118
CO
      Control Objective              Control Activity                       Test Procedure                      Results of Testing
No.
                          3. Journal Vouchers entered into DDRS-    Inspected the Journal Voucher       DFAS-Cleveland
                          AFS are supported by audit trails         system audit log in DDRS-AFS        An audit trail was not established
                          indicating (1) the User ID entering the   to determine whether Journal        for Journal Vouchers which were
                          Journal Voucher (2) the User ID           Vouchers were supported by          deleted as a part of the trial
                          approving the journal, and (3) the date   audit trails indicating the User    balance deletion function.
                          and time when the Journal Voucher was     ID entering the Journal Voucher     Additionally, the audit trail for
                          entered and posted.                       and the User ID approving the       cancelled Journal Vouchers did not
                                                                    Journal Voucher, and the dates      display the user who performed the
                                                                    and times of entry and approval.    cancellation, nor the date or reason
                                                                                                        for the cancellation. Lastly, the
                                                                    Confirmed, through                  DDRS Journal Voucher log which
                                                                    corroborative inquiry, that         was exported into Microsoft Excel
                                                                    Journal Vouchers entered in         for analysis did not accurately
                                                                    DDRS-AFS were supported by          display the Journal Voucher
                                                                    audit trails indicating the User    approval identification, although
                                                                    ID entering the Journal Voucher,    the Journal Voucher unique
                                                                    the User ID approving the           identifier control number was
                                                                    Journal Voucher, and the dates      correctly displayed. However, as a
                                                                    and times of entry and approval.    mitigating control, the approval
                                                                                                        identification displayed properly in
                                                                                                        Microsoft Word and Adobe
                                                                                                        Acrobat. Thus, the control
                                                                                                        activities and the associated
                                                                                                        mitigating controls supported the
                                                                                                        control objective.

                          4. Audit trails in DDRS-AFS are           Inspected audit trails at each      DFAS-Cleveland
                          periodically reviewed for                 center to determine whether         DFAS-Columbus
                          appropriateness and unusual activity on   signoffs existed to confirm audit   DFAS-Indianapolis
                          a quarterly basis.                        trails were reviewed.               DFAS-Denver

                                                                    Confirmed, through                  System audit logs are not regularly
                                                                    corroborative inquiry that, audit   reviewed. Secondly, a report
                                                                    trails in DDRS-AFS were             which would facilitate a review of
                                                                    reviewed for appropriateness        the audit log pertaining to footnote
                                                                    and unusual activity on a           uploads was not implemented
                                                                    quarterly basis.                    during the period covered by our
                                                                                                        testwork but was subsequently

                                                        119
CO
               Control Objective                          Control Activity                        Test Procedure                     Results of Testing
No.
                                                                                                                             implemented in March. However,
                                                                                                                             we were unable to confirm that the
                                                                                                                             footnote audit logs were reviewed
                                                                                                                             in the reporting period following
                                                                                                                             their implementation.

                                              5. Deleted trial balances and associated    Inspected trial balance deletion   DFAS-Cleveland
                                              deleted Journal Vouchers are recorded       logs to determine whether          DDRS-AFS did not maintain a
                                              with the User ID, date, and time they       deleted trial balances and         history of the detail of trial balance
                                              were deleted.                               deleted journal entries were       deletions and the associated
                                                                                          recorded with the User ID, date    deleted Journal Vouchers that may
                                                                                          and time deleted.                  have been posted to the trial
                                                                                                                             balance prior to deletion.
                                                                                          Confirmed, through
                                                                                          corroborative inquiry, that all
                                                                                          deleted trial balances and
                                                                                          associated journal entries were
                                                                                          recorded with the User ID, date
                                                                                          and time deleted.

3     Journal Vouchers
      Controls provide reasonable             1. Procedures are in place to ensure that   Selected a random sample of        DFAS-Arlington
      assurance that Journal Vouchers         the Journal Voucher package is              Journal Vouchers to determine      DFAS-Cleveland
      are:                                    reviewed for adequacy and approved          whether they were supported by     DFAS-Indianapolis
      - supported by adequate                 prior to entry into DDRS-AFS.               adequate documentation and,        DFAS-Columbus
      documentation, and approved prior to                                                approved prior to entry into       DFAS-Denver
      entry into a DDRS-AFS table;                                                        DDRS-AFS.
      - processed with the duties of                                                                                         Adherence to the FMR Journal
      preparation and approval being                                                      Confirmed, through                 Voucher approval policy was
      properly segregated; and,                                                           corroborative inquiry, that        inconsistent across the DFAS
      -in balance prior to entry into DDRS.                                               Journal Vouchers were reviewed     centers. DFAS Directors were
                                                                                          for adequate documentation, and    designated by the FMR to approve
                                                                                          approved prior to entry into       Journal Vouchers in excess of one
                                                                                          DDRS-AFS.                          billion dollars. Although Journal
                                                                                                                             Voucher packages were reviewed
                                                                                                                             by management before entry into
                                                                                                                             DDRS-AFS, the FMR requirement

                                                                              120
CO
      Control Objective              Control Activity                        Test Procedure                   Results of Testing
No.
                                                                                                      that Journal Vouchers in excess of
                                                                                                      one billion dollars be specifically
                                                                                                      approved by the Director prior to
                                                                                                      entry was not always adhered to in
                                                                                                      a timely manner.

                                                                                                      C, I, and E categories of Journal
                                                                                                      Vouchers which facilitate
                                                                                                      agreement between the financial
                                                                                                      statements and internal or external
                                                                                                      reports, or to facilitate proper
                                                                                                      trading partner elimination, were
                                                                                                      not supported by a transaction
                                                                                                      level analysis. Thus, the amounts
                                                                                                      appearing in the Journal Voucher
                                                                                                      were mainly differences between
                                                                                                      select line items in the statements
                                                                                                      at the reporting level, or a simple
                                                                                                      adjustment of buyer side data to
                                                                                                      seller-side data without
                                                                                                      reconciliation between both buyer
                                                                                                      and seller data.

                          2. User roles are established to ensure    Selected a random sample of      Although DFAS Centers
                          that Journal Vouchers are approved by      DFAS-AFS users to determine if   periodically reviewed user access
                          an individual other than who is entering   SAAR forms matched the access    roles for appropriateness, some of
                          the Journal Voucher and who has            provided.                        the DFAS Centers had a
                          authority to approve the Journal                                            questionable number of users
                          Voucher and the ability to enter or        Inspected a list of DDRS-AFS     assigned the HQSA role.
                          modify information contained in a          users assigned the Journal       Specifically:
                          Journal Voucher is restricted to           Voucher approver role, and the
                          authorized personnel.                      HQSA role, to determine          - DFAS-Arlington had 13 users
                                                                     whether this access was          assigned the HQSA role.
                                                                     appropriate for their job        - DFAS-Denver had 10 users
                                                                     responsibilities. HQSA is a      assigned the HQSA role.
                                                                     powerful role that, while        - DFAS-Columbus had 17 users
                                                                     necessary on a limited basis,    assigned the HQSA role.
                                                                     does not encompass the

                                                         121
CO
      Control Objective   Control Activity                 Test Procedure                       Results of Testing
No.
                                                   principles of separation of duties   Controls were designed to provide
                                                   and least privileges.                for access to DDRS-AFS on a
                                                                                        center-level basis, instead of by
                                                   Inspected e-mail traffic to          responsible work area. As such,
                                                   confirm that DFAS Centers            the user may have access to
                                                   periodically review user access      information that they don’t
                                                   for appropriateness.                 necessarily need.

                                                   Inspected DDRS-AFS system            Out of 162 total SAAR forms
                                                   audit logs and system controls to    tested for all DDRS-AFS users, 27
                                                   determine whether users could        related to users of the
                                                   approve their own Journal            DDRS_CFO_JV_CREATOR role
                                                   Vouchers.                            which provides users with this role
                                                                                        the ability to create Journal
                                                   Confirmed, through                   Vouchers in DDRS-AFS. Of
                                                   corroborative inquiry, that          these 27 users:
                                                   Journal Vouchers were approved       - Ten users had a SAAR form on
                                                   by an individual other than the      file dated prior to 2004, which did
                                                   individual who entered the           not provide enough detail to
                                                   Journal Voucher.                     indicate the user role or DFAS
                                                   Confirmed, through                   center to which access should be
                                                   corroborative inquiry, that the      granted;
                                                   ability to enter or modify
                                                   information contained in a           - Ten users had a post 2004 SAAR
                                                   Journal Voucher was restricted       form on file, but the specific role
                                                   to authorized personnel.             was not indicated on the form;
                                                                                        - One user had a post 2004 SAAR
                                                                                        form on file, but the DDRS-AFS
                                                                                        role granted on the form did not
                                                                                        match access provided in DDRS-
                                                                                        AFS and,
                                                                                        - Two users were missing one or
                                                                                        more required signatures.

                                                                                        However, DFAS Centers
                                                                                        periodically reviewed user access
                                                                                        roles for appropriateness.


                                             122
CO
      Control Objective   Control Activity         Test Procedure           Results of Testing
No.
                                                                    Out of 162 total SAAR forms
                                                                    tested for all DDRS-AFS users, 19
                                                                    related to users of the
                                                                    DDRS_CFO_JV_APPROVER
                                                                    roles which provide users with
                                                                    these roles the ability to approve
                                                                    Journal Vouchers at different
                                                                    levels in DDRS-AFS. Of these 19
                                                                    users:
                                                                    - Nine users had a SAAR form on
                                                                    file dated prior to 2004, which did
                                                                    not provide enough detail to
                                                                    indicate the user role or DFAS
                                                                    center to which access should be
                                                                    granted;
                                                                    - One user had a post 2004 SAAR
                                                                    form on file, but the specific role
                                                                    did not exist on the SAAR form;
                                                                    - One user had a post 2004 SAAR
                                                                    form on file, but the specific role
                                                                    was not indicated on the form; and,
                                                                    - Two users had a post 2004
                                                                    SAAR form on file, but the
                                                                    DDRS-AFS role granted on the
                                                                    form did not match access
                                                                    provided in DDRS-AFS.

                                                                    However, DFAS Centers
                                                                    periodically reviewed user access
                                                                    roles for appropriateness.

                                                                    Out of 162 total SAAR forms
                                                                    tested for all DDRS-AFS users, 12
                                                                    related to users of the
                                                                    DDRS_CFO_HQSA role which
                                                                    provides users with this role the
                                                                    ability to assign and remove roles
                                                                    in DDRS-AFS. Of these 12 users:

                                             123
CO
      Control Objective   Control Activity         Test Procedure           Results of Testing
No.
                                                                    - Nine users had a SAAR form on
                                                                    file dated prior to 2004, which did
                                                                    not provide enough detail to
                                                                    indicate the user role or DFAS
                                                                    center to which access should be
                                                                    granted.
                                                                    - Two users had a post 2004
                                                                    SAAR form on file, but the
                                                                    DDRS-AFS role granted on the
                                                                    form did not match access
                                                                    provided in DDRS-AFS.
                                                                    - One user did not have a SAAR
                                                                    form available.

                                                                    However, DFAS Centers
                                                                    periodically reviewed user access
                                                                    roles for appropriateness, but did
                                                                    not determine whether these 12
                                                                    HQSA users were appropriate.

                                                                    DFAS-Arlington
                                                                    The DDRS-AFS SAAR form used
                                                                    prior to 2004 did not include
                                                                    specific role categories for which a
                                                                    user had been authorized.

                                                                    DFAS-Denver
                                                                    A systems developer was assigned
                                                                    access to the production
                                                                    environment as a HQSA, which
                                                                    creates segregation of duties risks.

                                                                    At DFAS-Denver, there are two
                                                                    individuals with a high dollar
                                                                    value Journal Voucher approval
                                                                    authority inconsistent with internal
                                                                    guidance provided by the Center.
                                                                    However, as a mitigating control,

                                             124
CO
      Control Objective              Control Activity                        Test Procedure                   Results of Testing
No.
                                                                                                       the Journal Vouchers were
                                                                                                       approved by an appropriate
                                                                                                       individual.



                          3. DDRS-AFS application controls           Observed that an attempt to       DFAS-Cleveland
                          prevent the processing of out-of balance   enter an out-of-balance Journal   No relevant exceptions noted.
                          Journal Vouchers, and notify the user of   Voucher was unsuccessful and
                          the out-of -balance condition with an      resulted in an error message
                          error message.                             being displayed notifying the
                                                                     user of the out-of- balance
                                                                     condition.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that
                                                                     DDRS-AFS will not process
                                                                     out-of-balance Journal
                                                                     Vouchers.

                          4. DDRS-AFS is designed to ensure that     Reviewed Journal Voucher input    DFAS-Cleveland
                          Journal Vouchers entered into DDRS-        process to determine whether      No relevant exceptions noted.
                          AFS are included in the intended           Journal Vouchers can only be
                          reporting period.                          input for the current period.

                                                                     Traced certain Journal Vouchers
                                                                     through DDRS-AFS to
                                                                     determine whether the Journal
                                                                     Vouchers update the financial
                                                                     statements.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that the
                                                                     Journal Vouchers entered into
                                                                     DDRS-AFS were included in the
                                                                     intended reporting period.



                                                        125
CO
      Control Objective              Control Activity                         Test Procedure                       Results of Testing
No.
                          5. DDRS-AFS is designed so that             Selected a random sample of          DFAS-Arlington
                          Journal Vouchers, entered into DDRS-        Journal Vouchers entered into        Two out of forty-five Journal
                          AFS, update all applicable general          DDRS-AFS to determine                Vouchers selected could not be
                          ledger account balances (i.e., budgetary,   whether they updated applicable      traced to the correct trial balance
                          proprietary and memorandum accounts)        general ledger account balances      and USSGL account because,
                          and are included in the final trial         and were included in the final       according to the DFAS-Arlington
                          balance numbers.                            trial balance numbers.               PMO, the server responsible for
                                                                                                           generating the view of the trial
                                                                                                           balance and voucher being tested
                                                                                                           was not functioning properly and
                                                                                                           was not repaired before our testing
                                                                                                           concluded.

                          6. DDRS-AFS PMO enables a lock-out          Inspected the system audit log       DFAS-Arlington
                          mechanism to ensure that no                 indicating the lockout occurred      No relevant exceptions noted.
                          adjustments are made to the trial balance   and observed that the lockout
                          subsequent to the submission of the         mechanism was enabled prior to
                          financial statements to OMB.                the release of the statements to
                                                                      OMB, and that the mechanism
                                                                      was effective in preventing
                                                                      additional adjustments to the
                                                                      financial statements.

                                                                      Confirmed, through
                                                                      corroborative inquiry, that the
                                                                      DDRS-AFS PMO enables a
                                                                      lock-out mechanism to ensure
                                                                      that no adjustments were made
                                                                      to the trial balance subsequent to
                                                                      the submission of the financial
                                                                      statements to OMB.




                                                         126
CO
      Control Objective              Control Activity                        Test Procedure                      Results of Testing
No.
                          7. DDRS-AFS assigns control numbers        Inspected the Journal Voucher        DFAS-Cleveland
                          in sequence to uniquely identify Journal   log to determine whether it was      Inspection of the Journal Voucher
                          Vouchers, and produces a sequentially      sequentially ordered and, if         log showed that some numbers
                          ordered Journal Voucher log which can      breaks in the sequence of control    were missing from the sequence of
                          be used to identify missing vouchers and   numbers existed, whether they        Journal Voucher numbers as a
                          facilitate research.                       were explained.                      result of a trial balance and
                                                                                                          associated Journal Vouchers being
                                                                     Confirmed, through                   deleted. Additionally, the log did
                                                                     corroborative inquiry, that          not accurately display a Journal
                                                                     missing Journal Voucher entries      Voucher identification number due
                                                                     are identified by inspecting the     to a programming error when
                                                                     sequence of control numbers          exported into Microsoft Excel.
                                                                     assigned to Journal Vouchers by
                                                                     DDRS-AFS.

                          8. Controls ensure that one-sided          Observed processing in DDRS-         DFAS-Cleveland
                          Budgetary and one-sided Proprietary        AFS to determine whether one-        No relevant exceptions noted.
                          transactions cannot occur.                 sided Budgetary and one-sided
                                                                     Proprietary transactions resulted
                                                                     in an error message and that
                                                                     processing cannot continue.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that debits
                                                                     equal credits for the Proprietary
                                                                     and Budgetary accounts being
                                                                     posted.




                                                        127
CO
               Control Objective                          Control Activity                       Test Procedure                      Results of Testing
No.
4     Trading Partners
      Controls are in place to ensure that     1. Seller initiated trading partner       Obtained a random sample             DFAS-Cleveland
      trading partner data are supported by    eliminations are automatically e-mailed   notification e-mail from DDRS-       No relevant exceptions noted.
      adequate documentation or valid          by DDRS-AFS or otherwise provided         AFS displaying trading partner
      estimating methodology.                  the buyer and confirmed for               notification.
      Controls provide reasonable              appropriateness.
      assurance that DDRS-AFS has                                                        Confirmed, through
      systems or processes for determining                                               corroborative inquiry, that seller
      the quality and integrity of data                                                  initiated trading partner
      flowing through the system, and                                                    eliminations were automatically
      trading partners are input and updated                                             e-mailed to the customer and
      completely and accurately. Reports                                                 approved for elimination
      can identify the impact of trading                                                 amounts.
      partners on statement presentation.

                                               2. DDRS-AFS ensures that trading          Observed system controls to          DFAS-Cleveland
                                               partner data input is subject to data     determine whether only valid         DFAS-Indianapolis
                                               checks to ensure that invalid             accounts updated DDRS-AFS            DFAS-Columbus
                                               information (erroneous USSGL              tables.                              DFAS-Denver
                                               Attribute combinations or erroneous                                            No relevant exceptions noted.
                                               trading partner identifier) was not       Confirmed, through
                                               allowed to process.                       corroborative inquiry, that
                                                                                         DDRS-AFS trading partner data
                                                                                         input was subject to data checks
                                                                                         to ensure that invalid
                                                                                         information (erroneous USSGL
                                                                                         Attribute combinations or
                                                                                         erroneous trading partner
                                                                                         identifier) was not allowed to
                                                                                         process.

                                               3. DFAS-Arlington PMO enables the         Inspected the system audit log       DFAS-Arlington
                                               DDRS-AFS “Lock-out” mechanism to          indicating the lockout               No relevant exceptions noted.
                                               ensure that trading partner information   mechanism occurred and to
                                               is not changed once the financial         determine whether entries could
                                               statements are finalized.                 be made once the mechanism
                                                                                         was enabled.

                                                                              128
CO
      Control Objective              Control Activity                      Test Procedure                     Results of Testing
No.
                                                                   Confirmed, through
                                                                   corroborative inquiry, that a
                                                                   mechanism existed to ensure
                                                                   that trading partner information
                                                                   could be locked down to prevent
                                                                   changes once the financial
                                                                   statements were finalized.

                          4. Significant policies and procedures   Inspected policies and             DFAS-Arlington
                          are documented.                          procedures to determine whether    Review of the FMR and DFAS
                                                                   significant policies and           policies disclosed that the process
                                                                   procedures were documented.        of relying on seller-side data did
                                                                                                      not include a control for
                                                                   Confirmed, through                 reconciling differences between
                                                                   corroborative inquiry, that        seller and buyer data. Thus, the
                                                                   significant policies and           adjustments to buyer side accounts
                                                                   procedures were documented.        may not be auditable and material
                                                                                                      amounts of such adjustments could
                                                                                                      impact on the result of a financial
                                                                                                      statement audit.




                                                         129
CO
               Control Objective                          Control Activity                       Test Procedure                      Results of Testing
No.
5     Validation
      Controls provide reasonable              1. Control totals over data entered       Observed trial balance entry to      DFAS-Cleveland
      assurance that DDRS-AFS has              directly into DDRS-AFS ensure the trial   determine whether control totals     No relevant exceptions noted.
      systems or processes for determining     balance or journal entry is in balance    over data entered directly into
      the quality and integrity of data        prior to updating DDRS-AFS.               DDRS-AFS ensured the trial
      flowing through the system, and trial                                              balance or journal entry was in
      balances are input and updated                                                     balance prior to updating
      completely and accurately. Controls                                                DDRS-AFS.
      provide reasonable assurance that
      data validation and editing are                                                    Confirmed, through
      performed to identify erroneous data,                                              corroborative inquiry, that
      and that erroneous data are captured,                                              control totals over data entered
      reported, investigated, and corrected.                                             directly into DDRS-AFS
                                                                                         ensured the trial balance or
                                                                                         journal entry was in balance
                                                                                         prior to updating DDRS-AFS.

                                               2. Control totals over data imported      Observed the trial balance data      DFAS-Cleveland
                                               from an Excel sheet to text file into     import process to determine          No relevant exceptions noted.
                                               DDRS-AFS ensure the trial balance is in   whether control totals in the
                                               balance prior to updating DDRS-AFS.       import sheets ensured that the
                                                                                         trial balance was in balance prior
                                                                                         to updating DDRS-AFS.

                                                                                         Confirmed, through
                                                                                         corroborative inquiry, that
                                                                                         control totals over data imported
                                                                                         from an Excel sheet to text file
                                                                                         into DDRS-AFS ensured the
                                                                                         trial balance was in balance prior
                                                                                         to updating DDRS-AFS.

                                               3. Validation ensures abnormal balances   Inspected reports to determine       DFAS-Cleveland
                                               are flagged for review at the line item   whether non-traditional debit        DFAS-Indianapolis
                                               level.                                    and credit accounts were flagged     DFAS-Columbus
                                                                                         for review.                          DFAS-Denver


                                                                             130
CO
      Control Objective             Control Activity                      Test Procedure                      Results of Testing
No.
                                                                                                      No relevant exceptions noted.
                                                                  Inspected the customer’s
                                                                  concurrence that abnormal
                                                                  balances (if any) had been
                                                                  identified and disclosed in the
                                                                  footnotes by verifying that the
                                                                  customer provided a “yes”
                                                                  response to the Standard
                                                                  Guidance Checklist item
                                                                  pertaining to abnormal balances.

                                                                  Confirmed, through
                                                                  corroborative inquiry, that
                                                                  validation ensured non-
                                                                  traditional debit and credit
                                                                  accounts were flagged for
                                                                  review.

                          4. Subsequent to importing trial        Selected a random sample of         DFAS-Cleveland
                          balances, Journal Vouchers changes or   Journal Vouchers to determine       DFAS-Indianapolis
                          adjustments to trial balances are       that any Journal Vouchers           DFAS-Columbus
                          reviewed and approved by management     changes or adjustments to trial     DFAS-Denver
                          prior to report generation.             balances were reviewed and
                                                                  approved by management prior        Adherence to the FMR Journal
                                                                  to report generation.               Voucher approval policy was
                                                                                                      inconsistent across DFAS centers.
                                                                  Obtained a random sample of         Trial balance corrections entered
                                                                  trial balance upload system audit   into DDRS-AFS did not always
                                                                  trails to determine whether trial   require approval prior to posting,
                                                                  balance uploads contain an          the ability to post Journal
                                                                  approval.                           Vouchers was delegated to several
                                                                                                      staff accountants, and DFAS
                                                                  Confirmed, through                  Directors did not always approve
                                                                  corroborative inquiry, that         Journal Vouchers in excess of one
                                                                  subsequent to trial balance         billion dollars prior to posting.
                                                                  import any Journal Vouchers         DFAS Directors were designated
                                                                  changes or adjustments to trial     by the FMR to approve Journal
                                                                  balances were reviewed and          Vouchers in excess of one billion

                                                       131
CO
      Control Objective              Control Activity                        Test Procedure                       Results of Testing
No.
                                                                     approved by management prior         dollars. Although Journal Voucher
                                                                     to report generation.                packages were reviewed by
                                                                                                          management before entry into
                                                                                                          DDRS-AFS, the FMR requirement
                                                                                                          that Journal Vouchers in excess of
                                                                                                          one billion dollars be specifically
                                                                                                          approved by the Director prior to
                                                                                                          entry was not always adhered to in
                                                                                                          a timely manner.

                          5. Variance analysis is performed to       Confirmed, through observation,      DFAS-Cleveland
                          explain fluctuations between the current   that variation analyses were         DFAS-Indianapolis
                          year and prior year amounts reported on    performed, and disclosure was        DFAS-Columbus
                          the financial statements.                  made of the causes of variations     DFAS-Denver
                                                                     greater than 10% from the
                                                                     previous year.                       No relevant exceptions noted.

                                                                     Obtained variance analyses
                                                                     performed by DFAS personnel
                                                                     and confirmed that variances
                                                                     were explained and disclosed
                                                                     according to the FMR.
                                                                     Obtained the Standard Guidance
                                                                     Checklist and noted the
                                                                     customer’s response to the
                                                                     associated checklist item on
                                                                     variance analysis.

                          6. Standard programmed algorithms          Recalculated the FY 04 DoD           DFAS-Cleveland
                          perform significant financial statement    consolidated financial               No relevant exceptions noted
                          calculations.                              statements subtotals and totals to
                                                                     determine whether line item
                                                                     amounts accurately sum to their
                                                                     respective subtotals and totals,
                                                                     and that consolidating
                                                                     statements summed to DoD-
                                                                     wide consolidated statements.


                                                         132
CO
      Control Objective              Control Activity                       Test Procedure                      Results of Testing
No.
                                                                    Confirmed, through
                                                                    corroborative inquiry, that
                                                                    standard programmed
                                                                    algorithms performed significant
                                                                    trial balance calculations.

                          7. Journal vouchers are automatically     Inspected a listing of Journal      DFAS-Cleveland
                          assigned a unique sequence number to      Voucher transaction IDs (control    The Journal Vouchers were
                          facilitate their identification in the    numbers) to determine whether       observed to be sequentially
                          DDRS-AFS.                                 they were assigned a unique         numbered; however, there were
                                                                    sequence number.                    missing numbers in the series as a
                                                                                                        result of trial balance and
                                                                    Confirmed, through                  associated Journal Voucher
                                                                    corroborative inquiry, that         deletions which were not
                                                                    transactions were automatically     maintained in the history file.
                                                                    assigned a unique sequence          Additionally, the DDRS-AFS
                                                                    number                              Journal Voucher log which was
                                                                                                        exported into Microsoft Excel for
                                                                                                        analysis did not accurately display
                                                                                                        the Journal Voucher approval
                                                                                                        identification, although the Journal
                                                                                                        Voucher unique identifier control
                                                                                                        number was correctly displayed.
                                                                                                        However, as a mitigating control,
                                                                                                        the approval identification
                                                                                                        displayed properly in Microsoft
                                                                                                        Word and Adobe Acrobat. Thus,
                                                                                                        the control activities and the
                                                                                                        associated mitigating controls
                                                                                                        supported the control objective.

                          8. The Microsoft Excel spreadsheets       Inspected Microsoft Excel           DFAS-Cleveland
                          provided to reporting activities to use   import sheets provided to           DFAS-Columbus
                          for importing trial balances into DDRS-   reporting activities to determine
                          AFS contain preprogrammed fields and      whether the spreadsheets            No relevant exceptions noted.
                          totals to ensure data validation.         contained preprogrammed fields
                                                                    and totals to ensure data
                                                                    validation.

                                                        133
CO
      Control Objective               Control Activity                       Test Procedure                      Results of Testing
No.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that the
                                                                     Excel spreadsheets provided to
                                                                     reporting activities contained
                                                                     preprogrammed fields and totals
                                                                     to ensure data validation.

                          9. Trial balances and trading partner      Traced trial balance account        DFAS-Cleveland
                          elimination entries imported into          balances from the trading           DFAS-Indianapolis
                          DDRS-AFS using Microsoft Excel files       partner import sheet to the         DFAS-Columbus
                          in CSV format update the proper            DDRS-AFS trial balance.             DFAS-Denver
                          accounts and tables.
                                                                     Selected a random sample of         No relevant exceptions noted.
                                                                     trial balances imported into
                                                                     DDRS-AFS using a Microsoft
                                                                     Excel spreadsheet to determine
                                                                     whether the balance imported
                                                                     matched the resulting trial
                                                                     balance appearing in DDRS-
                                                                     AFS.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that files
                                                                     imported in CSV format were
                                                                     imported into the proper
                                                                     accounts and tables.

                          10. Reconciliations are performed to       Confirmed, through observation,     DFAS-Cleveland
                          determine the reliability of data in the   that the DFAS centers:              DFAS-Indianapolis
                          system and reconciling differences are     - prepared the reconciliation       DFAS-Columbus
                          identified and resolved.                   reports as required by DFAS-        DFAS-Denver
                                                                     Arlington to ensure that
                                                                     financial statements are            The reconciliation process was
                                                                     consistent and that the proper      used primarily to force agreement
                                                                     budgetary and proprietary           between statements. A process to
                                                                     relationships are established;      provide feedback to the client was
                                                                     - explained unresolved              not in place to clear differences.

                                                          134
CO
                Control Objective                          Control Activity                        Test Procedure                       Results of Testing
No.
                                                                                           reconciling items; and
                                                                                           - submitted explanations to
                                                                                           DFAS-Arlington as required by
                                                                                           the Quarterly Guidance.

6     Authorized Trial Balance Entry
      Controls provide reasonable               1. Trial balance import sheets are input   Selected a random sample of          Controls were designed to provide
      assurance that data transmissions         by authorized personnel.                   DFAS-AFS users to determine if       for access to DDRS-AFS on a
      between DDRS-AFS and user                                                            SAAR forms matched the access        center-level basis, instead of by
      organizations are authorized,                                                        provided.                            responsible work area. As such,
      complete, accurate, and secure.                                                                                           the user may have access to
                                                                                           Inspected a list of DDRS-AFS         information that they don’t
      Unbalanced trial balances are flagged                                                users assigned the data              necessarily need.
      and not reported until in balance.                                                   administrator role, and the
                                                                                           HQSA role, to determine              Out of 162 total SAAR forms
      Controls provide reasonable                                                          whether this access was              tested for all DDRS-AFS users,
      assurance that application users are                                                 appropriate for their job            five related to users of the
      appropriately identified and                                                         responsibilities. HQSA is a          DDRS_CFO_DATA_ADMIN role
      authenticated, and that access to the                                                powerful role that, while            which provides users with this role
      application and output is restricted to                                              necessary on a limited basis,        the ability to import and edit trial
      authorized users for authorized                                                      does not encompass the               balances in DDRS-AFS. Of these
      purposes.                                                                            principles of separation of duties   five users:
                                                                                           and least privileges.                - One user had a SAAR form on
      Controls provide reasonable                                                                                               file dated prior to 2004, which did
      assurance that trial balance input is                                                Inspected e-mail traffic to          not provide enough detail to
      accurate and recorded in the proper                                                  confirm that DFAS Centers            indicate the user role or DFAS
      period.                                                                              periodically review user access      center to which access should be
                                                                                           for appropriateness.                 granted.
                                                                                                                                - Two users had a post 2004
                                                                                           Confirmed, through                   SAAR form on file, but the
                                                                                           corroborative inquiry, that trial    DDRS-AFS role granted on the
                                                                                           balance import sheets were input     form did not match access
                                                                                           by authorized personnel.             provided in DDRS-AFS.

                                                                                                                                However, DFAS Centers
                                                                                                                                periodically reviewed user access
                                                                                                                                roles for appropriateness.

                                                                               135
CO
      Control Objective   Control Activity         Test Procedure           Results of Testing
No.
                                                                    Out of 162 total SAAR forms
                                                                    tested for all DDRS-AFS users, 12
                                                                    related to users of the
                                                                    DDRS_CFO_HQSA role which
                                                                    provides users with this role the
                                                                    ability to assign and remove roles
                                                                    in DDRS-AFS. Of these 12 users:
                                                                    - Nine users had a SAAR form on
                                                                    file dated prior to 2004, which did
                                                                    not provide enough detail to
                                                                    indicate the user role or DFAS
                                                                    center to which access should be
                                                                    granted.
                                                                    - Two users had a post 2004
                                                                    SAAR form on file, but the
                                                                    DDRS-AFS role granted on the
                                                                    form did not match access
                                                                    provided in DDRS-AFS.
                                                                    - One user did not have a SAAR
                                                                    form available.

                                                                    However, DFAS Centers
                                                                    periodically reviewed user access
                                                                    roles for appropriateness, but did
                                                                    not determine whether these 12
                                                                    HQSA users were appropriate.

                                                                    Although DFAS Centers
                                                                    periodically reviewed user access
                                                                    roles for appropriateness, some of
                                                                    the DFAS Centers had a
                                                                    questionable number of users
                                                                    assigned the HQSA role.
                                                                    Specifically:
                                                                    - DFAS-Arlington had 13 users
                                                                    assigned the HQSA role.
                                                                    - DFAS-Denver had 10 users
                                                                    assigned the HQSA role.

                                             136
CO
      Control Objective   Control Activity         Test Procedure           Results of Testing
No.
                                                                    - DFAS-Columbus had 17 users
                                                                    assigned the HQSA role.

                                                                    DFAS-Arlington
                                                                    The DDRS-AFS SAAR form used
                                                                    prior to 2004 did not include
                                                                    specific role categories for which a
                                                                    user had been authorized.

                                                                    DFAS-Cleveland
                                                                    The import sheets uploaded into
                                                                    DDRS did not require approval
                                                                    prior to posting.

                                                                    The trial uploads and balance
                                                                    adjustments entered into DDRS-
                                                                    AFS did not require approval prior
                                                                    to posting.

                                                                    DFAS-Denver
                                                                    A systems developer in Cleveland
                                                                    was assigned access to the
                                                                    production environment as a
                                                                    HQSA, which creates segregation
                                                                    of duties risks.




                                             137
CO
      Control Objective              Control Activity                        Test Procedure                     Results of Testing
No.
                          2. Microsoft Excel trial balance import    Randomly sampled Microsoft          DFAS-Cleveland
                          sheets received by reporting activities    Excel trial balances at 2004        No relevant exceptions noted.
                          are complete and in balance.               FYE and at 2005 1QE to
                                                                     determine whether Microsoft
                                                                     Excel trial balance import
                                                                     sheets, budgetary import sheets,
                                                                     and trading partner import sheet
                                                                     transmissions received by
                                                                     reporting activities were
                                                                     complete and in balance.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that
                                                                     Microsoft Excel trial balance
                                                                     import sheets, budgetary import
                                                                     sheets, and trading partner
                                                                     import sheet transmissions
                                                                     received by reporting activities
                                                                     were complete and in balance.

                          3. DDRS-AFS design establishes             Inspected system roles to           DFAS-Cleveland
                          separate roles for Trial Balance import,   determine if Trial Balance          Trial Balance approval roles were
                          Trial Balance validation, and Trial        Import, Trial Balance               not established in DDRS-AFS.
                          Balance reconciliation.                    Validation, and Trial Balance
                                                                     Reconciliation were defined as
                                                                     separate roles in DDRS-AFS.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that the
                                                                     system had separate roles
                                                                     identified for Trial Balance
                                                                     import, Trial Balance validation
                                                                     and Trial Balance reconciliation.
                          4. Direct trial balance entries into       Selected a random sample of         Controls were designed to provide
                          DDRS-AFS or edits to the trial balance     DFAS-AFS users to determine if      for access to DDRS-AFS on a
                          are performed by the appropriate           SAAR forms matched the access       center-level basis, instead of by
                          reporting activities and are from          provided.                           responsible work area. As such,
                          authorized personnel at the activity.                                          the user may have access to

                                                         138
CO
      Control Objective   Control Activity                 Test Procedure                       Results of Testing
No.
                                                   Inspected a list of DDRS-AFS         information that they don’t
                                                   users assigned the Journal           necessarily need.
                                                   Voucher approver role and the
                                                   HQSA role to determine               Out of 162 total SAAR forms
                                                   whether this access was              tested for all DDRS-AFS users,
                                                   appropriate for their job            five related to users of the
                                                   responsibilities. HQSA is a          DDRS_CFO_DATA_ADMIN role
                                                   powerful role that, while            which provides users with this role
                                                   necessary on a limited basis,        the ability to import and edit trial
                                                   does not encompass the               balances in DDRS-AFS. Of these
                                                   principles of separation of duties   five users:
                                                   and least privileges.                - One user had a SAAR form on
                                                                                        file dated prior to 2004, which did
                                                   Inspected e-mail traffic to          not provide enough detail to
                                                   confirm that DFAS Centers            indicate the user role or DFAS
                                                   periodically review user access      center to which access should be
                                                   for appropriateness.                 granted:
                                                                                        - Two users had a post 2004
                                                                                        SAAR form on file, but the
                                                   Confirmed users with ability to      DDRS-AFS role granted on the
                                                   upload trial balances by             form did not match access
                                                   obtaining the SAAR form and          provided in DDRS-AFS.
                                                   confirming that the user was
                                                   authorized to upload balances.       However, DFAS Centers
                                                                                        periodically reviewed user access
                                                   Confirmed, through                   roles for appropriateness
                                                   corroborative inquiry, that direct
                                                   trial balance entries into DDRS-     Out of 162 total SAAR forms
                                                   AFS or edits to the trial balance    tested for all DDRS-AFS users, 12
                                                   were performed by the                related to users of the
                                                   appropriate reporting activities     DDRS_CFO_HQSA role which
                                                   and were from authorized             provides users with this role the
                                                   personnel at the activity.           ability to assign and remove roles
                                                                                        in DDRS-AFS. Of these 12 users:
                                                                                        - Nine users had a SAAR form on
                                                                                        file dated prior to 2004, which did
                                                                                        not provide enough detail to
                                                                                        indicate the user role or DFAS

                                             139
CO
      Control Objective   Control Activity         Test Procedure           Results of Testing
No.
                                                                    center to which access should be
                                                                    granted.
                                                                    - Two users had a post 2004
                                                                    SAAR form on file, but the
                                                                    DDRS-AFS role granted on the
                                                                    form did not match access
                                                                    provided in DDRS-AFS.
                                                                    - One user did not have a SAAR
                                                                    form available.

                                                                    However, DFAS Centers
                                                                    periodically reviewed user access
                                                                    roles for appropriateness, but did
                                                                    not determine whether these 12
                                                                    HQSA users were appropriate.

                                                                    Although DFAS Centers
                                                                    periodically reviewed user access
                                                                    roles for appropriateness, some of
                                                                    the DFAS Centers had a
                                                                    questionable number of users
                                                                    assigned the HQSA role.
                                                                    Specifically:
                                                                    - DFAS-Arlington had 13 users
                                                                    assigned the HQSA role.
                                                                    - DFAS-Denver had 10 users
                                                                    assigned the HQSA role.
                                                                    - DFAS-Columbus had 17 users
                                                                    assigned the HQSA role.

                                                                    DFAS-Arlington
                                                                    The DDRS-AFS SAAR form used
                                                                    prior to 2004 did not include
                                                                    specific role categories for which a
                                                                    user had been authorized.

                                                                    DFAS-Cleveland
                                                                    The import sheets uploaded into

                                             140
CO
      Control Objective              Control Activity                        Test Procedure                      Results of Testing
No.
                                                                                                          DDRS-AFS did not require
                                                                                                          approval prior to posting.

                                                                                                          The trial uploads and balance
                                                                                                          adjustments entered into DDRS-
                                                                                                          AFS do not require approval prior
                                                                                                          to posting.

                                                                                                          DFAS-Denver
                                                                                                          A systems developer in Cleveland
                                                                                                          was assigned access to the
                                                                                                          production environment as a
                                                                                                          HQSA, which creates segregation
                                                                                                          of duties risks.

                          5. DDRS-AFS application controls           Observed trial balance entry to      DFAS-Cleveland
                          ensure that direct trial balance entries   determine whether control totals     No relevant exceptions noted
                          into DDRS-AFS and edits to the trial       over data entered directly into
                          balance are in balance prior to updating   DDRS-AFS ensured the trial
                          the reporting tables.                      balance was in balance prior to
                                                                     updating DDRS.

                                                                     Randomly sampled Microsoft
                                                                     Excel trial balances at 2004 FYE
                                                                     and Q1 2005 to determine
                                                                     whether direct trial balance
                                                                     entries into DDRS-AFS, and
                                                                     edits to the trial balance, were
                                                                     complete and in balance prior to
                                                                     updating the DDRS-AFS
                                                                     reporting tables.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that direct
                                                                     trial balance entries into DDRS-
                                                                     AFS, and edits to the trial



                                                         141
CO
      Control Objective               Control Activity                         Test Procedure                       Results of Testing
No.
                                                                       balance, were complete and in
                                                                       balance prior to updating the
                                                                       DDRS-AFS reporting tables.

                          6. The entry and approval functions          Inspected a list of DDRS-AFS         DFAS-Arlington
                          pertaining to the direct entering of trial   users assigned the Data              DFAS-Cleveland
                          balances or editing of trial balances are    Administrator role, and the          DFAS-Indianapolis
                          properly segregated between the              HQSA role, to determine              DFAS-Columbus
                          individual entering the data and the         whether this access was              DFAS-Denver
                          individual approving the data.               appropriate for their job
                                                                       responsibilities. HQSA is a          Users were assigned roles based on
                                                                       powerful role that, while            each DFAS center’s reporting
                                                                       necessary on a limited basis,        activities which may provide them
                                                                       does not encompass the               with access to multiple entity
                                                                       principles of separation of duties   codes that they may not
                                                                       and least privileges.                necessarily need. Also, trial
                                                                                                            balance corrections or adjustments,
                                                                       Obtained a random sample of          which can only be made by re-
                                                                       trial balance upload system audit    importing the trial balance, did not
                                                                       trails to determine whether trial    require approval.
                                                                       balance uploads contain an
                                                                       approval.

                                                                       Confirmed, through
                                                                       corroborative inquiry, that direct
                                                                       trial balance entries into DDRS-
                                                                       AFS or edits to the trial balance
                                                                       were approved by an individual
                                                                       other than who entered the
                                                                       balance prior to updating the
                                                                       DDRS-AFS reporting tables.

                          7. DDRS-AFS maintains a closing date         Inspected the system audit log       DFAS-Arlington
                          for the trial balance entry function to      indicating the lockout occurred      No relevant exceptions noted.
                          ensure Journal Voucher or trial balance      and observed that the lockout
                          adjustments are not made to the trial        mechanism was enabled prior to
                          balance subsequent to external               the release of the statements to
                          reporting.                                   OMB, and that the mechanism

                                                           142
CO
      Control Objective              Control Activity                         Test Procedure                      Results of Testing
No.
                                                                      was effective in preventing
                                                                      additional adjustments to the
                                                                      financial statements.

                                                                      Confirmed, through
                                                                      corroborative inquiry, that a
                                                                      closing date maintained for the
                                                                      trial balance entry function
                                                                      ensures that Journal Vouchers or
                                                                      trial balance adjustments are not
                                                                      made to the trial balance
                                                                      subsequent to external reporting.

                          8. Controls ensure that the trial balance   Inspected the trial balance         DFAS-Cleveland
                          entered into DDRS-AFS is based on the       import sheet to determine if data   Information contained on the
                          current reporting period.                   checks were enabled to allow        Microsoft Excel trial balance
                                                                      DDRS-AFS to confirm that the        import sheets did not indicate the
                                                                      period for which trial balance      quarterly reporting period that the
                                                                      information was being imported      uploaded information pertained to.
                                                                      was the current reporting period.   However, as a mitigating control,
                                                                                                          the local unique process to prepare
                                                                      Confirmed, through                  balances for import into DDRS-
                                                                      corroborative inquiry, that the     AFS contained controls to ensure
                                                                      trial balance entered into DDRS-    that the balances are being
                                                                      AFS was based on the intended       imported for the current reporting
                                                                      reporting period.                   period. Additionally, as a
                                                                                                          mitigating control, reconciliations
                                                                                                          would detect an incorrect upload
                                                                                                          that was not related to the current
                                                                                                          period. Thus, the control activity
                                                                                                          and the associated mitigating
                                                                                                          control supported the control
                                                                                                          objective.




                                                         143
CO
      Control Objective              Control Activity                        Test Procedure                      Results of Testing
No.
                          9. Trial balance and adjustment numbers    Randomly sampled Microsoft           DFAS-Cleveland
                          for the reporting period are sent to the   Excel trial balances at 2004 FYE     DFAS-Indianapolis
                          reporting activity for review of           and at Q1 2005 to determine          DFAS-Columbus
                          appropriateness and authorization.         whether trial balance and            DFAS-Denver
                                                                     adjustment numbers for the
                                                                     reporting period were sent to the    No relevant exceptions noted.
                                                                     reporting activity for review of
                                                                     appropriateness and
                                                                     authorization.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that trial
                                                                     balance and adjustment numbers
                                                                     for the reporting period were
                                                                     sent to the reporting activity for
                                                                     review of appropriateness and
                                                                     authorization.
                          10. Significant policies and procedures    Inspected policies and               DFAS-Cleveland
                          are documented.                            procedures to determine whether      No relevant exceptions noted.
                                                                     significant policies and
                                                                     procedures were documented.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that
                                                                     significant policies and
                                                                     procedures were documented.




                                                         144
CO
               Control Objective                          Control Activity                       Test Procedure                    Results of Testing
No.
7     USSGL Account Maintenance
      Controls provide reasonable              1. Reporting and account reference        Inspected the DDRS-AFS             DFAS-Arlington
      assurance that only valid and accurate   tables are periodically reviewed for      USSGL change request log and       No relevant exceptions noted.
      changes are made to the DDRS-AFS         accuracy and ongoing pertinence.          DDRS-AFS USSGL system
      Reference Tables, Department                                                       change log to determine whether
      Reporting Tables and other critical                                                tables were periodically
      system components; these changes                                                   reviewed for accuracy and
      are input and processed timely.                                                    ongoing pertinence.
      Controls provide reasonable
      assurance that new accounting line                                                 Confirmed, through
      items are promptly added to the                                                    corroborative inquiry, that
      reference tables and obsolete accounts                                             reporting and account reference
      are promptly removed, and only valid                                               tables were periodically
      accounts are added to the reference                                                reviewed for accuracy and
      table.                                                                             ongoing pertinence.

                                               2. Requests to change the reporting and   Inspected change requests to       DFAS-Arlington
                                               account reference table data in DDRS-     determine whether requests to      No relevant exceptions noted.
                                               AFS are documented in a USSGL             change the reporting and
                                               change log and the log is reviewed to     account reference table data
                                               ensure that all requested changes are     were logged; also, inspected
                                               processed timely.                         USSGL change log to determine
                                                                                         timeliness of changes.

                                                                                         Confirmed, through
                                                                                         corroborative inquiry, that
                                                                                         requests to change the reporting
                                                                                         and account reference table data
                                                                                         were logged; the log was
                                                                                         reviewed to ensure that all
                                                                                         requested changes were
                                                                                         processed timely.




                                                                              145
CO
      Control Objective              Control Activity                      Test Procedure                       Results of Testing
No.
                          3. Changes to DDRS-AFS reporting and     Inspected change requests to         DFAS-Arlington
                          account reference tables are compared    determine whether changes to         DFAS-Cleveland
                          to the authorized USSGL change           the reporting and account
                          request originated by DFAS-Arlington     reference tables were compared       Changes documented in the
                          accounting to ensure that they were      to authorized USSGL change           USSGL change log were not
                          input accurately by the DFAS-Arlington   requests to ensure that they were    reviewed and approved to
                          PMO.                                     input accurately.                    determine if they were accurately
                                                                                                        entered. Also, changes were found
                                                                   Confirmed, through                   to occasionally be made during
                                                                   corroborative inquiry, that          production hours. However, some
                                                                   changes to the reporting and         compensating controls existed.
                                                                   account reference tables were        For instance, errors in the report
                                                                   compared to authorized USSGL         mapping were identified and
                                                                   change requests to ensure that       investigated as a part of the
                                                                   they were input accurately.          reporting process. Additionally,
                                                                                                        periodic USSGL reviews were
                                                                                                        performed to determine if they
                                                                                                        were consistent with the U.S.
                                                                                                        Treasury USSGL.

                          4. The ability to view, modify, or       Selected a random sample of          Out of 162 total SAAR forms
                          transfer information contained in        DFAS-AFS users to determine if       tested for all DDRS-AFS users,
                          DDRS-AFS reporting and account           SAAR forms matched the access        eight related to users of the
                          reference tables is restricted to        provided.                            DDRS_CFO_TABLE_MAINTAI
                          authorized personnel.                                                         NANCE role which provides users
                                                                   Inspected a list of DDRS-AFS         with this role the ability to make
                                                                   users assigned the                   changes to the US_SGL account
                                                                   CFO_Table_Maint role, and the        structure in DDRS-AFS. Of these
                                                                   HQSA role, to determine              eight users:
                                                                   whether this access was              - Four users had a SAAR form on
                                                                   appropriate for their job            file dated prior to 2004, which did
                                                                   responsibilities. HQSA is a          not provide enough detail to
                                                                   powerful role that, while            indicate the user role or DFAS
                                                                   necessary on a limited basis,        center to which access should be
                                                                   does not encompass the               granted; and,
                                                                   principles of separation of duties   - One user had a post 2004 SAAR
                                                                   and least privileges.                form on file, but the DDRS-AFS
                                                                                                        role granted on the form did not

                                                        146
CO
      Control Objective   Control Activity                 Test Procedure                       Results of Testing
No.
                                                   Confirmed, through                   match access provided in DDRS-
                                                   corroborative inquiry, that the      AFS.
                                                   ability to view, modify, or
                                                   transfer information contained in    However, DFAS Centers
                                                   the reporting and account            periodically reviewed user access
                                                   reference tables was restricted to   roles for appropriateness
                                                   authorized personnel.
                                                                                        Out of 162 total SAAR forms
                                                                                        tested for all DDRS-AFS users, 12
                                                                                        related to users of the
                                                                                        DDRS_CFO_HQSA role which
                                                                                        provides users with this role the
                                                                                        ability to assign and remove roles
                                                                                        in DDRS-AFS. Of these 12 users:
                                                                                        - Nine users had a SAAR form on
                                                                                        file dated prior to 2004, which did
                                                                                        not provide enough detail to
                                                                                        indicate the user role or DFAS
                                                                                        center to which access should be
                                                                                        granted;
                                                                                        - Two users had a post 2004
                                                                                        SAAR form on file, but the
                                                                                        DDRS-AFS role granted on the
                                                                                        form did not match access
                                                                                        provided in DDRS-AFS; and,
                                                                                        - One user did not have a SAAR
                                                                                        form available.

                                                                                        However, DFAS Centers
                                                                                        periodically reviewed user access
                                                                                        roles for appropriateness, but did
                                                                                        not determine whether these 12
                                                                                        HQSA users were appropriate.

                                                                                        Although DFAS Centers
                                                                                        periodically reviewed user access
                                                                                        roles for appropriateness, some of
                                                                                        the DFAS Centers had a

                                             147
CO
      Control Objective              Control Activity                         Test Procedure                      Results of Testing
No.
                                                                                                          questionable number of users
                                                                                                          assigned the HQSA role.
                                                                                                          Specifically:

                                                                                                          - DFAS-Arlington had 13 users
                                                                                                          assigned the HQSA role.
                                                                                                          - DFAS-Denver had 10 users
                                                                                                          assigned the HQSA role.
                                                                                                          - DFAS-Columbus had 17 users
                                                                                                          assigned the HQSA role.

                                                                                                          DFAS-Arlington
                                                                                                           The DDRS-AFS SAAR form used
                                                                                                          prior to 2004 did not include
                                                                                                          specific role categories for which a
                                                                                                          user had been authorized.

                                                                                                          Of 17 users assigned the
                                                                                                          CFO_Table_Maint role, 13 were
                                                                                                          identified that should not have
                                                                                                          been granted that role, although
                                                                                                          these users were subsequently
                                                                                                          removed based on the internal user
                                                                                                          review process.

                                                                                                          DFAS-Denver
                                                                                                          A systems developer in Cleveland
                                                                                                          was assigned access to the
                                                                                                          production environment as a
                                                                                                          HQSA, which creates segregation
                                                                                                          of duties risks.

                          5. The functionality pertaining to the      Inspected the USSGL account         DFAS-Arlington
                          DDRS-AFS reporting and account              maintenance reference tables to     No relevant exceptions noted.
                          reference tables allow the PMO to enter,    determine whether the
                          edit, and store table changes so that the   functionality pertaining to the
                          changes automatically become effective.     reporting and account reference
                                                                      tables allowed the user to enter,

                                                         148
CO
      Control Objective              Control Activity                      Test Procedure                     Results of Testing
No.
                                                                   edit, and store accounting
                                                                   classification table changes so
                                                                   that the changes automatically
                                                                   became effective.

                                                                   Confirmed, through
                                                                   corroborative inquiry, that the
                                                                   reporting and account reference
                                                                   tables allowed the user to enter,
                                                                   edit, and store accounting
                                                                   classification table changes so
                                                                   that the changes automatically
                                                                   became effective.

                          6. DDRS-AFS will reject or suspend       Observed DDRS-AFS edit              DFAS-Cleveland
                          interfaced USSGL accounts that contain   checks to determine whether the     No relevant exceptions noted.
                          accounting classification elements or    reporting and account reference
                          domain values that have been             tables allowed the system to
                          deactivated or discontinued.             reject or suspend interfaced
                                                                   transactions that contained
                                                                   accounting classification
                                                                   elements or domain values that
                                                                   had been deactivated or
                                                                   discontinued.

                                                                   Confirmed, through
                                                                   corroborative inquiry, that
                                                                   DDRS-AFS will reject or
                                                                   suspend interfaced transactions
                                                                   that contain accounting
                                                                   classification elements or
                                                                   domain values that have been
                                                                   deactivated or discontinued.




                                                        149
CO
               Control Objective                         Control Activity                     Test Procedure                    Results of Testing
No.
8     USSGL & Other Guidelines
      Controls provide reasonable             1. DDRS-AFS financial statements are     Compared DDRS-AFS module         DFAS-Arlington
      assurance that DDRS-AFS produces        consistent with the USSGL as published   chart of accounts with the       DoD policies related to the
      financial statements that conform to    by the U.S. Treasury.                    USSGL to determine whether it    preparation of financial statements
      the USSGL.                                                                       was consistent with the USSGL.   and the template used for
                                                                                                                        preparation of financial statements
      Controls provide reasonable                                                      Inspected the DDRS-AFS report    did not provide for reporting a
      assurance that any relevant changes                                              maps to determine whether the    significant amount of accounting
      made to the USSGL by the Treasury                                                financial statements are         information required by the
      Department are included in the                                                   consistent with the USSGL.       Federal Accounting Standards
      reference tables, and that changes to                                                                             Advisory Board (FASAB) and
      the tables are authorized and                                                                                     Office of Management and Budget
      approved.                                                                                                         (OMB) Bulletin 01-09. Also, the
                                                                                                                        mapping of accounts for the
                                                                                                                        preparation of financial statements
                                                                                                                        in several instances relied upon
                                                                                                                        DoD general ledger accounts,
                                                                                                                        instead of USSGL account codes.
                                                                                                                        Furthermore, the mapping of
                                                                                                                        accounts used for the preparation
                                                                                                                        of the Statement of Custodial
                                                                                                                        Activity did not conform to
                                                                                                                        Treasury requirements.

                                              2. Data converted from the Report on     Inspected the reconciliation     DFAS-Cleveland
                                              Budget Execution and Budgetary           reports that DFAS-Arlington      DFAS-Indianapolis
                                              Resources (SF-133) and entered into      required from DFAS centers for   DFAS-Columbus
                                              DDRS-AFS is consistent with the          FY 04 and FY 05 Q1 to            DFAS-Denver
                                              Statement of Budgetary Resources.        determine whether the
                                                                                       reconciliation between           Although the SF-133 and
                                                                                       Statement of Budgetary           Statement of Budgetary Resources
                                                                                       Resources and Report on Budget   reconciliation was performed,
                                                                                       Execution and Budgetary          management did not sign off on
                                                                                       Resources (SF-133.) was          the series of reconciliation reports
                                                                                       performed and differences        evidencing a review before the
                                                                                       explained.                       reconciliation was submitted to
                                                                                                                        DFAS-Arlington.

                                                                            150
CO
      Control Objective              Control Activity                         Test Procedure                     Results of Testing
No.
                                                                      Confirmed, through
                                                                      corroborative inquiry, that data
                                                                      converted from the Report on
                                                                      Budget Execution and
                                                                      Budgetary Resources (SF-133)
                                                                      entered into DDRS-AFS was
                                                                      consistent with the Statement of
                                                                      Budgetary Resources.

                          3. Prior to each reporting period or on a   Compared DDRS-AFS module            DFAS-Arlington
                          periodic basis, the USSGL is reviewed       chart of accounts to updates in     No relevant exceptions noted.
                          for changes applicable to the DDRS-         the Quarterly Guidance to
                          AFS module chart of accounts to ensure      determine if, prior to each
                          accuracy and pertinence.                    reporting period or on a periodic
                                                                      basis, the USSGL was reviewed
                                                                      for changes applicable to the
                                                                      DDRS-AFS module chart of
                                                                      accounts.

                                                                      Confirmed, through
                                                                      corroborative inquiry, that prior
                                                                      to each reporting period or on a
                                                                      periodic basis, the USSGL was
                                                                      reviewed for changes applicable
                                                                      to the DDRS-AFS module chart
                                                                      of accounts to ensure accuracy
                                                                      and pertinence.




                                                         151
CO
      Control Objective              Control Activity                      Test Procedure                     Results of Testing
No.
                          4. Changes to the chart of accounts in   Obtained the DDRS-AFS offline      DFAS-Arlington
                          the DDRS-AFS module are authorized       change log maintained by           Although changes to the chart of
                          and approved.                            DFAS-Arlington PMO to              account were documented in the
                                                                   determine whether changes were     off-line change log, there was no
                                                                   authorized and approved.           documented process in place for
                                                                                                      reviewing or authorizing the
                                                                   Confirmed, through                 change.
                                                                   corroborative inquiry, that
                                                                   changes to the chart of accounts
                                                                   in the DDRS-AFS module were
                                                                   authorized, approved, and tested
                                                                   prior to implementation.

                          5. Significant policies and procedures   Inspected significant policies     DFAS-Arlington
                          are documented.                          and procedures to determine        Procedures to make changes in
                                                                   whether significant policies and   DDRS-AFS related to the USSGL
                                                                   procedures were documented.        Chart of Accounts and mappings
                                                                                                      were not formally documented. A
                                                                   Confirmed, through                 mitigating control existed because
                                                                   corroborative inquiry, that        DDRS-AFS user manuals were
                                                                   significant policies and           available and changes in reporting
                                                                   procedures were documented.        requirement were disseminated to
                                                                                                      the DFAS-Arlington PMO. Thus,
                                                                                                      the control activity and associated
                                                                                                      mitigating control supported the
                                                                                                      control objective.




                                                         152
Data Collection Module
CO
               Control Objective                            Control Activity                       Test Procedure                    Results of Testing
No.
1     Audit Trails
      Controls provide reasonable                1. Financial statement line item amounts   Selected a Journal Voucher from   DFAS-Indianapolis
      assurance that DDRS-DCM produces           in DDRS-AFS are drilled down to the        category M and noted the          No relevant exceptions noted.
      financial statements that are              detailed balance and activity supporting   USSGL account posted.
      supported by audit trails that are         the line item numbers, including           Performed a drill down on the
      adequate for the financial                 amounts entered manually into the          corresponding Financial
      management entity and external             DDRS-AFS module from DCM.                  Statement line item containing
      auditors to trace amounts reported in                                                 the account until the Journal
      the financial statement back to trial                                                 Voucher was displayed. Noted
      balances and data from feeder                                                         that the data in the Journal
      systems.                                                                              Voucher matched data in the
                                                                                            Journal Voucher log.
      Controls provide reasonable
      assurance that audit trails indicate the
      user inputting the trial balance and the
      user approving the trial balance. All
      audit trails indicate the user inputting
      the Journal Voucher and the user
      approving the Journal Voucher.
      Audit trails are reviewed on a regular
      basis for appropriateness.




                                                                               153
CO
      Control Objective               Control Activity                       Test Procedure                     Results of Testing
No.
                          2. Balances manually entered into          Scanned the audit trail and         DFAS-Cleveland
                          DDRS-DCM are supported by audit            determined that transactions        No relevant exceptions noted.
                          trails that indicate the person, status,   were captured in DDRS-DCM
                          date input, and type (e.g.,                and that they included the User
                          consolidating).                            ID, date of transaction, and
                                                                     amount of transaction.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that
                                                                     balances manually entered into
                                                                     DDRS-DCM, balances imported
                                                                     via Microsoft Excel import
                                                                     sheets and balances imported
                                                                     from DDRS-DCM entry were
                                                                     supported by audit trails that
                                                                     indicated the user ID inputting
                                                                     the trial balance, the date and
                                                                     time input, and an indicator of
                                                                     how the balance has been
                                                                     entered online.

                          3. Balances entered into DDRS-DCM          Scanned the audit trail and         DFAS-Cleveland
                          are supported by audit trails indicating   determined if transactions were     No relevant exceptions noted.
                          the User ID, date the balance was          captured in DDRS-DCM and
                          entered, and the User ID approving the     that they included the User ID
                          balance.                                   and date the balance was
                                                                     entered, and the User ID
                                                                     approving the balance.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that
                                                                     balances entered into DDRS-
                                                                     DCM were supported by audit
                                                                     trails indicating the User ID and
                                                                     date the balance was entered and
                                                                     the User ID approving the
                                                                     balance.


                                                            154
CO
      Control Objective               Control Activity                          Test Procedure                     Results of Testing
No.
                          4. During each accounting quarter or          Confirmed, through                 DFAS-Indianapolis
                          other reporting period, audit trails in the   corroborative inquiry, that        DFAS-Columbus
                          DDRS-DCM are periodically reviewed            during each accounting quarter
                          for appropriateness and unusual activity.     or other reporting period, audit   Audit logs were not reviewed.
                                                                        trails in the DDRS-DCM were
                                                                        periodically reviewed for
                                                                        appropriateness and unusual
                                                                        activity.

                          5. All cancelled Journal Vouchers keyed       Reviewed system log in DDRS-       DFAS-Cleveland
                          into DDRS-AFS from DDRS-DCM                   AFS to determine if cancelled
                          contained a Journal Voucher ID number         Journal Vouchers contained a       In DDRS-AFS, cancelled Journal
                          and the dates and times they were             Journal Voucher ID number and      Vouchers were recorded; however,
                          cancelled or rejected.                        dates and times they were          Journal Voucher cancellations
                                                                        cancelled or rejected.             were not displayed in the Journal
                                                                                                           Voucher log with the canceling
                                                                        Confirmed, through                 user's ID, date cancelled, or reason
                                                                        corroborative inquiry, that all    cancelled. Cancelled Journal
                                                                        cancelled Journal Vouchers         Vouchers did not affect the
                                                                        keyed into DDRS-AFS from           financial statements.
                                                                        DDRS-DCM contained a
                                                                        Journal Voucher ID number and
                                                                        the dates and times they were
                                                                        cancelled or rejected.




                                                          155
CO
               Control Objective                           Control Activity                      Test Procedure                     Results of Testing
No.
 2    Balance Entry
      Controls provide reasonable               1. Data call information imported from   Reviewed entry from DCM to         DFAS-Indianapolis
      assurance that balances entered into      DDRS-DCM into DDRS-AFS as                DDRS-AFS and determined that       DFAS-Columbus
      the DDRS-DCM are supported by             Journal Vouchers are supported by        entries were supported by
      adequate documentation, and that          adequate documentation.                  adequate documentation and         No relevant exceptions noted.
      balances entered into the DDRS-                                                    approved prior to entry into the
      DCM are approved prior to entry into                                               DDRS-DCM.
      a DDRS table.
                                                                                         Confirmed, through
      Controls provide reasonable                                                        corroborative inquiry, that data
      assurance that the separation of duties                                            call information imported from
      exists to ensure the person approving                                              DDRS-DCM into DDRS-AFS
      the balances entered into the DDRS-                                                as Journal Vouchers was
      DCM is not the person entering the                                                 supported by adequate
      balances entered into the DDRS-                                                    documentation.
      DCM.

      Controls provide reasonable
      assurance that balances entered into
      the DDRS-DCM are in balance prior
      to entry into DDRS-AFS.

                                                2. The ability to enter or modify        Confirmed users with ability to    DFAS-Arlington
                                                information contained in a balance is    enter or approve balances by       DFAS-Indianapolis
                                                restricted to authorized personnel.      obtaining the SAAR form and        DFAS-Columbus
                                                                                         confirming that the user is
                                                                                         allowed to enter balances.         Out of 80 total SAAR forms tested
                                                                                                                            for all DDRS-DCM users, 32
                                                                                         Used the Financial Audit           related to users of the Data Entry
                                                                                         Manual guide on population size    role which provide users with this
                                                                                         to judgmentally select a sample    role the ability to enter and finalize
                                                                                         of 80 SAAR forms for testing.      balances entered into DDRS-
                                                                                                                            DCM. Of these 32 users:
                                                                                         Confirmed, through                 - 23 users had a SAAR form on
                                                                                         corroborative inquiry, that the    file dated prior to 2004, which did
                                                                                         ability to enter or modify         not provide enough detail to
                                                                                         information contained in a         indicate the user role or reporting
                                                                                         balance was restricted to          area in DDRS-DCM to which

                                                                               156
CO
      Control Objective              Control Activity                        Test Procedure                      Results of Testing
No.
                                                                     authorized personnel.               access should be granted;
                                                                                                         - Two users had a post 2004
                                                                                                         SAAR form on file, but the
                                                                                                         specific role was not indicated on
                                                                                                         the form; and,
                                                                                                         - One users access granted in
                                                                                                         DDRS-DCM did not match the
                                                                                                         access provided in the form.

                          3. The balances entered are approved or    Confirmed users with ability to     DFAS-Indianapolis
                          rejected by an individual other than who   enter or approve balances by        DFAS-Columbus
                          entered the balance and who has            obtaining the SAAR form and
                          authority to approve or reject the         confirming that the user is         Out of 80 total SAAR forms tested
                          balance.                                   allowed to enter balances.          for all DDRS-DCM users, 27
                                                                                                         related to users of the Consolidator
                                                                     Reviewed DCM balance entry in       role which provide users with this
                                                                     DDRS-AFS and determined that        role the ability to consolidate and
                                                                     balances must be approved.          approve balances entered into
                                                                     Determined that Journal             DDRS-DCM. Of these 27users;
                                                                     Vouchers during DDRS-AFS            - Eighteen users had a SAAR form
                                                                     import must be approved.            on file dated prior to 2004, which
                                                                                                         did not provide enough detail to
                                                                     Confirmed, through                  indicate the user role or reporting
                                                                     corroborative inquiry, that the     area in DDRS-DCM to which
                                                                     balances entered were approved      access should be granted; and,
                                                                     or rejected by an individual        - One user had a post 2004 SAAR
                                                                     other than who entered the          form on file, but the specific role
                                                                     balance and who had authority       was not indicated on the form.
                                                                     to approve or reject the balance.
                                                                                                         However, DFAS Centers
                                                                                                         periodically reviewed user access
                                                                                                         roles for appropriateness.
                                                                                                         Consolidators can approve their
                                                                                                         own balance entries in DCM;
                                                                                                         however, the Journal Vouchers put
                                                                                                         into DDRS-AFS must be approved
                                                                                                         by someone other than the Journal
                                                                                                         Voucher creator.

                                                        157
CO
      Control Objective              Control Activity                       Test Procedure                    Results of Testing
No.
                          4. The data call information in the       Inspected process for              DFAS-Indianapolis
                          DDRS-DCM is in balance before being       establishing Journal Vouchers in   DFAS-Columbus
                          imported as a Journal Voucher into        DDRS-AFS from DDRS-DCM
                          DDRS. Within DDRS-DCM, data calls         and confirmed that each cell in    No relevant exceptions noted.
                          entered out-of-balance will be prompted   DDRS-DCM contains a Journal
                          with an error message and not recorded    Voucher which must be in
                          until balanced.                           balance prior to updating
                                                                    DDRS-AFS.

                                                                    Confirmed, through
                                                                    corroborative inquiry, that data
                                                                    call information in the DDRS-
                                                                    DCM was in balance before
                                                                    being imported as a Journal
                                                                    Voucher into DDRS. Within the
                                                                    DDRS-DCM data calls entered
                                                                    out-of-balance were prompted
                                                                    with an error message and not
                                                                    recorded until balanced.

                          5. Data calls in DDRS-DCM creating        Inspected Journal Voucher input    DFAS-Indianapolis
                          the Journal Vouchers to be imported       process in DDRS-AFS and            No relevant exceptions noted.
                          into DDRS-AFS are included in the         noted that Journal Vouchers
                          intended reporting period.                could only be input for the
                                                                    current period.

                                                                    Confirmed, through
                                                                    corroborative inquiry, that the
                                                                    data calls in DDRS-DCM
                                                                    creating the Journal Vouchers to
                                                                    be imported into DDRS were
                                                                    included in the intended
                                                                    reporting period.




                                                        158
CO
      Control Objective              Control Activity                         Test Procedure                     Results of Testing
No.
                          6. The balances keyed in from DDRS-         Selected random sample of           DFAS-Arlington
                          DCM to DDRS-AFS as Journal                  Journal Vouchers in DDRS-AFS        No relevant exceptions noted.
                          Vouchers update all applicable general      and determined that they update
                          ledger account balances (i.e., budgetary,   all applicable general ledger
                          proprietary and memorandum accounts)        account balances (i.e.,
                          based on a single input transaction and     budgetary, proprietary and
                          are included in the final trial balance     memorandum accounts) based
                          numbers.                                    on a single input transaction and
                                                                      were included in the final trial
                                                                      balance numbers.

                                                                      Confirmed, through
                                                                      corroborative inquiry, that the
                                                                      balances keyed in from DDRS-
                                                                      DCM to DDRS-AFS as Journal
                                                                      Vouchers updated all applicable
                                                                      general ledger account balances
                                                                      (i.e., budgetary, proprietary and
                                                                      memorandum accounts) based
                                                                      on a single input transaction and
                                                                      were included in the final trial
                                                                      balance numbers.

                          7. A closing date on Journal Vouchers       Inspected the system audit log in   DFAS-Arlington
                          imported into DDRS-AFS from DDRS-           DDRS-AFS indicating the             No relevant exceptions noted.
                          DCM enables DFAS personnel to               lockout occurred and confirmed
                          ensure no Journal Voucher adjustments       that the lockout mechanism was
                          are made to the trial balance subsequent    enabled prior to the release of
                          to external reporting.                      the statements to OMB, and that
                                                                      the mechanism was effective in
                                                                      preventing additional
                                                                      adjustments to the financial
                                                                      statements.

                                                                      Confirmed, through
                                                                      corroborative inquiry, that a
                                                                      closing date on Journal
                                                                      Vouchers imported into DDRS-

                                                         159
CO
      Control Objective              Control Activity                       Test Procedure                     Results of Testing
No.
                                                                    AFS from DDRS-DCM enabled
                                                                    DFAS personnel to ensure no
                                                                    Journal Voucher adjustments
                                                                    were made to the trial balance
                                                                    subsequent to external reporting.

                          8. Journal vouchers imported or keyed     Inspected the Journal Voucher       DFAS-Cleveland
                          into DDRS-AFS from DDRS-DCM are           log in DDRS-AFS to determine        Inspection of the Journal Voucher
                          assigned Journal Voucher control          whether it was sequentially         log showed that some numbers
                          numbers prior to approval and, after      ordered, and, if breaks in the      were missing from the sequence of
                          approval, are given sequential approved   sequence of control numbers         Journal Vouchers numbers as a
                          Journal Voucher ID numbers; the           existed, whether they were          result of a trial balance and
                          numerical sequence of each Journal        explained.                          associated Journal Vouchers being
                          Voucher is accounted for to ensure that                                       deleted.
                          all Journal Vouchers are processed        Confirmed, through
                          timely.                                   corroborative inquiry, Journal
                                                                    Vouchers imported or keyed into
                                                                    DDRS-AFS from DDRS-DCM
                                                                    were assigned Journal Voucher
                                                                    control numbers prior to
                                                                    approval and, after approval,
                                                                    were given sequential approved
                                                                    Journal Voucher ID numbers;
                                                                    the numerical sequence of each
                                                                    Journal Voucher was accounted
                                                                    for to ensure that all Journal
                                                                    Vouchers are processed timely.

                          9. Journal vouchers for the reporting     Confirmed, through                  DFAS-Cleveland
                          period are available to the reporting     corroborative inquiry, that         No relevant exceptions noted.
                          activity for review of appropriateness    reports of Journal Vouchers for
                          and authorization.                        the reporting period were sent to
                                                                    the reporting activity for review
                                                                    of appropriateness and
                                                                    authorization.




                                                         160
CO
               Control Objective                         Control Activity                       Test Procedure                    Results of Testing
No.
3     Validation
      Controls provide reasonable             1. Control totals over data entered       Inspected process for              DFAS-Cleveland
      assurance that the DDRS-DCM has         directly into the DDRS-DCM ensure the     establishing Journal Vouchers in   No relevant exceptions noted.
      systems or processes for determining    journal entries are in balance prior to   DDRS-AFS from DDRS-DCM
      the quality and integrity of data       updating DDRS-AFS and are being           and confirmed that each cell in
      flowing through the system, and trial   updated to the correct entity.            DDRS-DCM contains a Journal
      balances are input and updated                                                    Voucher which must be in
      completely and accurately.                                                        balance prior to updating
                                                                                        DDRS-AFS.
      Controls provide reasonable
      assurance that data validation and                                                Confirmed, through
      editing are performed to identify                                                 corroborative inquiry, that
      erroneous data, and that erroneous                                                control totals over data entered
      data are captured, reported,                                                      directly into the DDRS-DCM
      investigated, and corrected.                                                      ensured the trial balance or
                                                                                        journal entry was in balance
                                                                                        prior to updating DDRS.

                                              2. Transactions are automatically         Inspected the Journal Voucher      DFAS-Cleveland
                                              assigned a unique sequence number.        log in DDRS-AFS to determine       Inspection of the Journal Voucher
                                              (Only in a Journal Voucher output         whether it was sequentially        log showed that some numbers
                                              process.)                                 ordered, and, if breaks in the     were missing from the sequence of
                                                                                        sequence of control numbers        Journal Vouchers numbers as a
                                                                                        existed, whether they were         result of a trial balance and
                                                                                        explained.                         associated Journal Vouchers being
                                                                                                                           deleted.
                                                                                        Confirmed, through
                                                                                        corroborative inquiry, that
                                                                                        transactions were automatically
                                                                                        assigned a unique sequence
                                                                                        number. (Only in a Journal
                                                                                        Voucher output process.)




                                                                            161
Data Collection Module Interfacing

CO
               Control Objective                         Control Activity                      Test Procedure                      Results of Testing
No.
 1    Validation
      Controls provide reasonable             1. Controls over data entered directly   Inspected process for                DFAS-Indianapolis
      assurance that DDRS has systems or      into DDRS-AFS from DDRS-DCM of           establishing Journal Vouchers in     DFAS-Cleveland
      processes for determining the quality   DDRS ensure the journal entry is in      DDRS-AFS from DDRS-DCM
      and integrity of data flowing through   balance prior to updating DDRS-AFS.      and confirmed that each cell in      No relevant exceptions noted.
      the system, and balances are input                                               DDRS-DCM contains a Journal
      and updated completely and                                                       Voucher which must be in
      accurately.                                                                      balance prior to updating
                                                                                       DDRS-AFS.

                                                                                       Confirmed, through
                                                                                       corroborative inquiry, that
                                                                                       controls over data entered
                                                                                       directly into the AFS Module
                                                                                       from DDRS-DCM ensured the
                                                                                       trial balance or journal entry was
                                                                                       in balance prior to updating
                                                                                       DDRS-DCM.

                                              2. The data imported or keyed from       Inspected DDRS-DCM entries           DFAS-Arlington
                                              DCM creates complete Journal             in DDRS-AFS and confirmed            DFAS-Columbus
                                              Vouchers adjustments pending approval    the entries are approved.            DFAS-Indianapolis
                                              by DFAS staff.
                                                                                       Inspected audit logs in DDRS-        Although the Journal Vouchers
                                                                                       AFS and determined that Journal      keyed into DDRS-AFS must be
                                                                                       Vouchers had been approved.          approved, users are frequently re-
                                                                                                                            keying data from DCM into AFS,
                                                                                       Confirmed, through                   which can circumvent the systemic
                                                                                       corroborative inquiry, that the      approval controls for DCM. At
                                                                                       data imported or keyed in from       DFAS-Indianapolis, balances
                                                                                       DCM created complete Journal         manually keyed into DDRS-AFS
                                                                                       Vouchers adjustments pending         were not always approved.
                                                                                       approval by DFAS staff.


                                                                            162
CO
               Control Objective                         Control Activity                        Test Procedure                       Results of Testing
No.
 2    Authorized Entry
      Controls provide reasonable             1. Transmissions to DDRS-AFS were          Selected a random sample of          Controls were designed to provide
      assurance that data transmissions       initiated automatically or by authorized   DFAS-AFS users to determine if       for access to DDRS-AFS on a
      between DDRS-AFS and DDRS               personnel.                                 SAAR forms matched the access        center-level basis, instead of by
      DCM are authorized, complete,                                                      provided.                            responsible work area. As such,
      accurate and secure. Unbalanced trial                                                                                   the user may have access to
      balances are flagged and not reported                                              Inspected a list of DDRS-AFS         information that they don’t
      until in balance.                                                                  users assigned the data              necessarily need.
                                                                                         administrator role, which allows
                                                                                         initiation of a transmission to      Out of 162 total SAAR forms
                                                                                         DDRS-AFS, and the HQSA               tested for all DDRS-AFS users,
                                                                                         role, to determine whether this      five related to users of the
                                                                                         access was appropriate for their     DDRS_CFO_DATA_ADMIN role
                                                                                         job responsibilities. HQSA is a      which provides users with this role
                                                                                         powerful role that, while            the ability to import DCM
                                                                                         necessary on a limited basis,        balances into DDRS-AFS. Of
                                                                                         does not encompass the               these five users:
                                                                                         principles of separation of duties   - One user had a SAAR form on
                                                                                         and least privileges.                file dated prior to 2004, which did
                                                                                         Inspected e-mail traffic to          not provide enough detail to
                                                                                         confirm that DFAS Centers            indicate the user role or DFAS
                                                                                         periodically review user access      center to which access should be
                                                                                         for appropriateness.                 granted.
                                                                                                                              - Two users had a post 2004
                                                                                         Confirmed, through                   SAAR form on file, but the
                                                                                         corroborative inquiry, that trial    DDRS-AFS role granted on the
                                                                                         balance transmissions to DDRS-       form did not match access
                                                                                         AFS were initiated automatically     provided in DDRS-AFS.
                                                                                         or by authorized personnel.
                                                                                                                              However, DFAS Centers
                                                                                                                              periodically reviewed user access
                                                                                                                              roles for appropriateness.

                                                                                                                              Out of 162 total SAAR forms
                                                                                                                              tested for all DDRS-AFS users, 12
                                                                                                                              related to users of the
                                                                                                                              DDRS_CFO_HQSA role which

                                                                             163
CO
      Control Objective   Control Activity         Test Procedure           Results of Testing
No.
                                                                    provides users with this role the
                                                                    ability to assign and remove roles
                                                                    in DDRS-AFS. Of these 12 users:
                                                                    - Nine users had a SAAR form on
                                                                    file dated prior to 2004, which did
                                                                    not provide enough detail to
                                                                    indicate the user role or DFAS
                                                                    center to which access should be
                                                                    granted.
                                                                    - Two users had a post 2004
                                                                    SAAR form on file, but the
                                                                    DDRS-AFS role granted on the
                                                                    form did not match access
                                                                    provided in DDRS-AFS.
                                                                    - One user did not have a SAAR
                                                                    form available.

                                                                    However, DFAS Centers
                                                                    periodically reviewed user access
                                                                    roles for appropriateness, but did
                                                                    not determine whether these 12
                                                                    HQSA users were appropriate.

                                                                    Although DFAS Centers
                                                                    periodically reviewed user access
                                                                    roles for appropriateness, some of
                                                                    the DFAS Centers had a
                                                                    questionable number of users
                                                                    assigned the HQSA role.
                                                                    Specifically:
                                                                    - DFAS-Arlington had 13 users
                                                                    assigned the HQSA role.
                                                                    - DFAS-Denver had 10 users
                                                                    assigned the HQSA role.
                                                                    - DFAS-Columbus had 17 users
                                                                    assigned the HQSA role.



                                             164
CO
               Control Objective                         Control Activity                    Test Procedure                    Results of Testing
No.
                                                                                                                       DFAS-Arlington
                                                                                                                       The DDRS-AFS SAAR form used
                                                                                                                       prior to 2004 did not include
                                                                                                                       specific role categories for which a
                                                                                                                       user had been authorized.

                                                                                                                       DFAS-Cleveland
                                                                                                                       The trial uploads and balance
                                                                                                                       adjustments entered into DDRS-
                                                                                                                       AFS do not require approval prior
                                                                                                                       to posting.

                                                                                                                       DFAS-Denver
                                                                                                                       A systems developer was assigned
                                                                                                                       access to the production
                                                                                                                       environment as a HQSA, which
                                                                                                                       creates segregation of duties risks.

 3    USSGL & Other Guidelines
      Controls provide reasonable              1. DDRS-AFS transmissions from         Compared DDRS-AFS chart of       DFAS-Arlington
      assurance that the DDRS-DCM              DDRS-DCM are consistent with that of   accounts with the USSGL to       DoD policies related to the
      assists DDRS-AFS to produce              the USSGL as published by the U.S.     determine whether it was         preparation of financial statements
      financial statements that conform to     Treasury.                              consistent with the USSGL.       and the template used for
      the USSGL. Controls provide                                                                                      preparation of financial statements
      reasonable assurance that any relevant                                          Confirmed, through               did not provide for reporting a
      changes made to the USSGL by the                                                corroborative inquiry, that      significant amount of accounting
      Treasury Department are included in                                             DDRS-AFS transmissions from      information required by the
      the Reference Tables, and that                                                  DDRS-DCM were consistent         Federal Accounting Standards
      changes to the tables are authorized                                            with that of the USSGL as        Advisory Board (FASAB) and
      and approved.                                                                   published by the U.S. Treasury   Office of Management and Budget
                                                                                      department and that the USSGL    (OMB) Bulletin 01-09. Also, the
                                                                                      account tables for DDRS-DCM      mapping of accounts for the
                                                                                      and DDRS-AFS were the same.      preparation of financial statements
                                                                                                                       in several instances relied upon
                                                                                                                       DoD general ledger accounts,
                                                                                                                       instead of USSGL account codes.
                                                                                                                       Furthermore, the mapping of

                                                                            165
CO
      Control Objective               Control Activity                        Test Procedure                      Results of Testing
No.
                                                                                                          accounts used for the preparation
                                                                                                          of the Statement of Custodial
                                                                                                          Activity did not conform to
                                                                                                          Treasury requirements.

                          2. Prior to each reporting period or on a   Compared DDRS-AFS module            DFAS-Arlington
                          periodic basis, the USSGL is reviewed       chart of accounts to updates in     No relevant exceptions noted.
                          for changes applicable to the DDRS-         the Quarterly Guidance to
                          AFS Module from the Data Collection         determine if, prior to each
                          Module chart of accounts to ensure          reporting period or on a periodic
                          accuracy and pertinence.                    basis, the USSGL was reviewed
                                                                      for changes applicable to the
                                                                      DDRS-AFS module chart of
                                                                      accounts.

                                                                      Confirmed, through
                                                                      corroborative inquiry, prior to
                                                                      each reporting period or on a
                                                                      periodic basis, the USSGL is
                                                                      reviewed for changes applicable
                                                                      to the DDRS-AFS Module from
                                                                      the Data Collection Module
                                                                      chart of accounts to ensure
                                                                      accuracy and pertinence.
                          3. Changes to the chart of accounts in      Obtained the DDRS-AFS offline       DFAS-Arlington
                          DDRS-AFS Module from DDRS-DCM               change log maintained by            Although changes to the chart of
                          are authorized, approved, and tested        DFAS-Arlington PMO to               account were documented in the
                          prior to implementation.                    determine whether changes were      off-line change log, there was not a
                                                                      authorized and approved.            documented process in place for
                                                                                                          reviewing and authorizing the
                                                                      Confirmed, through                  change.
                                                                      corroborative inquiry, that
                                                                      changes to the chart of accounts
                                                                      in the DDRS-AFS Module from
                                                                      the Data Collection Module
                                                                      were authorized, approved, and
                                                                      tested prior to implementation.

                                                          166
Local Unique Processes
CO
               Control Objective                        Control Activity                      Test Procedure                     Results of Testing
No.
 1    Local Unique Process
      Controls provide reasonable            1. Output reports from reporting         Scanned output reports and         DFAS-Cleveland
      assurance that trial balance data      activities feeder systems are from       evidence the output reports were   DFAS-Indianapolis
      manually migrated into DDRS-AFS is     authorized personnel or source.          received from authorized           DFAS-Columbus
      accurate, authorized, and complete.                                             personnel or source.               DFAS-Denver
      Data from the Report on Budget
      Execution and Budgetary Resources                                               Confirmed, through                 No relevant exceptions noted.
      (SF-133) or feeder systems are input                                            corroborative inquiry, that
      accurately into DDRS-AFS. Any                                                   output reports from reporting
      reclassifications are authorized and                                            activities feeder systems are
      approved and are monitored by an                                                from authorized personnel or
      audit trail.                                                                    source.

                                             2. Output reports from reporting         Scanned output reports and         DFAS-Cleveland
                                             activities feeder systems are complete   evidence they were complete        DFAS-Columbus
                                             and in balance.                          and in balance.
                                                                                                                         Proprietary balances are derived
                                                                                      Confirmed, through                 from budgetary accounts.
                                                                                      corroborative inquiry, that
                                                                                      output reports from reporting      Reconciling items remain
                                                                                      activities feeder systems were     unresolved in the DDRS-AFS local
                                                                                      complete and in balance.           unique process.

                                                                                                                         DFAS-Columbus
                                                                                                                         Performed estimated allocations of
                                                                                                                         Trading Partner data.

                                                                                                                         DFAS-Denver
                                                                                                                          Budgetary balances are derived
                                                                                                                         from proprietary accounts.
                                                                                                                         Additionally, a modified version of
                                                                                                                         the import sheet is used at DFAS-
                                                                                                                         Denver which does not contain all
                                                                                                                         the built in controls. However, the
                                                                                                                         sheet does have a balancing
                                                                           167
CO
      Control Objective              Control Activity                        Test Procedure                      Results of Testing
No.
                                                                                                         formula and DDRS-AFS import
                                                                                                         verification controls apply.

                          3. Local unique processes to prepare the   Scanned output reports to           DFAS-Cleveland
                          data for DDRS-AFS import are               determine if the local unique       DFAS-Columbus
                          reviewed and approved.                     processes to prepare the data for   DFAS-Denver
                                                                     DDRS-AFS import was
                                                                     reviewed and approved.              Reviews and approvals did not
                                                                                                         occur and there was no separation
                                                                     Confirmed, through                  of duties in the uploading of
                                                                     corroborative inquiry, that the     balances. However, the customer
                                                                     local unique processes to prepare   confirmed the balances in DDRS.
                                                                     the data for DDRS-AFS import
                                                                     were reviewed and approved.         DFAS-Indianapolis
                                                                                                         Uploads of the trial balance import
                                                                                                         sheet were not required to be
                                                                                                         approved.




                          4. Adjustments made during the local       Inspected local unique process to   DFAS-Cleveland
                          unique processes to prepare the data for   prepare the data for DDRS-AFS       Fiscal year end 2004 adjustments
                          DDRS-AFS import are reviewed and           import and evidence that trial      to trial balances were not
                          approved.                                  balance adjustments were            approved. At first quarter 2005,
                                                                     reviewed and approved.              the trial balances adjustments were
                                                                                                         approved in DDRS-AFS.
                                                                     Confirmed, through
                                                                     corroborative inquiry, that         DFAS-Denver
                                                                     adjustments made during the         A single FICA equity adjustment
                                                                     local unique processes to prepare   was made offline and was not
                                                                     the data for DDRS-AFS import        reviewed and approved.
                                                                     were reviewed and approved.



                                                        168
CO
      Control Objective              Control Activity                        Test Procedure                      Results of Testing
No.
                          5. Adjustments made during the local       Scanned the Microsoft Excel         DFAS-Cleveland
                          unique processes to prepare the data for   worksheets to determine if          Trial balance adjustments at
                          DDRS-AFS import are supported by an        adjustments made during the         quarter four 2004 were not
                          audit trail.                               local unique processes to prepare   supported by an audit trail.
                                                                     the data for DDRS-AFS import
                                                                     were supported by an audit trail.   DFAS-Denver
                                                                                                         Single FICA equity adjustment
                                                                     Confirmed, through                  was made offline and was not
                                                                     corroborative inquiry, that         supported by an audit trail.
                                                                     adjustments made during the
                                                                     local unique processes to prepare
                                                                     the data for DDRS-AFS import
                                                                     were supported by an audit trail.

                          6. A closing date on reporting enables     Inspected the DDRS-AFS              DFAS-Arlington
                          DFAS personnel to ensure no Journal        system audit log indicating the     No relevant exceptions noted.
                          Voucher or trial balance adjustments are   lockout occurred and observed
                          made to the trial balance subsequent to    that the lockout mechanism was
                          external reporting.                        enabled prior to the release of
                                                                     the statements to OMB, and that
                                                                     the mechanism was effective in
                                                                     preventing additional
                                                                     adjustments to the financial
                                                                     statements.

                                                                     Confirmed, through
                                                                     corroborative inquiry, that a
                                                                     closing date on reporting
                                                                     enabled DFAS personnel to
                                                                     ensure no Journal Voucher or
                                                                     trial balance adjustments were
                                                                     made to the trial balance
                                                                     subsequent to external reporting.




                                                        169
CO
      Control Objective               Control Activity                       Test Procedure                       Results of Testing
No.
                          7. Feeder system reports and trial        Scanned output reports to             DFAS-Cleveland
                          balance uploads during the local unique   determine if feeder system            DFAS-Indianapolis
                          processes to prepare the data for DDRS-   reports and trial balance uploads     DFAS-Columbus
                          AFS import are based on the intended      during the local unique               DFAS-Denver
                          reporting period.                         processes to prepare the data for
                                                                    DDRS-AFS import were based            No relevant exceptions noted.
                                                                    on the proper reporting period.

                                                                    Confirmed, through
                                                                    corroborative inquiry, that feeder
                                                                    system reports and trial balance
                                                                    uploads during the local unique
                                                                    processes to prepare the data for
                                                                    DDRS-AFS import were based
                                                                    on the proper reporting period.

                          8. Final balance numbers are confirmed    Inspected the contents of the         DFAS-Cleveland
                          by the customer.                          Confirmation Letter issued by         DFAS-Indianapolis
                                                                    the customer to signify the           DFAS-Columbus
                                                                    review and acceptance of the          DFAS-Denver
                                                                    financial statements prepared by
                                                                    DFAS.                                 No relevant exceptions noted.

                          9. All critical procedures were           Determined that all critical          DFAS-Cleveland
                          documented.                               procedures were documented.           Local unique procedures for the
                                                                                                          standard reporting checklist were
                                                                    Confirmed, through                    documented but not implemented.
                                                                    corroborative inquiry, all critical
                                                                    procedures were documented.           DFAS-Columbus
                                                                                                          Local unique data import process
                                                                                                          was not standardized. Some
                                                                                                          procedures were not clearly
                                                                                                          documented.

                                                                                                          DFAS-Denver
                                                                                                          Procedures were not documented.



                                                         170
Section IV: Supplemental Information Provided by the Defense
                Information Systems Agency




                            171
IV. Supplemental Information Provided by the Defense Information
                       Systems Agency

This information has not been subjected to the procedures applied to the examination of
the description of controls presented in Sections II and III of this report, and accordingly,
the DoD OIG expresses no opinion regarding the completeness and accuracy of this
information.

To accommodate a major disaster at any major DISA processing center, DISA has established
the DISA Continuity and Test Facility (DCTF) at Slidell, LA. This facility is equipped with
computational, DASD (Direct Access Storage Device), and telecommunications resources sized
to provide a fully functional host site with the capacity to support a major disaster at any DISA
processing center.

The Continuity of Operations support agreement between DDRS, which is part of the DFAS
Corporate Information Infrastructure (DCII), as the customer and DISA and as the provider of
processing system and communications services, provides for restoring host site processing in
the event of a major disaster and the timely resolution of problems during other disruptions that
adversely affect DDRS processing.

The enterprise backup process is managed by DISA DECC-Ogden. Backup tapes containing the
incremental daily and the complete weekly backups are created at Ogden. The tapes are rotated
off site to Iron Mountain near Salt Lake City, UT for storage on a predetermined schedule.

The Crisis Management Team (CMT) at DISA DECC-Ogden is responsible for declaring that a
disaster has occurred and initiating the Business Continuity Plan (BCP). The CMT will then
activate the following response teams: Communications Team (COMT), Recovery Coordination
Team (RCT), Site Recovery Team (SRT), and the Crisis Support Team (CST). Each team has a
specific set of responsibilities defined in the Business Continuity Plan. The contact information
for each individual on each team is also included in the Business Continuity Plan. The BCP is
required to be evaluated on an annual basis.

The DDRS Continuity of Operations Plan (COOP) provides guidance on the DDRS software
restoration for emergencies, disasters, mobilization, and for maintaining a state of readiness to
provide the necessary level of information processing support commensurate with the mission
requirements and priorities identified by the functional proponent. The DDRS COOP was written
to serve as a bridge between the customers’ site-unique COOPs and the DECC Ogden BCP. An
annual review of the DDRS COOP will be performed. A test of the COOP is conducted every
three years and consists of declaring one complete system platform inoperable at a given site.




                                               173
                 Acronyms and Abbreviations
AIS       Automated Information System
AMO       Acquisition Management Organization
BCP       Business Continuity Plan
CAC       Common Access Card
CDOIM     Centralized Directorate for Information Management
CMIS      Configuration Management Information System
COOP      Continuity of Operations
DBA       Database Administrator
DCM       Data Collection Module
DDRS      Defense Departmental Reporting System
DECC      Defense Enterprise Computing Center
DFAS      Defense Finance and Accounting Service
DISA      Defense Information Systems Agency
DITSCAP   Department of Defense Information Technology Security Certification and
          Accreditation Process
DMZ       Demilitarized Zone
DoD       Department of Defense
DoD OIG   Department of Defense Office of Inspector General
DOIM      Defense Office of Information Management
FACTS     Federal Agencies Centralized Trial Balance System
FASAB     Federal Accounting Standards Advisory Board
FFMIA     Federal Financial Management Improvement Act
FMR       Financial Management Regulation
FRR       Functional Requirements Review
FSO       Field Security Operations
GCC       General Computer Control
GMRA      Government Management Reform Act
HQSA      Headquarters Security Administrator
IA        Information Assurance
IDS       Intrusion Detection System
OMB       Office of Management and Budget
PMO       Program Management Office
PVCS      Program Version Control System
SAAR      System Authorization Access Request
SAS       Statement on Auditing Standards
SLA       Service Level Agreement
SQA       Software Quality Assurance
SRR       Security Readiness Review
SSAA      System Security Authorization Agreement
STIG      Security Technical Implementation Guidelines
TSO       Technology Services Organization


                                   175
USSGL   United States Standard General Ledger
VPN     Virtual Private Network




                                 176
                                   Report Distribution
Office of the Secretary of Defense

Under Secretary of Defense (Comptroller/Chief Financial Officer)
 Deputy Chief Financial Officer
 Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army

Auditor General, Department of the Army

Department of the Navy

Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force

Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command

Inspector General, U.S. Joint Forces Command

Other Defense Organizations

Defense Finance and Accounting Service
Inspector General, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals

Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and Ranking Minority Member

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations


                                             177
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee on
   Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
   Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and the
   Census, Committee on Government Reform




                                            178
Team Members

The Defense Financial Auditing Service, Department of Defense Office of Inspector General
produced this report.

Paul J. Granetto
Patricia A. Marsh
Addie M. Beima
Michael Perkins
G. Marshall Grimes
Frank C. Sonsini
Ernest Fine
Chanda D. Lee
Laura Croniger
Richard M. Ng
Lauren S. McLean
Stanley J. Arceneaux
Mahalakshmi Krishnam
Randall D. Yoder
Emily M. Caldwell
Jose V. Morales-Santiago
